<html>
<title> - REDUCING THE THREAT OF CHEMICAL AND BIOLOGICAL WEAPONS</title>
<body><pre>[Senate Hearing 107-481]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-481
 
         REDUCING THE THREAT OF CHEMICAL AND BIOLOGICAL WEAPONS
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 19, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate







                          U.S. GOVERNMENT PRINTING OFFICE
79-961                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia
                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)







                            C O N T E N T S

                              ----------                              
                                                                   Page

Ford, Hon. Carl W. Jr., Assistant Secretary of State for 
  Intelligence and Research......................................     6

    Prepared statement...........................................    11

Moodie, Michael, President, Chemical and Biological Arms Control 
  Institute......................................................    33

    Prepared statement...........................................    38

Sands, Amy, Ph.D., Deputy Director, Center for Nonproliferation 
  Studies, Monterey Institute of International Studies...........    44

    Prepared statement...........................................    49

Zelicoff, Alan P., Senior Scientist, Sandia National Laboratories    63

    Prepared statement...........................................    66

                                 (iii)

  


         REDUCING THE THREAT OF CHEMICAL AND BIOLOGICAL WEAPONS

                              ----------                              


                        Tuesday, March 19, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:12 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr., chairman of the committee, presiding.
    Present: Senators Biden, Feingold, Helms, Lugar, and Frist.
    The Chairman.  The hearing will come to order. Carl, 
welcome back to the committee. It's been a long, not a long 
time since you were here, but I remember the good old days when 
you were being of considerable assistance to our colleague John 
Glenn and it's nice to have you back.
    Today the Committee on Foreign Relations continues a 
hearing in a series that began in early February, which we 
entitled Securing America's Future. The key purposes of these 
hearings are to engage in as sober a discussion as we can to 
determine what the most urgent threats facing the United States 
are and to determine how our nation should prioritize the 
resources, although considerable, nonetheless limited, to 
address the most eminent threats.
    Two weeks ago the committee heard from a group of America's 
top scientists on the potential dangers associated with so-
called dirty bombs and improvised nuclear devices. Today we 
look at a threat posed by chemical and biological weapons or 
CBW as it's referred to, especially in the hands of terrorists.
    Last fall's anthrax attacks demonstrated that even a small 
scale CBW attack can greatly disrupt our lives. Those attacks 
resulted in 23 anthrax cases and five deaths, but the impact on 
this country, the impact on this city, the impact on this body 
far exceeded that number. The next time a CBW attack occurs the 
consequences could even be graver.
    In the extreme case, the Department of Defense estimates 
that on the unlikely prospect that a small pox attack would 
occur that could cause as many as 4 million deaths. The 
intelligence community has warned that al Qaeda was working to 
acquire dangerous chemical agents and toxins as well as 
biological weapons. We do not know if al Qaeda succeeded in 
these efforts, but we do know that they showed their trainees 
how cyanide works.
    And earlier this month, a self-styled anarchist was found 
to be storing cyanide precursors in a Chicago subway tunnel, 
which I would note parenthetically, I'm going to urge my 
colleagues as early as today to take up the Amtrak legislation 
for threat reduction relating to modernizing the tunnels that 
Amtrak has. There are five tunnels under New York City to carry 
350,000 people a day are in those tunnels. There's no 
ventilation, there's no lighting and there is no means of 
escape. And the same with the Baltimore tunnel.
    But some threats like third world ICBMs or space warfare 
are years from becoming imminent notwithstanding their threats, 
but the threat of chemical and biological weapons is here today 
and in my view we have to deal with it today.
    As our first witness will shortly explain, a number of 
nations are actively pursuing chemical and biological weapons 
programs. The members of President Bush's axis of evil are on 
this list and so are other nations. There's no single easy way 
to roll back the proliferation of chemical and biological 
weapons, but we must persist on a number of fronts. Engaging in 
tough-nosed diplomacy, enforcing strong export controls agreed 
upon with our allies and revitalizing the two applicable arms 
control regimes, the Chemical Weapons Convention and the 
Biological Weapons Convention, and applying sanctions where 
appropriate and turning to our military force where necessary.
    Nations can be deterred from using chemical or biological 
weapons. In 1991, the first President Bush told Saddam Hussein 
if Iraq dared to employ chemical weapons against U.S. troops, 
the United States would leave no option off the table, 
implicitly including nuclear weapons. Saddam chose to live 
another day and did not use chemical weapons.
    Unfortunately, deterrents may not work so well for 
terrorists. Especially groups like al Qaeda which aim to kill 
as many innocent victims as possible, even at the cost of their 
own lives. Vice Admiral Thomas Wilson, Director of the Defense 
Intelligence Agency warns that such weapons may be ``attractive 
to terrorist groups intent on causing panic and inflicting 
larger numbers of casualties. The psychological impact of the 
recent anthrax cases in the United States did not go 
unnoticed.''
    How can the United States best contain and reduce this 
threat? One answer lies in the arms control agreements we all 
ready have at our disposal including the Chemical Weapons and 
Biological Weapons Conventions. The CWC allows for both routine 
and challenge inspections to detect and deter clandestine 
activities. Moreover, state parties are required to enact 
legislation with punitive sanctions to make CWC prohibitions 
binding on their nationals living both at home and abroad.
    Unfortunately, the CWC has not achieved its full potential. 
The Organization for the Prohibition of Chemical Weapons, the 
implementing organization for CWC, has struggled with both 
mismanagement and financial crises over member assessments and 
reimbursements for inspections costs. The Organization has been 
forced to reduce its verification activities and cut back on 
industry inspections.
    During five years the Convention has been in effect, no 
party has requested a challenge inspection. I'm glad to hear 
the Administration is closely looking at the Organization to 
resolve its funding and management challenges, but we need an 
effective chemical weapons regime.
    We must also re-emphasize the Biological Weapons 
Convention. It is not my intention here today to rehash the 
debate over whether the United States should have agreed to the 
draft compliance protocol to the Biological Weapons Convention 
last year. I personally do believe the Administration was 
needlessly confrontational, but I understand its concerns over 
the protocol as drafted.
    Today I want to look ahead to the reconvening of the 
Biological Weapons Review Conference this November and ask how 
the United States can best enhance the implementation of this 
Convention? One option lies in strengthening global disease 
surveillance to help detect and contain infectious outbreaks, 
whether they are a result of biological weapons or natural 
disease.
    The Administration has proposed that BWC state parties 
commit to strengthening the World Health Organization's global 
alert and response network. However, many developing nations 
lack the resources and the infrastructure to effectively plug 
into and contribute to the WHO network.
    For that reason, Senator Helms and I at the appropriate 
time plan to introduce the Global Pathogen Surveillance Act of 
2002. This bill would provide up to $150 million over the next 
two years for necessary resources, both expertise and technical 
equipment to monitor infectious disease outbreaks within their 
borders, and cooperate with international investigations. I 
look forward to working closely with the Administration as we 
move forward on this issue.
    Another means of reducing the threat of chemical and 
biological weapons is to shut off access to those weapons and 
their infrastructure. I've often said that Russia is a virtual 
bonanza of weapons grade nuclear material that terrorists might 
attempt to steal. Well, guess what folks? Russia can be just as 
inviting a target for terrorists seeking chemical and 
biological weapons.
    Russia possesses the world's largest chemical weapons 
stockpile estimated at approximately 40,000 metric tons. Eighty 
percent of this stockpile consists of nerve agents. Only a few 
single drops of which can kill on contact. Russia acceded to 
the Chemical Weapons Convention in 1997, but bureaucratic 
disputes and lack of funding delayed the start of destruction 
activities until last year. Russia was supposed to meet by the 
year 2007, the chemical weapons deadline for the destruction of 
its entire stockpile. It remains doubtful if Russia can even 
meet the extended 2012 deadline.
    In the meantime, the security of many of these sites where 
the chemical and biological weapons are stored is poor and 
represents a real proliferation concern. But at least we have 
handle on the size of Russia's CW stockpile. During the Cold 
War, the Soviet Union also conducted a massive covert 
biological program. Roughly 50 former biological weapons 
institutes, mostly in Russia, are still open today possibly 
containing live biological agents. Truth is we don't know.
    The Russian Ministry of Defense has refused U.S. requests 
for access to four former military biological institutes. And 
as many as 15,000 underpaid, underemployed scientists who 
worked in the former Soviet programs are now potential targets 
for recruitment by rogue states and terrorists.
    Over the past decade, the United States has carried out a 
number of programs to help reduce the threat of biological and 
chemical weapons proliferation in Russia and the former Soviet 
Union. In particular, I want to salute the International 
Science and Technology Centers and a more recent program, the 
Bio-redirection Initiative for providing peaceful civilian 
research opportunities to former Soviet scientists who 
otherwise might be tempted to sell their wares to the highest 
bidder.
    In it's review of nonproliferation assistance at the end of 
last year, this Administration recognized the value of these 
programs, nudged I might add by the distinguished Senator from 
Indiana and pledged continued funding. But September 11th 
should've shown us that we can't afford to settle for business 
as usual when it comes to nonproliferation assistance.
    It is time for some creative thinking on the part of both 
the executive branch and the Congress on how to help Russian 
secure, consolidate and eliminate its chemical and biological 
weapons stockpiles and infrastructure. Let me offer a couple 
suggestions and I will invite our witnesses in the second panel 
to comment on them.
    We made a good start last year by authorizing the 
Department of Defense to spend as much as $50 million in FY 
2002 to assist Russia with its chemical weapons destruction 
efforts. Russia needs to step up to the plate with its own 
funding and we need to push our European allies to do more, 
because it's clearly in their interest as much as ours.
    But the Russian CW stockpile is a ticking time bomb. We 
need to accelerate in my view U.S. funding and that may cost as 
much as $10 billion over several years. A price we can afford 
if we want to neutralize that menacing threat. One option for 
financing this is the debt for nonproliferation swaps that 
Senator Lugar and I have proposed and the Senate passed in its 
Security Assistance bill would include such authorization.
    I strongly encourage the Administration to use that option. 
We could also turn Russia's biological and chemical weapons 
scientists into public health corps to clean up dangerous 
former test sites, develop and produce new vaccines and defeat 
multi-drug resistant tuberculosis and other diseases. Russian 
chemists and microbiologists are world class and their work in 
existing U.S. programs hold great promise. But Russia's 
environment and public health needs are truly urgent and 
overwhelming and a massive effort to meet those needs could 
easily employ up to a thousand more specialists.
    Let me now introduce our witnesses at today's hearing. Our 
first witness will be The Honorable Carl W. Ford, Assistant 
Secretary of State for Intelligence Research and as I said my 
colleagues remember a former staff member here and advisor to 
Senator John Glenn.
    Mr. Ford will present to the committee a threat assessment 
regarding the likelihood of possible chemical or biological 
weapons attacks against the United States both here at home and 
in our diplomatic facilities and military posts overseas, but 
obviously this is an open hearing and Mr. Ford will not discuss 
some topics and may in fact decline to answer some questions 
which I leave fully to his discretion.
    If you're in doubt, we'll go in closed session or arrange 
for a closed session meeting later. But I want to thank Mr. 
Ford for agreeing on such short notice to appear before this 
committee and I look forward to his testimony.
    Our second panel will feature three renowned experts on 
chemical and biological weapons who can expand on Mr. Ford's 
threat assessment and help us figure out what we need to do. 
Michael Moodie, I hope I'm pronouncing that correctly, 
President of the Chemical and Biological Arms Control 
Institute, helped negotiate the Chemicals Weapons Convention 
when he was Assistant Director of Arms Control and Disarmament 
under the first Bush Administration.
    He is equally proficient in the Biological Weapons 
Convention and I welcome his advice on how we can better 
utilize these two arms control regimes if he thinks we can. And 
Dr. Amy Sands is Deputy Director of the Center for 
Nonproliferation Studies at the Monterey Institute in 
California. And if I had to be a director of anything anywhere, 
I'd like to do it at Monterey. What a magnificent place to do 
it. I've had the pleasure of speaking there several times.
    Dr. Sands who was Assistant Director of ACDA under the 
Clinton Administration, will discuss how we can minimize the 
likelihood that terrorists will gain access to and employ 
chemical and biological weapons.
    And finally, Dr. Alan P. Zelicoff, Senior Scientist at the 
Sandia National Laboratory in New Mexico. He can update the 
committee on how the United States might best protect against 
and respond to a chemical or biological weapons attack. With 
that I will now turn to Senator Helms and then we'll move to 
the witness. Thank you, Senator.
    Senator Helms.  Thank you, Mr. Chairman. You have certainly 
given a wake up call to the people who are not bothered by the 
threats by chemical and biological weapons in the hands of 
rogue states and terrorist groups. I commend you on your 
statement and I think it ought to be inserted into the record 
and I'll be glad to do that if you want me to.
    The anthrax attacks this past fall have underscored the 
peril of all of these threats highlighting the need to deal 
with them in a more direct and determined manner. It's clearly 
preferable to deter and prevent and defend against a threat in 
the first place rather than deal with the chaos and death and 
destruction after the fact.
    We can deter the development and use of these weapons by 
making it crystal clear that to use them against the United 
States will expose the attacker to the full retaliatory 
response of our military including the potential use of our 
most destructive strategic weapons. I hope that never happens. 
I think we all do.
    The President is making this a very clear policy of the 
United States and I commend him for that. Should the deterrence 
fail, however, the likelihood of a chemical or biological 
weapons attack can be minimized through strong export controls 
and nonproliferation regimes that ensure that terrorist groups 
and rogue states will not acquire the technology in the first 
place, along with the expertise to build and deliver these 
heinous weapons.
    Now, our own government meanwhile must do a better job of 
controlling sensitive dual use weaponry. The United States also 
must pursue initiatives in the states of the former Soviet 
Union, we all know that, in order to secure dangerous materials 
and to keep scientists gainfully employed so that neither can 
or will be used by rogue states or anybody else to build 
weapons of mass destruction.
    And we must cause the Russians and the Chinese to halt 
their transfers of sensitive items and material that are 
flowing to many of these countries. Mr. Chairman, now you have 
indicated in your statement, it's critical that we never lose 
sight of the fact that the United States can prevent a nuclear, 
biological or chemical holocaust by building a robust missile 
defense system capable of defending if not deterring such an 
attack.
    I don't know whether you mentioned it earlier in your 
statement or not, but a recent national intelligence estimate 
indicated that Iran, Iraq and North Korea, if you will the axis 
of evil, are building long range missiles and that they have 
active weapons of mass destruction programs on our hands that 
will soon pose a direct threat to us.
    It therefore makes sense I think to spend some of our 
defense resources to develop a missile defense system. In any 
event, we must not surrender to the notion that some of these 
threats are more likely than others and that they therefore 
require the greatest share of resources. When it comes to 
America's security, I think we must be prepared to deal with 
all threats and to address them with every bit of the strength 
and purpose that we possess.
    And I join you, sir, in welcoming our witnesses for being 
here and as a matter of fact I thank them for doing it because 
I know it's an impingement on their time, but thank you for 
coming all of you.
    The Chairman.  Thank you, Senator. Mr. Ford, before you 
begin, let me apologize to Michael Moodie for mispronouncing 
his name. Michael, you can call me Biden when you get up here 
if it makes you feel any better. Be fair. Carl, the floor's 
yours.

  STATEMENT OF HON. CARL W. FORD, JR., ASSISTANT SECRETARY OF 
              STATE FOR INTELLIGENCE AND RESEARCH

    Mr. Ford.  Mr. Chairman, Senator Helms, Senator Lugar, as a 
former member of the committee staff, I've always been 
delighted to come back and share my thoughts and information 
before the committee. It's always been a delight. I have been 
troubled that this might be the first exception where it wasn't 
all that delightful.
    I clearly agree with the committee's emphasizing this very 
important threat of chemical and biological weapons, but I'm 
really not sure I'm up to the challenge of presenting that 
threat adequately and coherently and particularly at an 
unclassified level.
    One, I can't think of an intelligence problem more 
difficult at any level than dealing with biological weapons and 
chemical weapons. It is a serious concern of the entire 
intelligence community. A lot of resources are applied to the 
problem, it is a hard one.
    The second issue has to do with even when I can give you 
some of my personal judgments and beliefs based on having seen 
that information, the sources and methods used to get most of 
our findings are so sensitive that the evidence I'll present is 
sketchy at best and that for the most part, you'll have to take 
on faith that I'm reflecting a deeper study of the information. 
I urge you to ask us for later, either as individuals or as a 
group to have a more detailed intelligence presentation from 
CIA, DIA as well as INR to give you a full appreciation for how 
dangerous we think this is.
    What I'd like to do if you'll indulge me is I'll make a few 
more informal comments and sort of set the scene and then very 
briefly summarize the major portions of my written presentation 
and ask if you would to take the full testimony and put it in 
the record.
    The Chairman.  It will be.
    Mr. Ford.  The issue itself is very complicated. I think 
that some preparatory remarks are in order so that at least you 
understand my biases and my conceptual framework so that when I 
make these statements, you'll at least know where I'm coming 
from.
    I arbitrarily divide chemical and biological weapons into 
basically three types, having a lot to do with their delivery. 
The first group and in fact the one that we have the most 
information on, the one that is in the greatest numbers around 
the world: battlefield weapons. Weapons that have been produced 
by a number of countries since World War I that are designed to 
be delivered by military aircraft, artillery, or missiles. 
These normally are designed for specific battlefield targets, 
to disrupt the battle area, protect a particular zone, or 
provide the opportunity for forces to maneuver.
    Even so our own commanders who have looked at the problems 
of Russian tactics and our own and thought about warfare and 
the age of nuclear, chemical and biological weapons, believe 
that they're uncontrollable. And while you may hope to disrupt 
the maneuver of your enemy, you may also kill a lot of your own 
people and have your own maneuver limited. So even the 
battlefield weapons were, at least in our system, always more 
for deterrence. Hopefully we would never have to use these 
weapons. If we did, it was always seen as a last resort sort of 
situation.
    They also, because of their military nature, may be easy to 
steal, but I would say even that is very difficult. They are 
hard to deliver by any other than a military organization so 
that while there are a lot of these weapons around, that's 
probably not the best chance for a terrorist to get a hold of 
chemical and biological weapons. They're closely guarded even 
in the most lax systems and even if you got one, what to do 
with it is a real problem.
    A second category are what I call terrorist weapons. The 
anthrax in the letters would be an example, a very concrete 
example here in the United States of a terrorist weapon. It 
didn't kill a lot of people, but it sure psychologically had a 
huge impact and scared a lot of people and made us recognize 
and realize the dangers of chemical and biological weapons.
    Another example of a terrorist weapon would be a nuclear 
isotope or nuclear waste sort of bomb that killed a few people 
through immediate contact, maybe the radiation would affect a 
few people, but we're talking about dozens rather than 
thousands. While clearly something that we worry about, it's 
more in the nature of the psychological damage and the impact 
that it might have.
    The third category is weapons of mass destruction. And at 
least I personally feel that these are the ones that while most 
unlikely to be used are the ones that are the scariest and that 
we have to be certain that we understand and are carefully 
protecting ourselves against. Here I mean the notion of being 
able to attack our livestock or our agricultural areas or 
poison the water of an entire city where we're talking about 
tens of thousands of casualties from chemical or biological 
weapons.
    Those are the ones that terrify us the most. Clearly they 
are ones that we think of when we think of terrorists, but I 
would argue that terrorists alone based on what we know from al 
Qaeda and various other groups, almost certainly would have to 
have state assistance in order to have those sorts of weapons 
of mass destruction. So you're really talking about the 
convergence of the people on our bad list and terrorists coming 
together when you get to the point of weapons of mass 
destruction.
    So with those introductory comments, let me just go through 
quickly some of the countries that we are most concerned about 
on these various types of chemical and biological weapons, 
battlefield, terrorist and weapons of mass destruction.
    The first one on my list and I think on most people's list 
is Iraq. Given Iraq's past behavior, it's likely that Baghdad 
has reconstituted programs prohibited under UN Security Council 
resolutions. Since the suspension of UN inspection in December 
of 1998, Baghdad has had more than enough time to reinitiate 
it's CW programs. Programs that have demonstrated the ability 
to produce deadly CW before they were disrupted by Operation 
Desert Storm, Desert Fox and United Nations inspections.
    Iraq's failure to submit an accurate full, final and 
complete disclosure in either 1995 or 1997 coupled with its 
extensive concealment efforts, suggest that the BW program also 
has continued. Without inspection and monitoring of programs, 
however, it's difficult to determine their current status.
    One of the reasons, of course, that Iraq bothers us in 
particular is that it is one of the countries that's actually 
used weapons against other forces and against its own people. 
So that not only do Iraqis have a capability and an intention, 
they've also done it and that's a small group of countries in 
that category.
    The second one on my list is Iran. Iran, a state party to 
the Chemical Weapons Convention, already has manufactured and 
stockpiled chemical weapons including blister, blood, choking 
and probably nerve agents and the bombs and artillery shells to 
deliver them. Tehran continues to seek production and 
technology, training, expertise, equipment and chemicals from 
entities in Russia and China that could be used to help Iran 
reach its goal in indigenous nerve agent production capability.
    Tehran continued to seek considerable dual use bio-
technical materials, equipment and expertise from abroad 
primarily from entities in Russia and Western Europe ostensibly 
for civilian uses. We believe that this equipment and know-how 
could be applied to Iran's biological warfare program. Iran 
probably began its offensive BW program during the Iran-Iraq 
War and likely has evolved beyond agent research and 
development to the capability to produce small quantities of 
agent. Iran may have some limited capability to weaponize BW.
    North Korea has a longstanding chemical weapons program. 
North Korea's domestic chemical industry can produce bulk 
quantities of nerve, blister, choking and blood agents. We 
believe it has a sizable stockpile of agents and weapons. These 
weapons could be on a variety of delivery vehicles including 
ballistic missiles, aircraft, artillery projectiles and 
unconventional weapons.
    North Korea has not acceded to the Chemical Weapons 
Convention, nor is it expected to do so any time soon. While 
North Korea has acceded to the Biological Weapons Convention, 
it nonetheless has pursued biological warfare capabilities over 
the last four decades. North Korea likely has a basic bio-
technical infrastructure that could support the production of 
infectious biological agents. It's believed to possess a 
munitions production infrastructure that would allow it to 
weaponize agents and may have biological weapons available for 
military use.
    Lybia continues its efforts to obtain technologies and 
expertise from foreign sources. Outside assistance is critical 
to its chemical and biological weapons program and the 
suspension of UN sanctions in 1999 has allowed Tripoli to 
expand its procurement effort with old primarily Western 
European contacts with expertise, parts and precursor chemicals 
for sale.
    Syria has also vigorously pursued the development of 
chemical and to a lesser extent biological weapons to counter 
Israel's superior conventional forces and nuclear weapons. 
Syria believes that its chemical and missile forces deter 
Israeli attacks. Syria has a longstanding chemical weapons 
program and is pursuing biological weapons. Syria depends on 
foreign sources for key elements of its chemical and biological 
warfare program, including precursor chemicals and key 
production equipment.
    The U.S. has pressed possible supplier states to Syria to 
stop such trade, thereby making acquisition of such materials 
more difficult. The 33 nation Australia Group coordinates 
adoption of stricter export controls in many countries. As I'm 
sure you appreciate, the real complexity here is that many, if 
not most, of the precursors and ingredients in chemical and 
biological weapons can be used in totally non-dangerous and 
medical and chemical sorts of experiments, so that it's very 
difficult other than from intelligence sources to know what the 
intention of the purchaser of this material is.
    The United States believes that Cuba has at least a limited 
developmental offensive biological warfare research and 
development effort. Cuba has provided dual use bio-technology 
to rogue states. We're concerned that such technology could 
support BW programs in those states.
    We call on Cuba to cease all BW applicable cooperation with 
rogue states and to fully comply with all its obligations under 
the Biological Weapons Convention. At least at this point, we 
don't see Cuba involved in chemical weapons research and 
development.
    Serious concerns remain about the status of Russian 
chemical and biological warfare programs. Chairman Biden went 
over those very accurately in his opening statement. Moscow has 
declared the world's largest stockpile of chemical agents--
39,969 metric tons of chemical agent to be exact, mostly 
weaponized, including artillery, aerial bombs, rockets and 
missile warheads.
    According to the Russian CWC declaration, all former Soviet 
chemical weapons are stored at seven locations in Russia. In 
the late '80s and early 1990s, it carried out an extensive 
consolidation process of chemical warfare material from sites 
within Russia and from non-Russian locations.
    Russian officials do not deny research has continued, but 
assert that it aims to develop defenses against chemical 
weapons, a purpose that is not banned by the CWC. Many of the 
components for new binary agents development by the former 
Soviet Union are not on the CWC schedule of chemicals and have 
legitimate civilian applications, clouding their association 
with chemical weapons use. However, under the CWC all chemical 
weapons are banned whether or not they are on CWC schedules.
    The former Soviet offensive biological program was the 
world's largest and it consisted of both military facilities 
and non-military research and development institutes. This 
program employed thousands of scientists, engineers and 
technicians throughout the former Soviet Union with some 
biological warfare agents developed and weaponized as early as 
the 1950s.
    The Russian government has committed to ending the former 
Soviet BW program. It has closed or abandoned plants outside 
the Russian Federation and these facilities have been engaged 
through cooperative threat reduction programs. Nevertheless we 
remain concerned that Russia's offensive biological warfare 
capabilities remain.
    The United States remains concerned by the threat of 
proliferation both of biological warfare expertise and related 
hardware from Russia. Russian scientists, many of whom either 
are unemployed or unpaid for an extended period, may be 
vulnerable to recruitment by states trying to establish 
biological warfare programs. The availability of worldwide 
information exchange via the Internet facilitates this process.
    I believe that the Chinese have an advanced chemical 
warfare program including research and development production 
and weaponization capabilities. Chinese military forces have a 
good understanding of chemical warfare doctrine, having studied 
the tactics and doctrine of the former Soviet Union. Chinese 
military forces conduct defensive chemical warfare training and 
are prepared to operate in contaminated environments.
    I also believe that China's current inventory of chemical 
agents includes the full range of traditional agents and China 
is researching more advanced agents. It has a wide variety of 
delivery systems for these, including tube artillery, rockets, 
mortars, landmines, aerial bombs, sprayers and SRBMs. China 
acceded to the Biological and Toxin Weapons Convention in 1984, 
though many believe its declaration under the BWC confidence 
building measures were inaccurate and incomplete.
    China has consistently claimed that it has never 
researched, manufactured, produced or possessed biological 
weapons and that it would never do so. However, China possesses 
an advanced bio-technology infrastructure and the bio-
containment facilities necessary to perform research and 
development on lethal pathogens. It's possible that China has 
maintained the offensive biological warfare program it's 
believed to have had before acceding to the BWC.
    Finally, terrorist interest in chemical and biological 
weapons has been growing and probably will increase in the near 
term. The threat is real and proven. The ease of acquisition or 
production of some of these weapons and the scale and terror 
that they can cause will likely fuel interest in using them to 
terrorize.
    The transport and dispersal techniques also are manageable 
and can be made effective easily as seen recently in using the 
mail as a delivery system to spread anthrax. Many of the 
technologies associated with the development of chemical and 
biological agents have legitimate civil applications.
    In addition, the proliferation of such weapons raises the 
possibility that some states or rogue entities within these 
states could provide chemical or biological weapons to 
terrorists. It remains unlikely that a state sponsor would 
provide such a weapon to a terrorist group. But an extremist 
group with no ties to a particular state, but which likely does 
have friends in state institutions, could acquire or steal such 
a weapon and attempt to use it.
    We have not completed our study of al Qaeda in Afghanistan 
and their chemical and biological capabilities. So that it's 
too soon to give you a complete picture, but at least so far, I 
think that I would summarize it as that our basic judgment 
remains the same: That they had an almost insatiable appetite 
for information on biological and chemical weapons, both how to 
do it and how to deliver it.
    They also were interested in talking to a wide range of 
experts from neighboring countries or co-religionists. We find 
no evidence so far that they had successfully developed 
weaponized chemical or biological agents, but I have to admit 
that at least so far, we feel as we did after we got into Iraq 
and found out after Desert Storm how much we had missed. I 
think that many of us are having the same reaction in 
Afghanistan, that while they didn't succeed, their interests 
and activities were higher than many of us had imagined until 
we saw the evidence and we still are looking. Many of the 
documents and areas have not been fully examined. So I'll have 
to only give you a partial judgment.
    At this point, Mr. Chairman, I will ask that you put the 
complete testimony in the record and be happy to take any 
question that you or other members of the committee may have.
    [The prepared statement of Mr. Ford follows:]

 Prepared Statement of Carl W. Ford, Jr., Assistant Secretary of State 
                     for Intelligence and Research

    Chairman Biden, Senator Helms, I am particularly pleased to come 
before you today, as I spent many years working for the Senate 
Committee on Foreign Relations. I enjoyed those years, and am pleased 
now to contribute to your work again, if in a different way.
    More states have credible chemical and biological warfare (CBW) 
capabilities than ever before. Advanced CBW capabilities and the 
widespread public understanding of U.S. vulnerabilities since the 
anthrax attacks which followed on the events of September 2001 makes 
their use all the more likely. CBW threats challenge not only our 
homeland and Americans overseas, but our allies as well. Collaborative 
international efforts to meet, reduce and defeat the use of chemical or 
biological weapons have become essential. The United States remains 
committed to enacting new domestic laws and strengthening treaties and 
international WMD regimes to prevent and deter CBW development and use. 
I will highlight those countries not in compliance with their 
international obligations. The Administration has raised this important 
issue with a number of countries bilaterally.
    Since the worldwide CBW threat is growing in breadth and 
sophistication, the use of these weapons anywhere in the world would 
affect the United States. Crude but lethal attacks can be small and 
could strike us in our homes here or in American communities abroad. 
More than a dozen nations, including China, Iran, Iraq, Libya, North 
Korea, Russia and Syria have the capabilities to produce chemical and 
biological agents. Former Soviet biological and chemical facilities 
still exist in Ukraine, Kazakhstan and Uzbekistan, though none is 
active now. Many have been engaged by U.S. threat reduction programs to 
try to control proliferation of equipment, materials and knowledge. 
Nevertheless, it will always remain difficult to assess how successful 
we have been in preventing proliferation--especially since basic CBW 
production does not require large, sophisticated programs or 
facilities. Additionally, the worldwide exchange of information via the 
Internet facilitates this process.
How likely is the use of CBW?
    Compared to nuclear weapons, chemical weapons (CW) and biological 
weapons (SW) are easier to acquire and the inherently dual-use nature 
of many goods and technologies needed to produce SW and CW makes their 
assembly easier. That makes it likely that we will confront such a 
threat in the future--again most likely by terrorists.
    Chemical agent development is threatening, and the development and 
production of traditional chemical agents may be easier because their 
formulations are more widespread than biological compounds. The 
building blocks of any chemical weapons program come from the chemical 
industry. Precursor chemical procurement can be difficult for a state 
that cannot produce them indigenously. Nevertheless, World War I-era CW 
agents are not difficult to acquire and diagrams and descriptions of 
chemical weapons from expired patents remain available in public 
libraries or on the Internet.
    Virtually all the equipment, technology and materials needed for 
biological agent research and development and production are available 
on the open market as well as in the secondary markets of the world. 
Vaccine research and disease treatment require essentially the same 
equipment. Because biological weapons are relatively cheap, easy to 
disguise within commercial ventures, and potentially as devastating as 
nuclear weapons, states seeking to deter nations with superior 
conventional or nuclear forces find them particularly attractive. 
Therefore BW will probably continue to gain importance since it can 
kill or incapacitate military forces or civilian populations, while 
leaving infrastructure intact but contaminated. Its great disadvantage, 
that it can also attack one's own side, may be blunted by advanced 
vaccination programs. Traditional controls, similar to those used for 
fissionable material or delivery systems, cannot be effective when 
dangerous pathogens occur naturally and do not depend on manufacturing 
settings for production. Procuring BW agents and using them can be done 
in different ways with different effects. While developing an effective 
biological weapon is more difficult than popular discussion may 
indicate, the degree of difficulty depends on the agent chosen and the 
sophistication of the delivery method. Biological weapons have been 
developed by states for many operational uses, as well as by terrorist 
groups.
    In addition to direct threats to the American people The United 
States is vulnerable to indirect attack. For example, the United States 
relies on modern intensive farming production methods that involve 
large numbers of healthy susceptible livestock in geographically 
concentrated areas, a centralized feed supply, and rapid movement of 
animals to markets. In addition, U.S. crops generally lack genetic 
diversity, leaving them vulnerable to disease. An anti-livestock BW 
attack could result in multiple outbreaks throughout the United States 
before the disease is diagnosed. In most cases, confirmation of a 
foreign animal disease would result in immediate termination of exports 
and potential banning of U.S. livestock products by foreign 
governments, probably accompanied by killing infected and exposed 
livestock. The economic impact would be enormous; as many as one in 
eight U.S. jobs is directly involved in some form of agriculture, from 
food production to delivery to retail sales.
    Chemical and Biological weapons have been used throughout history, 
and we are keenly aware of the recent anthrax attacks as well as past 
Iraqi use of chemical weapons against the Kurds in 1988 as well as the 
1995 Aum Shinrikyo sarin gas attack in the Tokyo subway. The threat is 
real, dangerous and likely to occur again.
Which nations possess weaponized stocks of chemical and biological 
        agents?
            Iraq
    Given Iraq's past behavior, it is likely that Baghdad has 
reconstituted programs prohibited under UN Security Council 
Resolutions. Since the suspension of UN inspections in December of 
1998, Baghdad has had more than enough time to reinitiate its CW 
programs, programs that had demonstrated the ability to produce deadly 
CW before they were disrupted by Operation Desert Storm, Desert Fox, 
and UNSCOM inspections. Iraq's failure to submit an accurate Full, 
Final, and Complete Disclosure (FFCD) in either 1995 or 1997, coupled 
with its extensive concealment efforts, suggest that the BW program 
also has continued. Without inspection and monitoring of programs, 
however, it is difficult to determine their current status.
    Since the Gulf War Iraq has rebuilt key portions of its chemical 
production infrastructure for industrial and commercial use at 
locations previously identified with their CW program. Iraq has also 
rebuilt a plant that produces castor oil, allegedly for brake fluid. 
The mash left over from this production, however, could be used to 
produce ricin, a biological toxin. Iraq has attempted to purchase 
numerous dual-use items for, or under the guise of, legitimate civilian 
use. This equipment--in principle subject to UN scrutiny--also could be 
diverted for WMD purposes. Since the suspension of UN inspections in 
December 1998, the risk of diversion has increased. After Desert Fox, 
Baghdad again instituted a reconstruction effort on those facilities 
destroyed by the U.S. bombing, including several critical missile 
production complexes and former dual-use CW production facilities. In 
addition, Iraq appears to be installing or repairing dual-use equipment 
at CW-related facilities. Some of these facilities could be converted 
fairly quickly for production of CW agents.
    UNSCOM reported to the Security Council in December 1998 that Iraq 
also continued to withhold information related to its CW program. For 
example, Baghdad seized from UNSCOM inspectors an Air Force document 
discovered by UNSCOM that indicated that Iraq had not consumed as many 
CW munitions during the Iran-Iraq war in the 1980s as had been declared 
by Baghdad. This discrepancy indicates that Iraq may have hidden an 
additional 6,000 CW munitions.
    In 1995, Iraq admitted to having an offensive BW program and 
submitted the first in a series of FFCDs that were supposed to have 
revealed the full scope of its BW program. According to UNSCOM, these 
disclosures are incomplete and filled with inaccuracies. Since the full 
scope and nature of Iraq's BW program was not verified, UNSCOM has 
reported that Iraq maintains a knowledge base and industrial 
infrastructure that could be used to produce quickly a large amount of 
BW agents at any time. Iraq also has continued dual-use research that 
could improve BW agent R&D capabilities. With the absence of a 
monitoring regime and Iraq's growing industrial self-sufficiency, we 
remain concerned that Iraq may again be producing biological warfare 
agents.
    Iraq has worked on its L-29 unmanned aerial vehicle (UAV) program, 
which involves converting L-29 jet trainer aircraft originally acquired 
from Eastern Europe. In the past, Iraq has conducted flights of the L-
29, possibly to test system improvements or to train new pilots. These 
refurbished trainer aircraft are believed to have been modified for 
delivery of chemical or, more likely, biological warfare agents.
            Iran
    Iran, a State Party to the Chemical Weapons Convention (CWC), 
already has manufactured and stockpiled chemical weapons--including 
blister, blood, choking, and probably nerve agents, and the bombs and 
artillery shells to deliver them. Tehran continues to seek production 
technology, training, expertise, equipment, and chemicals from entities 
in Russia and China that could be used to help Iran reach its goal an 
indigenous nerve agent production capability.
    Tehran continued to seek considerable dual-use biotechnical 
materials, equipment, and expertise from abroad--primarily from 
entities in Russia and Western Europe--ostensibly for civilian uses. We 
believe that this equipment and know-how could be applied to Iran's 
biological warfare (SW) program. Iran probably began its offensive BW 
program during the Iran-Iraq war, and likely has evolved beyond agent 
research and development to the capability to produce small quantities 
of agent. Iran may have some limited capability to weaponize BW.
            North Korea
    North Korea has a long-standing chemical weapons program. North 
Korea's domestic chemical industry can produce bulk quantities of 
nerve, blister, choking, and blood agents. We believe it has a sizable 
stockpile of agents and weapons. These weapons could be on a variety of 
delivery vehicles, including ballistic missiles, aircraft, artillery 
projectiles and unconventional weapons. North Korea has not acceded to 
the Chemical Weapons Convention (CWC), nor is it expected to do so any 
time soon.
    While North Korea has acceded to the Biological Weapons Convention 
(BWC), it nonetheless has pursued biological warfare capabilities over 
the last four decades. North Korea likely has a basic biotechnical 
infrastructure that could support the production of infectious 
biological agents. It is believed to possess a munitions production 
infrastructure that would allow it to weaponize agents and may have 
biological weapons available for military deployment.
            Libya
    Libya continues its efforts to obtain technologies and expertise 
from foreign sources. Outside assistance is critical to its chemical 
and biological weapons programs, and the suspension of UN sanctions in 
1999 has allowed Tripoli to expand its procurement effort with old-
primarily West European--contacts with expertise, parts, and precursor 
chemicals for sale. Libya still seeks an offensive CW capability and an 
indigenous production capability for weapons. Evidence suggests Libya 
also seeks the capability to develop and produce BW agents. Libya is a 
state party to the BWC and may soon join the CWC, however this likely 
will not mean the end to Libya's ambition to develop CBW.
            Syria
    Syria has also vigorously pursued the development of chemical--and 
to a lesser extent biological--weapons to counter Israel's superior 
conventional forces and nuclear weapons. Syria believes that its 
chemical and missile forces deter Israeli attacks.
    Syria has a long-standing chemical warfare program, first developed 
in the l970s. Unlike Iran, Iraq, and Libya, Syria has never employed 
chemical agents in a conflict. It has a stockpile of the nerve agent 
sarin and may be trying to develop advanced nerve agents as well. In 
future years, Syria will likely try to improve its infrastructure for 
producing and storing chemical agents. It now probably has weaponized 
sarin into aerial bombs and SCUD missile warheads, giving Syria the 
capability to use chemical agents against Israeli targets. Syria has 
not signed the CWC.
    Syria is pursuing biological weapons. It has an adequate 
biotechnical infrastructure to support a small biological warfare 
program. Without significant foreign assistance, it is unlikely that 
Syria could advance to the manufacture of significant amounts of 
biological weapons for several years. Syria has signed the BWC.
    Syria depends on foreign sources for key elements of its chemical 
and biological warfare program, including precursor chemicals and key 
production equipment. The U.S. has pressed possible supplier states to 
Syria to stop such trade, thereby making acquisition of such materials 
more difficult. The 33-nation Australia Group coordinates adoption of 
stricter export controls in many countries.
            Cuba
    The United States believes that Cuba has at least a limited, 
developmental offensive biological warfare research and development 
effort. Cuba has provided dual-use biotechnology to rogue states. We 
are concerned that such technology could support BW programs in those 
states. We call on Cuba to cease all BW-applicable cooperation with 
rogue states and to fully comply with all its obligations under the 
Biological Weapons Convention.
            Russia
    Serious concerns remain about the status of Russian chemical and 
biological warfare programs, the accuracy of the information Russia 
provided in its declarations, and the willingness of the Russian 
defense establishment to eliminate these capabilities. Further, given 
that Russia still faces serious economic and political challenges and 
the large number of weapons involved, the possibility that some 
Russians might sell chemical and biological materials, technologies and 
knowledge to other countries or groups continues to exist.
    Russia has stated publicly that it opposes proliferation of 
chemical and biological weapons. Because of its economic situation and 
serious financial shortfalls, Russia remains concerned about the costs 
of implementation of the Chemical Weapons Convention. It believes the 
high destruction costs of its large chemical weapons stockpile requires 
Western assistance.
    Moscow has declared the world's largest stockpile of chemical 
agents: 39,969 metric tons of chemical agent, mostly weaponized, 
including artillery, aerial bombs, rockets, and missile warheads. U.S. 
estimates of the Russian stockpile generally are still larger. The 
inventory includes a wide variety of nerve and blister agents in 
weapons and stored in bulk. Some Russian chemical weapons incorporate 
agent mixtures, while others have added thickening agents to increase 
the time of contamination on the target.
    According to the Russian CWC declaration, all former Soviet 
chemical weapons are stored at seven locations in Russia, mostly in the 
Volga/Ural section of the country. During the late 1980s and early 
1990s, it carried out an extensive consolidation process of chemical 
warfare material, from sites within Russia and from non-Russian 
locations.
    Russian officials do not deny research has continued but assert 
that it aims to develop defenses against chemical weapons, a purpose 
that is not banned by the CWC. Many of the components for new binary 
agents developed by the former Soviet Union are not on the CWC's 
schedules of chemicals and have legitimate civil applications, clouding 
their association with chemical weapons use. However, under the CWC, 
all chemical weapons are banned,' whether or not they are on the CWC 
schedules.
    The former Soviet offensive biological program was the world's 
largest and consisted of both military facilities and nonmilitary 
research and development institutes. This program employed thousands of 
scientists, engineers, and technicians throughout the former Soviet 
Union, with some biological warfare agents developed and weaponized as 
early as the 1950s. The Russian government has committed to ending the 
former Soviet BW program. It has closed or abandoned plants outside the 
Russian Federation and these facilities have been engaged through 
cooperative threat reduction programs. Nevertheless, we remain 
concerned about Russia's offensive biological warfare capabilities 
remain.
    Key components of the former Soviet program remain largely intact 
and may support a possible future mobilization capability for the 
production of biological agents and delivery systems. Moreover, work 
outside the scope of legitimate biological defense activity may be 
occurring now at selected facilities within Russia. Such activity, if 
offensive in nature, would contravene the BWC, to which the former 
Soviet government is a signatory. It would also contradict statements 
by top Russian political leaders that offensive activity has ceased.
    The United States remains concerned by the threat of proliferation, 
both of biological warfare expertise and related hardware, from Russia. 
Russian scientists, many of whom either are unemployed or unpaid for an 
extended period, may be vulnerable to recruitment by states trying to 
establish biological warfare programs. The availability of worldwide 
information exchange via the Internet facilitates this process.
    Russian entities remain a significant source of dual use 
biotechnology, chemicals, production technology, and equipment for 
Iran. Russia's biological and chemical expertise makes it an attractive 
target for Iranians seeking technical information and training on BW 
and CW agent production processes.
            China
    I believe that the Chinese have an advanced chemical warfare 
program, including research and development, production, and 
weaponization capabilities. Chinese military forces have a good 
understanding of chemical warfare doctrine, having studied the tactics 
and doctrine of the former Soviet Union. Chinese military forces 
conduct defensive chemical warfare training and are prepared to operate 
in contaminated environments. In the near future, China is likely to 
achieve the necessary expertise and delivery capability to integrate 
chemical weapons successfully into overall military operations.
    I believe that China's current inventory of chemical agents 
includes the full range of traditional agents, and China is researching 
more advanced agents. It has a wide variety of delivery systems for 
chemical agents, including tube artillery, rockets, mortars, landmines, 
aerial bombs, sprayers, and SRBMs. China signed the Chemical Weapons 
Convention in January 1993, and ratified it shortly after the U.S. 
ratification in April 1997.
    China acceded to the Biological and Toxin Weapons Convention in 
1984, though many believe its declarations under the BWC confidence-
building measures inaccurate and incomplete. China has consistently 
claimed that it has never researched, manufactured, produced, or 
possessed biological weapons and that it would never do so. However, 
China possesses an advanced biotechnology infrastructure and the 
biocontainment facilities necessary to perform research and development 
on lethal pathogens. It is possible that China has maintained the 
offensive biological warfare program it is believed to have had before 
acceding to the BWC.
What is the potential access of international terrorist groups to these 
        stocks and capability to produce and employ CBW?
    Terrorist interest in chemical and biological weapons has been 
growing and probably will increase in the near term. The threat is real 
and proven. The ease of acquisition or production of some of these 
weapons and the scale and terror they can cause, will likely fuel 
interest in using them to terrorize. The transport and dispersal 
techniques also are manageable and can be made effective easily, as 
seen recently in using the mail as a delivery system to spread anthrax.
    Many of the technologies associated with the development of 
chemical and biological agents, have legitimate civil applications. The 
increased availability of these technologies, particularly if a group 
is already in the United States and therefore not subject to many of 
the controls in place that monitor and limit the export of these 
technologies, coupled with the relative ease of producing chemical or 
biological agents, makes the threat very real.
    In addition, the proliferation of such weapons raises the 
possibility that some states or rogue entities within these states 
could provide chemical or biological weapons to terrorists. It remains 
unlikely that a state sponsor would provide such a weapon to a 
terrorist group. But an extremist group with no ties to a particular 
state (but which likely does have friends in state institutions) could 
acquire or steal such a weapon and attempt to use it.
            How well can the U.S. monitor the threat?
    The proliferation of chemical and biological weapons continues to 
change in ways that make it more difficult to monitor and control, 
increasing the risk of substantial surprise. Countries and terrorists 
determined to maintain and develop these capabilities are demonstrating 
greater proficiency in the use of denial and deception efforts.
    State programs have been placing significant emphasis on self-
sufficiency. In bolstering their domestic production capabilities, and 
thereby reducing their dependence on others, they can better insulate 
their programs against interdiction and disruption. Although these 
indigenous capabilities may not always substitute well for foreign 
imports--particularly for more advanced technologies--in many cases 
they may prove adequate.
    In addition, as their domestic capabilities grow, traditional 
recipients of technology could become new suppliers of technology and 
expertise to others. We are increasingly concerned about ``secondary 
proliferation'' from maturing state-sponsored programs, such as those 
in Iran and North Korea. These countries and others not members of the 
Australia Group do not adhere to its export constraints. Apart from 
governments, private companies, scientists, and engineers from 
countries such as China and Russia may provide CBW-related assistance 
to countries or terrorist organizations. Weak or unenforceable national 
export controls, especially on dual-use technology and goods, coupled 
with the growing availability of technology, makes the spread of CBW 
easier, and therefore more likely.
    Unfortunately, Mr. Chairman, I cannot assure you that we can 
predict and protect against the threats of CBW attack on the Homeland 
or American bases, embassies, and interests abroad. The technology for 
CBW is too widely available and the precursors too widespread for us to 
track. Such weapons tend to be clumsy, subject to vagaries of wind, 
weather, and ventilation systems. Moreover, the users rarely have any 
immunity from them. We must worry, however, that in the hands of a 
fanatic, CW or BW agents could cause great loss of life.
    I look forward to you questions.

    The Chairman.  Without objection we place it in the record 
and I'd suggest if the Chairman doesn't mind we have 10-minute 
rounds. There's only three of us. We could coherently follow-up 
on some questions.
    Let me say, Mr. Secretary, at the outset, I appreciate the 
way you have segmented your presentation and in a sense what, 
Senator Helms obviously he speaks for himself, but what Senator 
Helms and I are attempting to do in a way, my words not his, is 
sort of provide a glossary and a vocabulary for our colleagues 
on how to begin to get a handle on this issue.
    We both agree that this is notwithstanding the degree to 
which we each support or don't support national missile defense 
and how fast we move it, et cetera. This is, irrespective of 
that, whether we got full bore or we slow or whatever, we both 
believe this is an incredibly urgent problem that we have to 
attend to and it has not, at least speaking for myself, I don't 
think it's sunk into the consciousness of our colleagues or the 
country how urgent this concern is.
    And so what I don't want to do, though, and neither of us 
want to do is unduly alarm the public. So we're trying to be as 
straightforward as we can and to get down if we can and we're 
going to have many of these hearings, try to determine whether 
there's an emerging consensus among you and your colleagues 
behind you and others in this country and around the world as 
to what are the most likely threats, what are the things, how 
likely are they and what do they have to be in combination with 
to come to fruition.
    And that's why I quite frankly like your, as you said it 
was your way of looking at it, battlefield weapons, terrorist 
weapons and weapons of mass destruction. And so as I go through 
my questions here, I want you to understand that if you know 
the purpose, you may be able to help me if I don't ask the 
question precisely the way to elicit the answer that you being 
around this place long enough know I'm trying to--the issue I'm 
trying to get my arms around.
    And so you had indicated that in your statement, you talk 
about the various things we can do to deal with all of this 
including, and I'll get back to it, an arsenal of response 
including arms control being part of the mix, but let me leave 
that aside for the moment.
    Why would, in a generic sense, why would a terrorist group 
like al Qaeda, let's just pick al Qaeda. Why would a terrorist 
group like al Qaeda in your view need the help of a state, a 
sponsor in effect, to be able to utilize a chemical and 
biological weapons of mass destruction?
    Your definition of that is it kills a whole lot of people. 
Anthrax is not a weapon of mass destruction necessarily at 
least as was use of the mail, but obviously certain pathogens 
released into the atmosphere in sufficient quantities, 
obviously certain chemical weapons dispersed in sufficient 
quantities could in fact have a devastating impact in terms of 
the number of people killed.
    So just muse with us a moment why for the bigger bang for 
the buck for the real serious fall out why would an al Qaeda 
need, hypothetically, one of the states we mentioned to be 
sponsor, in effect, to their effort?
    Mr. Ford.  Well, I must make it clear that I'm not expert 
on chemical and biological weapons and I obviously, like you, 
have been compelled to try to think about this issue more and 
more, particularly after 9/11.
    My sense is that getting ahold of small quantities of 
chemical and biological weapons material is difficult but 
clearly within the capability over time for major terrorist 
groups like al Qaeda, Hezbollah and others. And we've seen in 
several places in the world that people are crazy enough or 
committed enough to blow themselves up or to kill themselves in 
order to make a point.
    And when you talk about a few dozen people, or even a few 
more than that, those types of actions are quite possible by 
terrorist groups because you don't have to have the 
organization and planning a sophisticated device. It can be a 
very primitive device equivalent to the conventional weapon of 
strapping dynamite around your waist and going into a pizza 
restaurant and blowing yourself up.
    And I don't belittle that because as we saw with anthrax, 
it has a huge impact. If that happened in Detroit or if it 
happened in LA, it would have a huge impact on Americans' 
perceptions of their safety and be concerned about what 
happened to their kids.
    Having said that, I think that many of us believe that the 
preferred weapon for terrorists right now would still be some 
sort of conventional explosion. They can kill a lot more people 
a lot easier than they can with these exotic chemical and 
biological weapons and probably have less chance of blowback or 
impact on them. And so that blowing up a school, attacking a 
sports event, if you want to have an impact, you probably can 
do that a lot easier than you can with trying to use a chemical 
or biological agent.
    If you're trying to think about how to poison the water of 
a major metropolitan area where tens of thousands of people 
could be killed or if you're trying to think about how you 
would kill over time a large number of people on the East Coast 
with some sort of disease, we're really talking about a 
sophistication in packaging and delivery and organization that 
I think even nation states would have difficulty putting 
together.
    There's a logistics and organizational requirement that you 
can try it, but you'd probably fail if you're not careful. So 
that it's the sophistication of the weapon, the sophistication 
of the delivery means that while best done by terrorists, 
probably is beyond their planning and scientific capability to 
put together effective weapons of mass destruction.
    One of the states or a group within a state could prepare 
that, but not want to be fingered as being the culprit and 
could pass it on to a terrorist group. I think at least in my 
mind, that's a more likely scenario than al Qaeda's thinking 
this up all by itself.
    Now, having been one of those who probably would've said 
you gotta be crazy if someone came and said I think they might 
fly an airplane into the World Trade Center and the Pentagon, 
so part of the problem for us in the intelligence community is 
thinking the unthinkable, the things that might occur even if 
we don't have much faith that it could.
    But I still believe that it's more likely that they would 
have to have the aid of some state or some group within a state 
to pull off the major weapons of mass destruction sort of 
effort successfully.
    The Chairman.  To put this in context, I asked in the 
middle of the anthrax scare and I think it was when our 
distinguished doctor colleague was talking to a joint caucus of 
Democrats and Republicans, Senator Frist, and I remember asking 
the question about not of Dr. Frist, but of some of the 
intelligence people about the ability to pollute a water supply 
in a city to such a degree that thousands of people would die.
    And what I wanted to deal with was the image in my home 
state of people thinking someone could take a little vial and 
pour a vial into the reservoir near where I live or in the 
Brandywine River where we get our drinking water and thousands 
of people die. The truth is that is not possible. There is no 
such little vial that I'm aware of. You're talking about tons 
of material being dropped in some cases, so your point being it 
is not all that easy, but we have to anticipate this 
possibility occurring.
    I'm going to come back in the second round and ask you a 
few questions about the intelligence community's assessment of 
motivation for these countries. For example, unrelated, assume 
Iran were a thoughtful democracy. Were I Iran, I might very 
well be doing what Iran was doing because of what Iraq did to 
me. It's harder for me to understand why Syria might, but any 
rate but I'll come back to that. I yield to the Senator from 
North Carolina, Senator Helms.
    Senator Helms.  Mr. Chairman, there was a time when I 
accepted all of these so-called problems as problems that we 
ought to be looking at. These are just as important and so 
forth. It ain't so.
    You think of it in terms of your children and grandchildren 
and what they are facing on this kind of problem and then you 
have a wake up call. I remember when Sam Nunn and Jim Woolsey 
came here that day. That was sort of a wake up call. I don't 
know whether you know about that or not, but they had visited 
the sites and the laboratories in Russia where all this is 
going on.
    So Russia's not just fooling around with it. It may not be 
that we are just not fooling around with it, too. I don't know, 
I confess, the extent to which we are doing it, but we are 
headed toward the possibility of something very bad. Now, the 
most recent national intelligence estimate indicates, we talk 
about Syria and Iran and Russia's assistance to those two 
countries, and I just wondered what difference would it make if 
Russia were to cease its proliferation, total proliferation, 
what impact would this have on the development of chemical and 
biological programs in just these two countries?
    I think that's the way to put it in perspective. How much 
good would it do if they stopped doing it for those two 
countries?
    Mr. Ford.  Well, I think it would make a considerable 
difference. I would simply add to your thought that as I was 
talking to our friends in Moscow, I think we ought to talk to 
our friends in Europe and----
    Senator Helms.  You mean----
    Mr. Ford [continuing].----ask them to do the same thing. 
Because I think this is one of those cases where it's not just 
Russia and China, ones we sort of look to first for giving 
these things to countries in the Middle East, but also in terms 
of chemical and biological weapons, often the most critical 
pieces of technology or shipment are from our friends in 
Europe.
    Senator Helms.  Let me go back to my original premise. Do 
we have any evidence that terrorist organizations have been 
able to acquire chemical and biological weapons from Russia? 
Now, we've had all sorts of meetings on the fourth floor, Joe, 
but I have never heard that question answered to my 
satisfaction.
    Mr. Ford.  You know, I'm not sure that I--I can't really go 
into any details, but my sense is that during the Cold War, 
during the Soviet Union period, that particularly Russian 
chemical defense and biological warfare defense capabilities 
were shared with many of their allies and friends.
    For most of the countries who have been doing offensive BW 
and CW, it starts and is often done under the cover of 
defensive activities, chemical warfare, biological warfare. So 
I don't know, I can't give you the exact answer that the Soviet 
Union did, but they clearly were helpful in providing chemical 
and biological weapons information to a whole host of countries 
that modeled themselves after the Soviet military forces.
    Senator Helms.  You have made my point. You have made my 
point. Neither do we know. And I've asked the question and they 
would get back to me and all that sort of thing. Now, what is 
our intelligence estimate of the likely use by Iran of these 
dangerous--I'll only just pick out one. What's the likelihood 
that they would do it?
    Mr. Ford.  And the important variable there is the what. 
What would they do? I think that Chairman Biden suggested that 
one of the reasons that motivates Iran is the concern about 
past conflict with Iraq so that some of their chemical and 
biological activities are designed as a deterrent or possible 
use against Iraq should it attack Iran.
    I think there's also the concern on the part of the 
Iranians that if there should be a conflict with Israel that 
both Israel and the United States would be involved and that 
our superior conventional capabilities would need to be 
deterred in some way or hope they could deter it in some way so 
they would also be motivated to----
    Senator Helms.  Of course, they got to think of tit for 
tat, too. You know, what are they going to do to their own 
countries and this is a factor that's almost impossible to 
apply. Now, I don't want to leave our friends in Beijing out of 
this thing, you know. What's happening there? What are they 
doing to proliferate if anything?
    Mr. Ford [continuing]. In terms of proliferation, the 
record is not clear and particularly we probably could go into 
somewhat more detail at a classified level. I think that they 
have been more involved in dual use and things that could be 
used by a recipient for chemical and biological. I have no 
evidence that I know of that they have provided chemical 
weapons or biological weapons----
    Senator Helms.  Nor do I.
    Mr. Ford [continuing]. They develop for themselves. That 
has something--China hasn't done that.
    Senator Helms.  Well, we keep mentioning Iraq and we 
forget, I think, that there are a hell of a lot of folks over 
there who don't like Saddam Hussein and if we or somebody or 
everybody should concentrate on getting that guy out of there, 
I think Iraq would be once more one of the countries that we 
can most rely upon because these folks come to see me and I'm 
sure they come to see every Senator and House Member, but they 
are pleading for help and it's difficult to know how best to 
help them.
    Now, Joe mentioned and you did, too, I think, the 
biological agents and chemicals that Iraq is trying to acquire. 
What type specifically, do you know that, are they trying to 
acquire?
    Mr. Ford. I would have to take that question and get back 
to you. Primarily because any details like that would have been 
acquired through collection of intelligence and I'll have to 
just take the question if you don't mind.
    Senator Helms.  Very well. I'd like for you to check your 
sources and let us know what you find out. Now, back to cousin 
Saddam Hussein, I think he's continuing his ballistic missile 
program. We have some indication of that. I will not go further 
in describing what the indication is. And I wonder if you have 
any feeling about how far if anything he has been able to do to 
weaponize these chemo-bio-agents, I suppose you call them, into 
warheads and that's the ultimate answer to what the danger 
question is all about.
    Mr. Ford.  Well, both simply by chance and also by 
emphasis, we probably know more about Iraq's chemical and 
biological weapons programs than many of the other countries 
that we're looking at.
    Senator Helms.  I think that's right.
    Mr. Ford.  And it's at least in terms of chemical weapons, 
not only do we know that they have built them in the past, as I 
suggested they had used them in the past, but there are 
suspicions based on our inspections and our discussions with 
Iraqis over many years that there are a lot of weapons that 
they can't account for.
    So there is a large consensus that in fact, while I may not 
be able to prove it to you today, I certainly believe that they 
have a stockpile of chemical weapons weaponized ready to go if 
they should need them.
    Biological agents are somewhat more problematical, but I 
think that most people that look at Iraq on chemical, 
biological and nuclear will--if they don't have it now, they're 
working on it and that if given lifting of sanctions or some 
major change that it makes it a little bit easier for them they 
will have them and that the moment that they are no longer 
under international controls that they'll have the whole range 
of weapons. And we see the activity, we see the emphasis, we 
see the resources, we see the brain power----
    Senator Helms.  All right.
    Mr. Ford  [continuing].----It's made difficult for them 
because we're all watching very closely, but they're still 
trying.
    Senator Helms.  No wonder John Glenn was so smart when he 
was in the Senate. One final question yes or no, does the 
United States have the ability to detect biological and 
chemical weapons being smuggled into the United States?
    Mr. Ford.  Sir, I don't know, but that's a good question 
and I will try to get you an answer.
    Senator Helms.  Okay. If you'll do that. Thank you, sir.
    The Chairman.  Senator Lugar.
    Senator Lugar.  Well, thank you, Mr. Chairman. Secretary 
Ford, in your concluding statement of your prepared testimony, 
you say, ``I cannot assure you that we can predict and protect 
against the threats of CBW attack on the homeland'' and you 
point out, that an attack could cause great loss of life.
    Isn't the whole thrust of the Administration's new policy 
to address these threats and reduce the possibility of such 
attacks occurring? By that I mean opening up the countries that 
have weapons of mass destruction.
    At the heart of the war against terrorism, it seems to me 
is the thought that we must gain international transparency 
with regard to Iran, Iraq or others or we are going to have 
war. We're going to have military force employed. In other 
words, the President is saying this is not something you sort 
of wait around for for years and maybe it develops, or maybe it 
doesn't. This is a critical point in history.
    A lot of our allies and members of the coalition in 
Afghanistan are very nervous about this. They have the same 
estimate you have this morning. We're all vulnerable, but 
they're worried the President is serious about eliminating the 
intersection of terrorist cells and weapons of mass destruction 
and that this policy could lead to a long war.
    I suppose what I'm probing for this morning is, is there a 
sense and presentation of all this by the Administration so 
that the American people understand what's at stake here; or 
are we likely to have a lot of hearings about who has what, and 
how they got it; or are we going to aggressively remove the 
source?
    As I understand the quarrel with Iraq, there is no 
international transparency with regard to possible WMD 
stockpiles. Leaving aside Saddam Hussein and the past there, 
the international community shares our concerns. They want to 
know what Iraq has in their stockpile.
    So, people from Iraq have gone to see Kofi Annan, Secretary 
General of the United Nations, offering some arrangement, but 
apparently it was unsatisfying to everyone, including the 
Secretary General. Eventually, if Iraq says, ``No you cannot 
come in, we are going to deny you knowledge of what we are 
doing,'' then it's likely to precipitate military action and we 
will find out what's occurring.
    I think that there has to be some sense, not necessarily in 
your testimony, but in the overall discussion of this problem 
that we're in a war and the objective is to establish 
transparency. And the importance of doing that is tremendously 
vital to changing the whole picture.
    As you point out, there could be individual terrorists or 
groups of people who get their hands on some dangerous material 
and kill people. But as you're pointing out, it's very 
difficult to poison the whole reservoir or to kill tens of 
thousands of people in a city without having a fairly active 
organization. If not a state at least some portion of a 
government or some apparatus, some infrastructure.
    I think we have the ability to stop that if we have the 
political will to do so. We will remove the opportunity for 
groups to organize and establish themselves.
    This is just a personal editorial, but it's precipitated by 
the thought, as you've said, this is a gloomy subject and it 
is, but it's brighter because we're alert. We're not passive as 
we might have been if you had testified a year ago. We're 
prepared to do something about it.
    We can do something about it in a big way with Russia now. 
Here is a country that in terms of chemical warfare is somewhat 
cooperative, and 40,000 metric tons of weapons are reasonably 
secure in seven locations with Russians and Americans providing 
security. And the Russians having a palpable fear of the 
results of the stuff getting out, as we do, to Chechens or 
others in their own country where Russians would be killed.
    But the problem, as you pointed out, is the deadline for 
the Chemical Weapons Convention may not be met in 2012, and it 
comes down to money. There hasn't been very much in the Russian 
budget for this. Now, the current Duma has appropriated some 
money, and Congress has stepped forward. So at Shchuchye, there 
may be in fact some action this year to start destroying those 
weapons.
    Although it may be true that nerve gas and other types of 
weapons are hard to circulate, I observed in Shchuchye as 
perhaps you have that there are 2 million hells being stored 
there. I put three 85mm shells in a thin suitcase that somebody 
could carry out of the place. Now nobody's going to, we're 
guarding it, but these weapons are easily portable.
    For a long time it's been hard for some of us to convince 
our colleagues that we ought to cooperate with Russia and 
destroy these weapons. Some feel that the Russians made their 
bed, let them sleep in it. It's expensive to do. Why should 
American taxpayers destroy the first one of those shells? But I 
think we're over that hurdle. We sort of understand that the 
stuff is portable and proliferation could occur.
    What is the Administration's general thrust with regard to 
this whole problem? It's been an ordeal getting to one of the 
seven locations. We know where they all are. We now agree that 
95 percent of the problem is in Russia and they have a 
reasonably cooperative government, but is there an 
organizational thrust or a budget thrust on the part of our 
Administration to get to the source? Find out about it, work 
with people to destroy it.
    Mr. Ford.  Senator Lugar, as I know you appreciate, 
intelligence officers are very good at telling you that the sky 
is falling. We're not so good at telling you how to protect 
yourself from that or what you need to do. And it may seem like 
a cop out, but in fact it really is a different job and I will 
tell my colleagues at State that they should come down and 
brief the committee or see you personally and talk to you about 
what we intend to do about this.
    What we are telling our policy colleagues is that this is 
one you can't go to sleep on. That everything that we see is 
that a proliferation of these very dangerous capabilities of 
chemical and biological weapons both by states and by terrorist 
groups and that given that proliferation, the chances for use 
are increasing and that if they are used, we'll never forgive 
ourselves if we don't do something about it.
    I have to tell you that I still am more worried by a 
nuclear attack than I am a chemical or biological attack. I 
think that terrorist use of these weapons can occur, and I 
would mourn the death of even a few people; but I would also 
hate to wake up one morning and realize that instead of just 
the World Trade Center disappearing that New York City had 
disappeared or Washington or some other place and that either 
by an accidental launch or by some five crazy guys that get a 
hold of an ICBM from one of the nations that have them and 
shoot it at us.
    But that's not say that biological and chemical aren't 
dangerous. They are. And they're very difficult to deal with.
    Senator Lugar.  Let me just to say in the limited time I 
have that I think nuclear probably is a greater threat, but 
since we're concentrating today----
    Mr. Ford.  I understand. I understand.
    Senator Lugar [continuing].----on chemical and biological. 
With the biological, we have a very talented man working for 
Nunn-Lugar in the Pentagon now, Andy Webber. His exploits have 
been told by Judy Miller in her book, ``Germs.'' He has visited 
many biological facilities and made it possible for people like 
me to get into them.
    I mention this because the sharing of information about 
what we have found has not been very wide. I point out 
anecdotally as I visited with British Intelligence on the way 
back from NATO in January, they were amazed that we physically 
had been wandering around biological facilities, examining the 
contents, trying to put some security beyond barbed wire around 
some of these places.
    I think you know with our NATO allies, with our European 
friends, there's potential for a great deal of cooperation, as 
we simply clue them in as to what we know with regard to 
chemical situations, too. The degree of intelligence 
perspective in all these things is very uneven and I think we 
have the benefit of being far ahead in that respect due to the 
intrusions, but the----
    Mr. Ford.  But I think some our NATO and European friends 
are in fact helping very much with Russia----
    Senator Lugar.  Right.
    Mr. Ford [continuing].----in destruction and control of the 
chemical weapons.
    Senator Lugar.  They have indeed; and the Germans and the 
Norwegians, the Canadians, the British all have stepped up now 
to the Shchuchye project, probably because of your efforts and 
those at State. I applaud you.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you. Senator Frist.
    Senator Frist.  Thank you, Mr. Chairman and thank you, 
Secretary Ford for an outstanding perspective to what I think 
is one of the most pressing issues of our time. And that is the 
threat of biological, and chemical, but biological terror, in 
part because unlike the nuclear, we don't fully understand 
biological terror.
    We saw the assault of anthrax on our soil and we were 
unprepared. We were unprepared for that. This hearing is very 
important because it shows the rich matrix involved that is our 
international intelligence which really hasn't done a very good 
job in speaking, I believe, to our public health system. There 
hasn't been the need to in part because the science hadn't been 
there. We weren't fully aware that the technology of 
weaponization is in the hands of others and it is this far 
developed as it is.
    And I applaud the Chairman and the Ranking Member to paint 
this much larger picture and then it's incumbent upon us in the 
United States at Congress with the leadership of the 
Administration to weave this story together in such a way that 
families listening to this testimony around this country feel 
secure and feel safe and know what to do.
    One area we haven't talked very much about I'd like to come 
back to after I make a few more general statements is the whole 
issue of smallpox because I don't want us to leave this hearing 
and think that it does take a large state or a lot of money or 
a lot of sophistication. Because it doesn't and that's what's 
unique.
    In terms of biological weapons, these germs, these 
bacteria, you don't see the weapon. It doesn't take very much 
money. They spread themselves. They can be contagious, not all 
of them are. The perpetrator is long gone. The weapon, you 
can't smell it, you can't see it, you can't touch it, you can't 
taste it and the victim may be six or seven days later, plus 
that victim can spread the germ to other victims.
    As a nation, I don't think Americans are fully aware of the 
risk. In your written statement, ``Terrorist interest in 
chemical and biological weapons has been growing and probably 
will increase in the near term. The threat is real and 
proven.'' You said it in your oral testimony as well, but it's 
very important that we in Congress hear that and I would say 
that local elected officials and local governments hear that as 
well because they're the ones who are going to respond.
    It's not going to likely be the military where 
conventionally we think in response to these terrorist 
assaults. America's not yet aware of how real the threat is, 
even in spite of anthrax which hit here in Washington, the East 
Coast and Florida and New York and Connecticut.
    Your statement that it's increasing or that the threat is 
real and proven and probably will increase is important for 
America to hear as well. We haven't seen it yet. I don't know 
what's going to come, but a terrorist whose purpose is to 
terrorize, to put fear, to paralyze infrastructure now know 
that it works. Before anthrax we didn't know. Now they know it 
works even though anthrax in the large scope of things was 
quite small. I say that because I think the risk is real, that 
it's increasing, that we remain vulnerable today.
    We're responding as a government, but we still remain 
underprepared. The intentional release of potentially deadly 
bacteria and viruses or poisonous agents or chemical agents 
that we're talking about is a reality today. Ounce for ounce, 
whether it's anthrax or whether it is smallpox, these are among 
the most lethal weapons of mass destruction. They're more 
powerful than the hydrogen bomb today potentially, that can be 
used and if you're a terrorist and you know that, it gives you 
great strength if your purpose indeed is to terrorize.
    There have been many past studies that we kind of put aside 
that we use as a call to action, but I think we need to go back 
and look at those. In 1993, the Office of Technology and 
Assessment estimated that under the right atmospheric 
conditions, dispersion by an airplane of 220 pounds of anthrax 
spores over Washington, D.C. could result in up to 3 million 
deaths.
    Well, we're much better prepared today I believe with the 
way government has responded, with the stockpiles of medicines, 
but what about smallpox. We didn't go into the agents today, 
Mr. Chairman, but what about botulinum toxin? We will in the 
second panel. Or tularemia or the plaque which has wiped a 
larger percentage of the population than any disease. These 
agents have been identified by our intelligence community and 
now we need to communicate with America to make sure that we do 
appropriately respond.
    As we've heard and will continue to hear, the threats from 
biological agents are real. The terrorist groups have the 
resources. They have the motivation now we know to use germ 
warfare and indeed, we need to recognize as a country as we 
merge our foreign relations, our intelligence, our foreign 
policy with what goes on here at home, the weapons of choice in 
the wars of the 21st century may well be botulinum toxin, 
anthrax and smallpox.
    You mentioned al Qaeda. Osama bin Ladin has said publicly 
that it is his religious duty to acquire weapons of mass 
destruction including biological and chemical weapons. I 
appreciate you going far in saying what evidence we have to 
date, but in truth as you well said and even implied, there may 
be more than we know today and we're aggressively looking in 
that arena.
    People say why today and in part it's because of these 
rapid advances in agent delivery. We know that other nations 
have loaded warheads, Scud missiles with biological weapons, or 
you know that and we on the panel, but a lot of America doesn't 
know that. It's all ready been done. They've been loaded. They 
haven't been fire, haven't been sent, but that's how far along.
    Technology's advanced even since that point in time in 
terms of how to deliver these agents. Mr. Chairman and Senator 
Helms, I think are doing a tremendous job and I look forward to 
working with them on their bill, the Global Pathogen 
Surveillance Act of this year. It's a bill I've studied that is 
very, very important as we look at both emerging potential 
agents as well as agents that we know of today.
    This whole issue about are we prepared as a nation is 
important. Again, that's why today's hearing is so important 
because physicians are not trained to recognize these agents. 
Physicians are not trained to look and see what smallpox is. 
The anthrax rash, we've simply not been trained to look at that 
in the past.
    Every moment counts here because how quickly we pick up and 
diagnose pretty much defines how quickly we can stop the 
spread. Therefore, I think it is very important that you brief 
us either privately or otherwise what are the seven agents? How 
real is that risk of smallpox? And I'll come back and close 
with a question on this, but smallpox, it takes one person and 
if that person's infected and they go to an airport, they can 
infect 10 people and those 10 people can be all across the 
United States of America.
    So it really does go tracing it all the way back. We don't 
have enough vaccine today. Period. Now, I said we don't have 
enough vaccine to vaccinate everybody today. We do have enough 
vaccine I think to respond appropriately, but we're not going 
to have what we're going to have in a year from now. So in the 
meantime, it's important for us to know who has the smallpox 
virus. It's been eradicated as a disease, but who has that 
virus?
    And I'll close with that question for you and I know you 
probably can't answer that fully right now, but it is important 
for us to know.
    Let me just say because now I've sort of painted this 
picture that I'm concerned about that we are responding as a 
government. It's been remarkable to me since October. We passed 
a Bio-terrorism Preparedness Act of 2001 that the Senate 
passed. It sets a comprehensive framework for responsiveness. 
The President and the Congress has responded by increasing 
funding to about $3 billion from about $500 million in one 
year. That money's down to the local level. In the President's 
budget, it will be going up to about $6 billion if we approve 
that aspect of his budget, which I'm very supportive of as we 
go forward.
    With that and I'll ask that my opening statement be made a 
part of the record in its entirety.
    The Chairman.  Without objection it will be.
    [The prepared statement of Senator Frist follows.]

                Prepared Statement of Senator Bill Frist

    We are here to address one of the most pressing issues of our 
time--the threat of chemical and biological terror. America is not 
aware that the risk is real and significant. We are vulnerable. We are 
not unprepared, but we are underprepared.
    Biological and chemical terrorism, the intentional release of 
potentially deadly bacteria, viruses, toxins, or poisonous chemical 
agents, are a terrifying reality. Ounce for ounce, biological agents 
such as anthrax and smallpox are among the most lethal weapons of mass 
destruction known. In 1993, the Office of Technology Assessment 
estimated that under the right atmospheric conditions, dispersion by 
airplane of 220 pounds of anthrax spores over Washington, D.C. could 
result in up to 3 million deaths. And as we know all too well, the 
mailing of anthrax-laced letters last fall infected 18 people and 
killed five innocent Americans.
    As we will hear today, the threats from biological and chemical 
agents are real. Terrorist groups have the resources and the motivation 
to use germ warfare. The weapons of choice in the first war of the 21st 
century may be tularemia, smallpox, ebola, botulin toxin, and anthrax. 
But this should come as no surprise. Osama bin Laden has said publicly 
that it is his religious duty to acquire weapons of mass destruction, 
including biological and chemical weapons. Rapid advances in agent 
delivery technology have made the weaponization of germs much easier. 
Finally, with the fall of the Soviet Union, the expertise of thousands 
of scientists knowledgeable in germ warfare may be available to the 
highest bidder.
    Bioterrorism remains a significant threat to our country. Exposed 
individuals will most likely show up in emergency rooms, physician 
offices, or clinics, with nondescript symptoms or ones mimicking the 
common cold or flu. Most likely, physicians and other health care 
providers will not attribute these symptoms to a bioweapon. If the 
bioagent is communicable, such as small pox, many more people may be 
infected in the interim, including our health care workers. Experts say 
it may take as long as 24 to 48 hours after a bioterrorist attack 
occurs before federal assistance can arrive, making it the critical 
time for preventing mass casualties.
    Unfortunately, as we also will hear today, America is not yet fully 
prepared to meet the threat of biological warfare. Great strides have 
been made in the past three years; but there is much more to be done.
    It is a frightening but true fact that a biological or chemical 
attack on our soil could be even more deadly and destructive than the 
recent attacks on the World Trade Center and the Pentagon. Biological 
weapons, in particular, pose considerable challenges which are 
different from those of standard terrorist weapons. The delayed onset 
of symptoms, difficulty in tracking the source of an attack and high 
communicability are among the factors that make bioterrorism a real and 
serious threat. A terrorist attack using a deadly infectious agent--
whether delivered through the air, through our foods, or by other 
means--could kill or sicken millions of Americans.
    To counter this threat, a substantial new federal investment in our 
public health infrastructure, increased intelligence and preventive 
measures, expedited development and production of vaccines and 
treatments, and constant vigilance on the part of our nation's health 
care workers is required.
    Recently, legislation I introduced, with Senator Kennedy, to help 
prepare to meet this threat was signed into law. The ``Public Health 
Threats and Emergencies Act of 2000'' provides a coherent framework for 
responding to health threats resulting from bioterrorism. It authorizes 
a series of important initiatives to strengthen the nation's public 
health system, improve hospital response capabilities, upgrade the 
Center for Disease Control and Prevention's rapid identification and 
early warning systems, assure adequate staffing and training of health 
professionals to diagnose and care for victims of bioterrorism, enhance 
our research and development capabilities, and authorizes additional 
measures necessary to prevent, prepare, and respond to the threat of 
biological or chemical attacks.
    The Frist-Kennedy ``Bioterrorism Preparedness Act of 2001'' builds 
on the foundation laid by the ``Public Health Threats and Emergencies 
Act of 2000'' by authorizing additional measures to improve our health 
system's capacity to respond to bioterrorism, protect the nation's food 
supply, speed the development and production of vaccines and other 
countermeasures, enhance coordination of federal activities on 
bioterrorism, and increase our investment in fighting bioterrorism at 
the local, state, and national levels.
    The Congress and the Administration has now provided an additional 
$1.4 billion for these activities; the vast majority of these funds 
would go toward a one-time investment in strengthening the response 
capabilities of our hospitals, health care professionals, and local 
public health agencies that would form the front-line response team in 
the aftermath of a bioweapon attack.
    Arms control negotiators have used the term ``dual use'' to refer 
to biologic production facilities that have the potential to be used by 
some countries to produce vaccines for children one week and then 
produce bacteria or viruses for biologic weapons the next. But we can 
also use the term ``dual use'' differently: The same infrastructure 
investments used to prepare our public health communities, doctors and 
federal agencies to detect, diagnose and respond to smallpox epidemic 
resulting from a biologic attack can also be used to detect and respond 
to outbreaks of natural occurring diseases like West Nile.
    In addition to strengthening our defenses against a bioterrorist 
event, the improved public health capacities resulting from preparation 
and planning will lead to substantial health benefits in dealing with 
inevitable natural occurrence of emerging infectious diseases.
    Last fall, the GAO released a report, ``Challenges in Improving 
Infectious Disease Surveillance Systems,'' requested by Senators Leahy, 
McConnell, Feingold, and myself. It concludes that global disease 
surveillance, especially in developing countries, is woefully 
inadequate to provide advance warning about newly emerged diseases, 
including antibiotic-resistant tuberculosis, or the suspected use or 
testing of dangerous organisms as bioweapons. Not only would improving 
international surveillance networks and capacities help poor countries 
meet their health care needs, it is in our own security interest to 
know about emerging threats if we are to appropriately respond quickly 
and effectively.
    It is essential that we take steps immediately to fill the gaps in 
our nation's defense and surveillance system against chemical and 
biological terrorism, as well as our public health infrastructure. It 
is essential that Congress to take the steps necessary to make sure 
that our nation is fully prepared to respond to any threat to our 
people. I look forward to working with my colleagues to meet these 
goals.

    Senator Frist.  Secretary Ford, again I thank you for your 
overall presentation. On smallpox itself, is it an agent that 
we should be worried about today in terms of international 
terrorism including terrorism on our soil here?
    Mr. Ford.  The very simple answer, Senator, is yes, very 
much so. The work that you and others in the Congress have 
done--at least from an intelligence officer's perspective--has 
not only been important, but better late than never. This 
threat has been growing for some time and we can't warn you 
enough that the threat is real and that it's going to come and 
that we're going to need to be prepared.
    At least from the intelligence community, we're trying to 
warn you also that we can't see all of this. We're not going to 
be able, unless we're lucky, to give you the sort of specific 
tactical warning that you need. That should suggest to most 
people that we have to get ready.
    Now, I don't know any intelligence officers who aren't of a 
very--their view is that we should defend as much as we can; 
public health, homeland defense, increase the protections at 
the borders, et cetera. But most of us believe that we can't 
rest just on defense, that we have to be aggressively going out 
and with all of our diplomatic and economic--and military, if 
necessary--means deal with the problems of terrorism and those 
countries that are supporting terrorism and weapons of mass 
destruction.
    And that it's this combination of preparedness at home, 
being smarter, the public understanding what the dangers are, 
the realistic dangers and understanding the exaggerations that 
have been made in some cases. But also we need to know that 
we're going to have to go get people. We're going to have to 
continue to arrest terrorists. We're going to continue to have 
to push diplomatic measures to try to get a handle on this.
    But it's not one we can just ignore any longer. We can't 
just walk away from it. This is one that if we are faithful to 
our children and our grandchildren, this is one we're going to 
work on from now on. And unfortunately there's no easy answer. 
There's no simple answer. Just simply the interest that you and 
the others on the committee have added an important step in the 
right direction.
    Senator Frist.  Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    The Chairman.  Let me follow-up with just a few questions 
and I invite any of my colleagues to either interrupt me and or 
add their own questions and I'll be brief.
    As usual, Senator Lugar stated it most succinctly, 
transparency or war. And I think that's really the choice that 
we're going to have to make and the decisions that others are 
going to have to take in terms of whether we mean it. With 
regard to transparency, has the intelligence community done an 
assessment as to what kind of inspection regime would be needed 
in Iraq to satisfy us that there was transparency?
    Mr. Ford.  There is not a formal intelligence community 
assessment of that. I'm sure that various intelligence agencies 
have thought about this and written things. We in fact in INR 
have just completed in the last week our own assessment of what 
would be needed in an inspection regime, but we did it almost 
as a target to shoot at rather than a policy prescription. It 
was, if you're going to ask us to monitor and verify, here is 
what we need from an intelligence perspective. And we'd be 
happy to--it's classified of course, but we'd be happy to share 
that with the committee.
    The Chairman.  After consultation with the Ranking Member, 
what I'm going to hope we can suggest and I'm sure we can, with 
plenty of advanced notice to our colleagues, a couple, a series 
of closed hearings----
    Senator Helms.  Amen.
    The Chairman  [continuing].----on matters that we raised 
with regard to the nuclear concern two weeks ago, a week ago as 
well as this. But in open session, one of the things that seems 
to me, as you just said Carl in response to Dr. Frist, or to 
Senator Frist, you said that this is something we're going to 
be trying to get our hands around, this is something we're 
dealing with on a daily basis if we're serious for a long time 
to come.
    One of the difficulties that I'm having here is it seems to 
me, at least on it's surface, there are certain things that we 
are able to do with a fair degree of reliability and there are 
certain things that we can do where we can measure, we can 
measure the results even though we can't guarantee that after a 
full accounting, we've taken care of everything.
    And I keep coming back to a place my friend from Indiana 
has spent a lot of time thinking about in Russia, keep coming 
back to Russia. There's certain obvious, clear, able to be 
delineated concerns that unlike with regard to Iraq, unlike 
Iran, North Korea, Libya or any other place, there is at least 
in part a willingness to genuinely cooperate, genuinely 
cooperate.
    And so I'd like ask a few very just very pointed questions 
that you may be able to give very short answers to. If you 
can't, I can defer it to a closed session.
    What is the INR's assessment of A, the willingness and B, 
the capacity with our financial and professional assistance of 
the Russians to corral and destroy some of the 40,000 tons of 
their chemical weapons that they have?
    My impression is they mean it. My impression is they 
desperately need help. My impression is notwithstanding the 
fact we talked about them participating, their entire defense 
budget is about $5 billion this year. I mean, I wish Americans 
would think about that.
    Let's assume they're lying by a factor of 10. Let's assume 
they're lying by a factor of 20. They're still one-third to 
one-quarter with gigantic lies what our defense budget is. But 
if our estimates are correct that it's about $5 billion, then I 
don't think it's at all realistic that they're going to be able 
to ``chip in.'' And why is it not in our interest I keep asking 
myself, for us to spend 8 to $10 billion to wipe out a 
significant portion of the chemical capability that exists 
there?
    So my question is again, have you assessed their 
willingness to genuinely cooperate in that effort and B, do we 
have the combined capacity to destroy a significant portion of 
this chemical stockpile if we're willing to spend the money?
    Mr. Ford.  My assessment is similar to yours that the 
Russians clearly would like to be rid of this problem and that 
they are willing to cooperate in destroying these chemical 
weapons capabilities. Partially for the same reasons that we 
have of the fear of--you have so many of these. As Senator 
Lugar pointed out, they're afraid that they're going to lose 
some of them, somebody's going to steal them, somebody's going 
to sell them and so that they'd like to have them off their 
hands. They also are clearly understanding that many of these 
weapons are deteriorating and that they are a costly logistic 
problem in the future for them. Forget all the good things that 
would happen if they got rid of the weapons. And the best that 
we can tell is that the real issue--well, there are always some 
on any side that are suspicious of the U.S. or should we really 
do this, but clearly the Russian government is prepared to take 
this step, but they can't afford it. It's too expensive and----
    The Chairman.  It's much more than that.
    Mr. Ford  [continuing].----they're going to have to get 
some help from us or the international community or they're not 
going to be able to do it certainly on the time schedule that 
we'd like to see them do it.
    The Chairman.  There's much more to pursue about that and 
I'll do some of that in writing. Let me conclude by asking what 
is INR's assessment of the allegations some of the Russian 
entities that still are engaged in, that existed for biological 
research and development, if not the military, are conducting 
active biological weapons programs in contravention of the 
Biological Weapons Convention and why have the Russians in 
INR's view refused U.S. requests for access to four military 
institutes working on biological research activities? If you 
have an assessment.
    Mr. Ford.  I do and I don't. I do in the sense that I could 
talk to you about this in a little more detail at a classified 
level. My unclassified answer is that I think that biological 
weapons research is a serious and embarrassing subject for a 
lot of people and that even if they have changed their mind 
about the use of biological weapons and would like to be rid of 
them as we would, they probably have fibbed to us a little bit 
or fibbed to some people about it and they don't want us to 
find out the extent of their program.
    And I think it has more to do with embarrassment of what 
they had up their sleeve and what they were doing rather than a 
desire to keep a capability back and use it against the Unites 
States at some point in the future.
    The Chairman.  I thank you for the answer. For what it's 
worth, I agree with your assessment, because I think about how 
reluctant we are about any intention or desire or plan now or 
in the future to ever use biological weapons. The American 
public would be in this day and age in 2002, shocked and 
abhorred by knowing what we considered trying to develop in 
1950 in '60 in '70 and so--but any rate, I thank you very much. 
We look forward to you in a closed hearing, but I yield to 
Senator Helms or any of my colleagues.
    Senator Helms.  I'll be very brief. Thank you, Mr. 
Chairman. This question was obviously handed to me by the lady 
behind me and it's important. Let me go back a little bit. The 
first President Bush called me one day and said I want to go to 
one of your universities involved in a very interesting study. 
Have you got such a university? I said what city you want to go 
to? I said in Raleigh we have North Carolina State University 
and it's great and he said, let's go there.
    So we went there to the university where they were learning 
all about a number of things that we are talking about, Mr. 
Chairman, and I looked around at whom we were supposed to see 
and all but one of the students, and they were the top 
students, were not Americans. They were Chinese. I had a 
Russian and so forth and so on.
    So the question that Miss Patty passed to me, is there any 
available evidence to indicate that foreign nationals are 
coming to American universities, earning degrees in biology or 
chemical engineering and taking this knowledge back to their 
home countries to use against us? And the answer to that I 
believe is of course.
    And I haven't even thought about what we should do about it 
or what we could do about it, but we're training a lot of these 
people to go back and do the things to us that we don't want to 
do to them and we don't want them to do to us. So give that 
some thought and let's talk about it one day.
    Mr. Ford.  Yes, sir.
    Senator Helms.  Thank you, Mr. Chairman.
    The Chairman.  Senator Lugar?
    Senator Lugar.  Well, thank you, Mr. Chairman. Let me just 
join Senator Helms in this colloquy. Same problem persists at 
Purdue University where there are almost 5,000 people involved 
in engineering chemistry. The scientific situation's sort of an 
equivalent to North Carolina State in Indiana.
    I visited with the president of Purdue about this at great 
length because it's a tradeoff. It's very tough. On the one 
hand, a case could be made that these students by studying in 
America, learning about us, about our ways of doing business as 
well as the integrity, carry these values back to their 
countries. If they head back; many don't. They stay in the 
United States, but a good many do head back. Leadership that in 
terms of our public diplomacy is very important.
    We constantly worry about the educational system, about al 
Qaeda people getting particular religious training without any 
grounding at least in things that we believe are fundamentally 
important here. And so the question is if we were to exclude 
all of these people, sort of cancel the visas of 5,000 people 
and say we're going to keep it to ourselves, we could.
    But on the other hand, the benefits that come from having 
tens of thousands of these students in our country, I suppose 
it becomes a problem for you at State, with regard to 
immigration service, others quite apart from the FBI and 
counterintelligence to work this problem. So we have the 
benefits really of people understanding America and hopefully 
cut the liabilities of persons who have bad designs.
    Mr. Ford.  I would agree that the loss of the opportunity 
to go to the University of North Carolina or Duke or North 
Carolina State or other universities, North Carolina or Indiana 
or Purdue would be their loss. But my sense is that even if we 
tried to keep people away, which I think is totally 
undemocratic and against whatever our whole country stands for, 
but even if we did, this information is too portable that they 
might not get the best that they would if they went to North 
Carolina and to Indiana, but they get enough by staying at home 
from other sources.
    Senator Lugar.  And long range learning on the Internet 
perhaps.
    Mr. Ford.  That's right. And I've always, you know, I may 
be naive, but I think that if they come here to the United 
States and study that they not only will learn science, but 
they'll also learn a little bit about our democracy and our 
freedom and maybe carry that back with them to wherever they're 
from.
    So obviously there's a risk there, but I've always felt 
like the risk was that to close down our society and go against 
our instincts here for freedom and education for everybody.
    Senator Lugar.  Just one more follow-up. Now, looking at it 
the other way, a long time ago when Vice President Gore was 
meeting with Russian Prime Minister the Chernomyrdin, I 
suggested that one potential solution for the chemical and 
biological problem in Russia was for American firms to buy the 
facilities. Literally, the scientists want to be employed. 
There is a tremendous amount of communication back and forth 
all the time. I still think that's a good idea.
    Investors face alot of problems, including the legal system 
of Russia, lack of protection for stockholder rights, all that 
is nightmare for American firms. But if there is to be some 
degree of constructive movement in these areas it would come, 
it seems, through international cooperation with American 
management working with Russian scientists. We will need to 
clean up a lot of old facilities which should be torn down, 
safely store and secure bad stuff that should be terminated and 
this is a time in which the Russians might be receptive to this 
kind of cooperation.
    So I don't ask you for a comment, but please carry back to 
State at least some impetus that this might be useful.
    The Chairman.  Thank you. Senator Frist.
    Senator Frist.  Just one minute. First of all, thank you 
very much for again an outstanding presentation. This whole 
last colloquy on science and the exchange of intellectual 
capital I think does mean that our intelligence community needs 
to really focus a lot on science peer review, having our 
scientists sensitized to what the relative risks are to a 
nation and what you pick up as targeting.
    That's in some ways tough for our scientists because 
they've never been brought into the room. And the same way 
we're bringing the CIA and the FBI into the room with public 
health officials for the first time looking at homeland 
security. First time if you have somebody from law enforcement 
sitting right next to a doctor sitting right next to 
epidemiologist, first time.
    But that's what it's going to take and because science is 
going to continue to progress, we may have smallpox--we may be 
getting a good vaccine to smallpox, but with some genetic 
engineering and the science is there today, the smart terrorist 
can simply re-engineer an anthrax, botulinum toxin, plague, 
tularemia. They will be able to in the next few years and 
therefore this ongoing integration, openness, transparency, 
peer review of our scientific community with intelligence, I 
believe, is going to be critical.
    The Chairman.  Thank you very much. Carl, thanks again and 
within the next between now and probably just after the recess, 
I'm going to be asking for your help, the committee will, in 
closed session.
    Mr. Ford.  And I will bring some of my experts with me who 
actually know the answers to some of these questions.
    The Chairman.  You've done very well and you've framed this 
in a way that we have to be able to begin to get a handle on it 
and I thank you very, very much for your time.
    Mr. Ford.  Thank you, Mr. Chairman. Thank you.
    The Chairman.  Now we'll hear from a very distinguished 
panel. Michael Moodie, President of the Chemical and Biological 
Arms Control Institute; Dr. Amy Sands, Deputy Director of 
Center for Nonproliferation Studies in Monterey; and Dr. Alan 
P. Zelicoff, Senior Scientist, Sandia National Laboratory, 
Albuquerque, New Mexico.
    We thank you all very, very much for your patience and for 
being here. This is to us a very, very important hearing. Maybe 
we can begin with your statements in the order in which you 
were called. Dr. Moodie, you first and if you wish to, I'm not 
suggesting you have to, if you summarize your statement, be 
sure the entire statement be placed on the record. This is 
important so you take the time you need to make the statement. 
You've come a long way to help us. Thank you.

STATEMENT OF MICHAEL MOODIE, PRESIDENT, CHEMICAL AND BIOLOGICAL 
                     ARMS CONTROL INSTITUTE

    Mr. Moodie.  Thank you very much, Mr. Chairman. It's an 
honor to appear before the committee once again. I've got a 
rather long statement so I'll just take a few minutes to 
summarize it and appreciate----
    The Chairman.  Don't short circuit. This is important, so 
take your time.
    Mr. Moodie  [continuing]. Yes, sir, but I'll hit the high 
points.
    The Chairman.  Okay.
    Mr. Moodie.  Mr. Chairman, Members of the committee, for 
the last decade and especially since September 11th, Americans 
have been on a steep learning curve about chemical and 
biological weapons.
    In the Gulf War, Saddam Hussein confronted us with a 
chemically and biologically armed opponent. Aum Shinrikyo's 
sarin gas attack in the Tokyo subway was a wake up call that 
showed our country's vulnerability to a kind of terrorism that 
could include unconventional weapons that produce high 
casualties. And the recent anthrax mailings and hoaxes have 
forced us all to learn more about biological weapons than most 
people ever wanted to know.
    Among the mix of tools on which we must draw to deal with 
these challenges is arms control. This is not to argue that 
arms control must have pride of place among those tools. Indeed 
it may be that arms control is not the most important policy 
arena for dealing with chemical and biological weapons 
proliferation by states or their potential acquisition by 
terrorists. But arms control can make a contribution and it 
should not be eliminated from the policy toolbox.
    In my statement, I consider some of the factors that are 
creating a more complex environment, driving the need for new 
approaches for dealing with the CBW challenge and redefining 
arms control's role in helping to meet that challenge. In my 
oral remarks this morning, I'd like to focus on meeting the 
challenges that will confront us as we attempt to move forward.
    First, with respect to chemical weapons. The first 
challenge, as the last speaker said and as many Members of the 
committee have emphasized, is eliminating those chemical 
weapons that already exist. Although the destruction process in 
the United States is proceeding reasonably well, as has already 
been pointed out, its counterpart in Russia is far behind 
schedule. It is my view that it is doubtful in the extreme that 
Russia will meet the timetable specified in the Chemical 
Weapons Convention even if it is granted the one-time five year 
extension allowed by the treaty.
    This predicament is first and foremost a problem for the 
Russians themselves. Moscow is clearly committed to making 
progress, but its financial commitments will not be sufficient 
to meet its treaty obligations. Ways must be found to promote a 
greater commitment from Russia itself. But those countries that 
have an interest in the destruction of the Russian CW 
stockpile, which is in essence every state party to the CWC, 
should also provide more assistance. Not only the United 
States, but in particular in my view, the Europeans and 
Japanese should do more.
    The upcoming CWC review conference scheduled for next year 
should provide an opportunity for developing a support strategy 
to meet this goal, which in my view represents the single most 
important objective of the CWC.
    Another issue that must be addressed relates to challenge 
inspections under the convention.
    In many ways the challenge inspection provision is the 
single most important tool in the entire treaty. But to date, 
that provision has never been invoked, although suspicions have 
been raised that some state's parties are in substantive 
violation of their commitments. The United States, for example, 
has claimed publicly for many years--both the Clinton and Bush 
Administrations--that Iran continues to violate the treaty, yet 
Washington has never followed up these allegations by 
requesting a challenge inspection in Iran.
    In my view, the longer such provisions are not used, the 
more difficult it will become to use them in the future. And as 
a result, the international community could lose a critical 
tool for promoting the fundamental goals of chemical 
disarmament.
    A third important issue that must be addressed is the 
adaptability of the convention to advances in chemical science 
and technology. Certain areas of chemistry and biology relevant 
to the CWC are changing rapidly and will continue to do so. In 
the area of toxins for example, advanced bio-technology can 
create novel toxins that have scientific or medical 
applications but that can also be misused as weapons.
    A consideration should be given therefore to an ongoing 
process that provides updated information on critical 
scientific and technological developments to states parties of 
the convention on a sustained basis.
    A further area of effort should focus on issues of 
cooperation and assistance. During the first five years of the 
implementation of the CWC, states parties and the Organization 
for the Prohibition of Chemical Weapons have attempted to view 
assistance issues as secondary to operational matters such as 
declarations and inspections. But the issue of international 
cooperation is important in light of the ongoing debate over 
the future of chemical export controls and of the Australia 
Group in particular.
    As science and technology continues to advance and global 
technology diffusion proceeds, the question of the viability of 
our export control arrangements will become increasingly 
difficult to manage.
    The final area which chemical arms control must address 
relates to the institutional context within which those arms 
control efforts proceed, particularly straightening out the 
problems of the Organization for the Prohibition of Chemical 
Weapons.
    First, as the Chairman has all ready indicated, for some 
time the OPCW has been plagued with financial and staff 
problems that must be fixed. In some cases, the solutions rest 
in states parties fulfilling their obligations in a timely 
manner. But some of the budget problems are structural and will 
require the Organization to define new ways of doing business 
to set the situation right.
    Second, many states parties cover activities at the 
organization with a junior diplomat from their bilateral 
embassy to the Netherlands. This generally low level of 
representation at the OPCW complicates and hampers the work of 
the Organization and makes it less efficient and effective.
    Finally, questions of institutional leadership have arisen. 
It is clear that the OPCW leadership has lost the confidence of 
some of the key CWC states parties. Such a situation cannot be 
allowed to continue for very long as it creates an environment 
that is severely detrimental to staff morale and effective 
action.
    If the OPCW is not lead in a manner that generates 
confidence among those countries whose support is critical, 
treaty implementation will suffer. The focus of attention will 
be on internal issues rather than on getting the job done--and 
the job is critical and should come first. Therefore a means 
for resolving the current dispute about leadership must be 
found.
    Turning to the biological weapons challenge, five issues in 
particular must be addressed. The first question must be the 
goals of the next steps in arms controls. Two sets of possible 
objectives for steps suggest themselves. One set relates more 
to traditional arms control goals including verification, 
confidence building, increasing transparency or enhancing 
consultations. Of these, effective verification of the BWC is 
not possible and each of the other objectives has conceptual 
and practical political problems associated with them. And in 
my view none of them appears to be sufficiently robust to 
energize the currently stagnant process.
    An alternative approach is to go beyond traditional arms 
control goals to define the aims altogether differently. In 
light of the complex environment with which biological arms 
control must deal, as well as the clear lack of success of 
traditional approaches, the need for new thinking is clear. In 
particular--and this may be my most important point today--the 
effort must be made to create a new conceptual and policy 
environment within which the current BW challenges can be 
addressed. Such a new environment would need a move away from 
business as usual by all of the critical stakeholders including 
governments, industry, the scientific community, the health 
community and many others.
    New partnerships among these key constituencies must be 
developed. New means must be identified to address the speed of 
scientific and technological change. This raises questions 
about the value of and potential for governance or self-
governance of the international biological, scientific and 
technological communities.
    Second, U.S. officials have stressed that too little 
attention has been paid to questions of noncompliance. Given 
this clear U.S. priority, any next steps must address two core 
concerns from Washington's perspective. First, how do BWC 
states parties meet the essential but often ignored 
responsibility of dealing with countries who are party to the 
treaty, but are either cheating or suspected of doing so. 
Second, how do they deal with those countries who are not 
states parties and therefore not breaking any commitments, but 
are clearly violating a widely held global norm?
    These are not questions that members of the international 
community necessarily are comfortable addressing. They would 
prefer to assume that states that join a convention comply with 
their obligations. The reality, however, is that states cheat 
and something must be done about them.
    Third, part of the reason that the BWC protocol 
negotiations did not focus on core proliferation concerns is 
that the drafters bent over backwards to meet the political 
requirements of some participants that any multilateral 
agreement treat all states parties the same. This political 
objective has been a hallmark of non-aligned nations' positions 
in arms control negotiations since the nuclear nonproliferation 
treaty created nuclear haves and have nots.
    This nondiscrimination may be politically essential, but it 
does not necessarily create good arms control in a situation in 
which participants are not equal in terms of their interests, 
assets or obligations. If progress is to be made, somehow these 
imperatives have to be reconciled.
    Fourth, cooperation and assistance in the life sciences for 
peaceful purposes is a political imperative of non-aligned 
countries that they insist must be included in any 
nonproliferation agreement. Some BWC states parties have made 
no secret of the fact that they joined the treaty not because 
of their concerns over biological weapons, but in order to 
secure access to critical science and technology.
    Conventional wisdom holds that no multilateral progress 
will be made on harder-edged nonproliferation measures without 
something on cooperation and assistance. If this is the case, 
any next steps must find a way to reconcile these strongly held 
interests. The conventional wisdom should also be challenged 
and consideration of next steps should also explore whether 
potential hard arms control and cooperation and assistance 
measures might be addressed on separate tracks.
    Finally, following the failure of the Ad Hoc Group 
negotiations and the suspended review conference, some 
participants might want to abandon arms control altogether and 
rely on other measures to fight BW proliferation and biological 
terrorism. Even if arms control is included in the toolkit for 
promoting nonproliferation and counterterrorism, the priority 
it assumes in relation to other available tools will be a 
critical factor in assessing how assertively and successfully 
one might promote next steps in arms control.
    In fact, differences have all ready emerged between the 
United States and other countries including friends and allies 
over these relative priorities. The United States tends to 
assess the value of arms control and the contribution of 
instruments such as the BWC in terms that relate them to other 
tools in the toolkit including intelligence, diplomacy, passive 
and active defenses, military options and export controls. Arms 
control is appreciated for its contributions, but its 
limitations are also recognized and maximizing its potential is 
seen to derive from making it work together effectively with 
these other policy tools.
    In contrast, and to overstate for emphasis, some Europeans 
for example, tend to give pride of place in the toolkit to arms 
control. Some even view arms control as an alternative to these 
other policy tools rather than as a complement to them. The 
result is that some friends and allies of the United States 
rely more heavily on the contribution of arms control in 
dealing with the problems of proliferation than does 
Washington. Such differences must be explored in an assessment 
of the potential utility and effectiveness of any next steps in 
BW arms control.
    Mr. Chairman, in my statement I have concluded with a 
number of specific suggestions that I think might help meet 
these requirements. I would be happy to go into those in more 
detail during the question period. Thank you very much.
    [The prepared statement of Mr. Moodie follows:]

                  Prepared Statement of Michael Moodie

          reducing the chemical and biological weapons threat:
                  what contribution from arms control?
    On July 25, 2001 the United States announced that it would not 
support the draft protocol negotiated by the Ad Hoc Group (AHG) of 
states parties to the Biological Weapons Convention (BWC) as presented 
in the ``composite text'' offered by the AHG Chairman. The U.S. 
statement made clear that further negotiation of specific language in 
the draft would not address the major problems the United States had 
with the proposed protocol, which was seen as based on a fundamentally 
flawed conceptual approach and unwarranted assumptions.
    Five months later, the Fifth BWC Review Conference suspended its 
efforts without completing a Final Declaration in light of a demand by 
the United States that the Ad Hoc Group process be brought to an end. 
This last-minute standoff was the culmination of three weeks of 
disputes over how best to strengthen the BWC and to carry forward the 
fight against biological weapons (BW) proliferation.
    Between these two events, the United States was the victim of 
unprecedented anthrax attacks in the wake of the September 11 
destruction of the World Trade Center. The anthrax attacks transformed 
what had been a theoretical concern for some people into a very real 
security threat for the entire country.
    While much of our recent attention has focused on biological 
weapons, concern about chemical weapons should be no less intense. We 
have seen chemical weapons used--both by states and by terrorists. 
Saddam Hussein's chemical attacks against both Iranian forces and his 
own people introduced this generation to the horrors of such weapons. 
The Aum Shinrikyo's use of sarin nerve gas in the Tokyo subway in March 
1995 served as a wake-up call to the United States, combining with the 
bombing of the Murrah Federal Building in Oklahoma City to drive home 
the realization to policy makers and public alike that the United 
States was not immune from terrorism, that weapons of mass destruction 
could be involved, and, perhaps most importantly, that we were not 
prepared.
    Today, administration witnesses report that perhaps as many as two-
dozen countries are pursuing chemical weapons capabilities. A 
significant number are also seeking biological weapons. The pursuit of 
chemical and biological weapons capabilities by terrorist groups such 
as al Qaida has been well documented in court proceedings as well as in 
the media.
    Among the difficult lessons we have had to learn about chemical and 
biological weapons is that they are not the same, and addressing the 
challenges they pose--whether in terms of proliferation or terrorism--
will require a different mix of policy responses.
    Among the mix of tools that must be applied in both cases, however, 
must be arms control. This is not to argue that arms control must have 
pride of place among those tools; indeed, it may be that arms control 
is not the most important policy arena for dealing with either chemical 
and biological weapons proliferation by states or their potential 
acquisition by terrorists. But arms control can make a contribution, 
and it should not be eliminated from the policy toolbox.
    3If arms control is to make an effective contribution to the CBW 
challenges, however, policy makers must have an appreciation of the 
changes in the environment that will shape its application. In 
particular, a number of factors are driving a need for new thinking.
The Convergence of States and Terrorists
    Before the events of September 11 and the subsequent anthrax 
attacks, analysts tended to conceptualize and address the state 
proliferation challenge and the problem of terrorism along separate 
tracks. This split approach prompted a focus on different strategies 
and different policy tools for dealing with what were considered 
distinct aspects of the problem, if not separate problems altogether. 
Arms control, for example, was deemed to be targeted against state 
proliferation and not designed to address the terrorist threat.
    Such a separate approach in the world after September 11, however, 
will no longer suffice. The distinction between proliferation and 
terrorism and between terrorists and the state has become difficult to 
draw. As a result, the United States and the international community 
more broadly must implement a response to the chemical and biological 
weapons challenge that deals with state proliferation and bioterrorism 
as different aspects of the same problem. This will require an approach 
that is strategic in nature, multifaceted in action, and which exploits 
a range of tools.
    Arms control is important in this context, but the combination of 
politics, science and technology, and treaty language that surrounds 
both the Chemical Weapons Convention and, especially, the Biological 
Weapons Convention ensures that these conventions will be insufficient 
on their own. Nor does an emphasis on arms control alone provide a 
sufficiently wide perspective to facilitate all of the varied actions 
that will be required by all of the necessary actors--from both the 
public and private sectors--to deal effectively with the now realities 
that the convergence of state and non-state challenges present. What is 
needed is an approach that goes beyond the traditional modalities of 
arms control to new ways of thinking about how to strengthen the 
conventions and the norms against biological and chemical weapons that 
they embody.
Advancing Science and Technology
    Chemistry and biology and their associated technologies have 
witnessed incredibly rapid advances in recent years, and, if anything, 
the pace of change is likely to accelerate. Rapid changes in 
biotechnology in particular in the next several years will shape new 
scientific and business methods and practices far removed from those of 
today. Moreover, many of the breakthroughs in the relevant sciences and 
technologies are likely to be promoted by combining them with other 
technologies--for example, nanotechnology, cutting-edge information 
technologies, and new materials science. Creative scientists and 
technologists could find new ways of putting such things together to 
advance their CBW capabilities. In essence, advancing science and 
technology will allow future proliferators--whether governments or 
terrorists--to enter the chemical and biological weapons game with a 
greater scientific and technological base on which to build their 
efforts.
    Classic arms control will have difficulty in capturing this 
dynamism. Government bureaucracies are notoriously slow to adapt. 
International organizations are no less so. The vastly different rates 
at which science will move forward and governments can adapt, require a 
broader approach that facilitates an ongoing appreciation of the 
evolving scientific and technological landscape in as close to real-
time as possible.
Engaging Industry More Productively
    In areas associated with commercial activities based on the life 
sciences in particular, those involved emphasize the vast contributions 
their rapidly advancing scientific and industrial capability is making 
to the improved quality of life for many people. Not everyone shares 
the view, however, of advancing life sciences in a commercial context 
as an unalloyed good. Unscrupulous drug companies or other 
biotechnology enterprises, for example, have recently been portrayed as 
villains in popular novels and movies. The fact that advanced 
biotechnology is given a dark dimension in the popular culture captures 
a sentiment among the public that, at the very least, reflects 
uncertainty and uneasiness about industry dealing with issues generated 
by the advancing life sciences and related technology.
    Representatives from U.S. biotechnology and pharmaceutical 
industries could argue that they participated extensively in the BWC 
protocol negotiating process, at least insofar as they interacted with 
government representatives engaged in the negotiations. Some 
characterizations of industry involvement, however, suggest that it was 
industry opposition that influenced the Bush administration's decision 
not to support the draft protocol. While such a characterization is not 
entirely accurate, industry certainly preferred a minimalist approach 
in the protocol that would have created the least demanding obligations 
possible. It is also fair to say that industry often did not display an 
overly cooperative attitude.
    Looking to the future, there is little to suggest that industry 
would change its approach if another protocol-style effort were put 
forward as the means by which to pursue biological arms control. 
Something different is needed, and governments must do better with 
industry. As the drivers of much of the critical science and 
technology, industry must be made to understand its stakes in the 
challenge and be fully integrated into the necessary strategic 
response. Given the growing public and governmental concerns over 
developments in biotechnology, it would also be very much in the 
interests of the biotechnology industry to cooperate in promoting 
proper, safe, and ethical practices around the world.
The Way Forward
    In responding to this environment, the arms control contributions 
to addressing the chemical and biological weapons challenges begin from 
different starting points and are likely to take different courses.
            Challenges to Chemical Arms Control
    The first challenge in eliminating the scourge of chemical weapons 
is to destroy those weapons that already exist. Although the 
destruction process in the United States is proceeding reasonably well, 
its counterpart in Russia is far behind schedule. It is doubtful in the 
extreme that Russia will meet the timetable specified in the CWC, even 
if it is granted the one-time, five-year extension allowed by the 
convention.
    This predicament is first and foremost a problem for the Russians 
themselves. Moscow is clearly committed to making progress, but its 
reported financial commitments will not be sufficient to meet its 
treaty obligations. Ways must be found to promote a greater commitment 
from Russia itself. Beyond promoting greater Russian expenditures, 
however, those countries that have an interest in the destruction of 
the Russian CW stockpile--which is, in essence, every state party to 
the CWC--should provide more assistance. In particular, the Europeans 
and Japanese should do more. The CWC Review Conference scheduled for 
next year should provide an opportunity for developing a support 
strategy to meet this challenge, which represents the single most 
important objective of the CWC.
    Moscow is not likely to be the only target of criticism during the 
Review Conference, however. Washington will come in for its share of 
censure as well, particularly for the three unilateral exemptions 
included in the U.S. implementing legislation. Prior to the Review 
Conference, therefore, the administration should assess the impact of 
these provisions on CWC implementation, including their effects on the 
general political environment. This assessment would then provide the 
context for judging whether the potential benefits of retaining them 
outweigh the costs. Based on that assessment, the administration could 
convey to the Review Conference that whatever problems have been 
created for the convention by this legislation will be addressed.
    A third set of issues that must be addressed relates to challenge 
inspections under the CWC. In many ways, the challenge inspection 
provision is the single most important tool in the entire convention. 
To date, however, that provision has never been invoked, although 
suspicions have been raised that some states parties are in substantive 
violation of their commitments. The United States, for example, claims 
publicly that Iran continues to violate the treaty, yet Washington has 
never followed up these allegations by requesting a challenge 
inspection in Iran.
    The longer such provisions are not used, the more difficult it will 
become to do so. As a result, the international community could lose a 
critical tool for promoting the fundamental goals of the CWC.
    A fourth important issue that must be addressed is the adaptability 
of the CWC to advances in chemical science and technology. As noted, 
certain areas of chemistry and biology relevant to the CWC are changing 
rapidly and will continue to do so. In the area of toxins, for example, 
advanced biotechnology can create novel toxins that have scientific or 
medical applications but can also be misused as weapons.
    The CWC's Scientific Advisory Board is engaged in a process with 
the U.S. National Academy of Science to examine the critical areas of 
scientific advance that warrant attention from CWC states parties. 
Their work will represent an important input into the forthcoming 
Review Conference. Consideration should be given, however, to an 
ongoing process that provides updated information on this critical 
issue to states parties on a sustained basis.
    A fifth area of effort should focus on issues of cooperation and 
assistance. During the first five years of CWC implementation, states 
parties and the OPCW have tended to view assistance issues as secondary 
to operational matters such as declarations and inspections. Because 
the assistance provisions of the CWC have important political 
implications, however, they should not be ignored. The Review 
Conference provides a good opportunity to demonstrate interest in 
making tangible progress in this area.
    The issue of international cooperation is important in light of the 
ongoing debate over the future of chemical export controls. The 
Australia Group (AG) has been a particular target for some non-aligned 
countries that find it to be discriminatory and inconsistent with the 
spirit if not the letter of the convention. Australia Group members 
respond that as long as they have the right to make their own judgments 
as to which countries are in compliance with the treaty, they also have 
the right and the obligation to determine to whom they will export 
relevant chemical and equipment and how they will make and implement 
those decisions.
    As science and technology continues to advance and global 
technology diffusion proceeds, this question will become increasingly 
difficult to manage. While export controls continue to make a 
contribution, the fact that they only buy time to help other tools of 
policy to work raises the question of how much time and effort should 
be put into preserving them.
    The final area which chemical arms control must address relates to 
the institutional context within which those arms control efforts 
proceed, particularly straightening out problems with the Organization 
for the Prohibition of Chemical Weapons (OPCW). For some time, the OPCW 
has been plagued with financial and staff problems that must be fixed. 
In some cases, the solutions rest in the states parties fulfilling 
their obligations in a timely matter. But some of the budget problems 
are structural and will require the organization to define new ways of 
doing business to set the situation right. On staffing questions the 
OPCW already has a reputation of being overly sensitive to ``pay and 
promotion'' matters such as its salary scale relative to other 
international organizations.
    A second set of issues relate to national representation to the 
OPCW. Many states parties cover activities at the organization with a 
junior diplomat from their bilateral embassy to The Netherlands. Such 
officials often lack the technical capability and political authority 
to make decisions or even effective interventions. Although important 
decisions are matters for national capitals, the current generally low 
level of representation at the OPCW complicates and hampers the work of 
the organization and makes it less efficient and effective.
    Finally, questions of institutional leadership have arisen. It is 
clear that the OPCW leadership has lost the confidence of some of the 
key CWC players. Such a situation cannot be allowed to continue for 
very long as it creates an environment that is severely detrimental to 
staff morale and effective action. If the OPCW is not led in a manner 
that generates confidence among those countries whose support is 
critical, treaty implementation will suffer. The focus of attention 
will be on internal issues rather than on getting the job done. And the 
job is critical and should come first. A means for resolving the 
current dispute must be found.
            Challenges to Biological Arms Control
    If the international community is to use arms control effectively 
in addressing biological weapons proliferation and bioterrorism, it 
must address the political problems that plagued past biological arms 
control efforts, including the Ad Hoc Group's attempt to negotiate a 
legally binding protocol to the BWC. Five issues, in particular, must 
be addressed.
    The first question must be the goals of the next arms control 
steps. Obviously, the more robust the goals, the more challenging they 
will be to implement successfully. The goal clearly cannot be BWC 
``verification.'' Even Ad Hoc Group members accepted the fact that the 
BWC cannot be verified under current circumstances. The AHG goal, 
therefore, became defining measures that contributed to ``enhancing 
confidence in compliance.'' They ultimately fell short of that goal as 
well, indicating how difficult real progress in biological arms control 
is.
    Two sets of possible objectives for next steps suggest themselves. 
One relates to more ``traditional'' arms control-related goals, 
including confidence building, increasing transparency, or enhancing 
consultations. Each of these objectives has conceptual and practical 
political problems associated with them. None of them appears to be 
sufficiently robust to energize the currently stagnant process.
    An alternative approach is to go beyond traditional arms control 
goals to define the aims altogether differently. To some extent this 
was the goal of the Bush administration when it offered its package of 
alternative measures at the Fifth Review Conference. In light of the 
complex environment with which biological arms control must deal, as 
well as the clear lack of success of traditional approaches, the need 
for new thinking is clear. In particular, consideration must be given 
to creating a new conceptual and policy environment within which 
current challenges can be addressed. Such a new environment would mean 
a move away from ``business as usual'' by all of the critical 
stakeholders, including governments, industry, and the scientific 
community. New partnerships among these key constituencies must be 
developed. New means must be identified to address the speed of change 
and integrate its most important aspects. This raises questions related 
to the appropriate contributions of each of the key stakeholders, 
including questions about the value of and potential for governance or 
self-governance of the international biological scientific and 
technological communities.
    Second, part of Washington's problem with the draft protocol was 
that it proposed expending considerable resources on activities not 
clearly or directly associated with core proliferation concerns. In 
announcing its rejection of the draft protocol, in its statement at the 
Fifth Review Conference, and in discussions after the Conference was 
suspended, for example, U.S. officials stressed that too little 
attention has been paid to questions of non-compliance. Given this 
clear U.S. priority, any next steps must address two core concerns 
that, from Washington's perspective, the protocol did not highlight: 
First, how do BWC states parties meet the critical, but often ignored 
responsibility of dealing with countries who are party to the treaty 
but are either cheating or suspected of doing so? Second, how do they 
deal with those countries who are not states parties and therefore are 
not breaking any commitments but are clearly violating a widely held 
norm? These are not questions that members of the international 
community necessarily are comfortable addressing. They would prefer to 
assume that states that join a convention would comply with its 
obligations. The reality, however, is that states cheat, and whatever 
is done in the arms control arena must provide some attention to what 
to do about those states that do.
    Third, while its currency is military power, arms control is at its 
core a political activity, and any successful next steps in the 
biological field cannot ignore the political stakes to which some 
participants in the process give high priority. Part of the reason the 
protocol did not focus on core proliferation concerns is that the 
drafters bent over backwards to meet the political requirement of some 
participants that any multilateral agreement treat all states parties 
the same. This political objective has been a hallmark of nonaligned 
nations' positions in arms control negotiations since the NPT created 
nuclear ``haves'' and ``have nots.'' Non-aligned states in particular 
have used the ``rules of the game,'' particularly the requirement that 
any agreement must be done by consensus, to insist on meeting this 
political sine qua non.
    Non-discrimination may be politically essential but it does not 
necessarily create good arms control in a situation in which 
participants are not equal in terms of their interests, assets, or 
obligations. Moreover, the Bush administration has made it clear that 
the protocol negotiations and, to some extent, the Review Conference 
were conducted in a framework that, if not discredited, must now be set 
aside. Will other participants agree since a new ``game'' may deprive 
them of some critical leverage for achieving key political goals? If 
progress is to be made, these imperatives must be reconciled. But can 
they, and, if so, how?
    Fourth, cooperation and assistance in the life sciences for 
peaceful purposes is a political imperative of non-aligned countries 
that they insist must be included in any nonproliferation agreement. 
Some Ad Hoc Group participants made no secret of the fact that they 
were involved not because of their concerns over biological weapons but 
in order to secure new means of access to critical science and 
technology. In the minds of some people, therefore, the packaging of 
compliance measures and cooperation and assistance provisions in the 
protocol distracted from the main objective of the protocol and the BWC 
itself and created potential for confusion and competition among 
priorities.
    Conventional wisdom holds that no multilateral progress will be 
made on harder-edged proliferation measures without something on 
cooperation and assistance as well. If this is the case, any next steps 
must find a way to reconcile these strongly held interests. But 
conventional wisdom should also be challenged, and consideration of 
next steps should also explore whether potential ``hard arms control'' 
and cooperation and assistance measures might be addressed on separate 
tracks.
    Finally, following the failure of the Ad Hoc Group negotiations and 
the suspended Review Conference, some participants might want to 
abandon arms control altogether and rely on other measures to fight BW 
proliferation and biological terrorism. Even if arms control is 
included in the tool kit for promoting BW nonproliferation and 
bioterrorism, the priority it assumes in relation to other available 
tools will be a critical factor in assessing how assertively and 
successfully one might promote next steps in arms control.
    In fact, differences have already emerged between the United States 
and other countries, including friends and allies, over these relative 
priorities. The United States, for example, tends to assess the value 
of arms control and the contribution of instruments such as the BWC in 
terms that relate them to other tools in the tool kit, including 
intelligence, diplomacy, passive and active defenses, military options, 
and export controls. Arms control is appreciated for its contribution, 
but its limitations are also recognized, and maximizing its potential 
is seen to derive from making it work together effectively with other 
policy tools. In contrast (and to overstate for emphasis), some 
Europeans tend to give pride of place in the tool kit to arms control. 
Some even view arms control as an alternative to these other policy 
tools rather than as a complement to them. The result is that some 
friends and allies of the United States rely more heavily on the 
contribution of arms control in dealing with the problem of 
proliferation than does Washington. Such differences must be explored 
in an assessment of the potential utility and effectiveness of next 
steps in BW arms control.
Additional Measures
    The United States made it clear that it does not view the package 
of measures it proposed at the Fifth Review Conference as a 
comprehensive list of potentially valuable and negotiable measures. 
Indeed, it should not. The U.S. proposals, supplemented by good ideas 
that emerged through consultations with close friends and allies, form 
the basis for moving forward, but more could be done. The following 
ideas are offered as a contribution to thinking about further measures 
that might be considered.
            Strengthening the Ability to Confront the State/Terrorist 
                    Convergence
    The fact that the terrorist and state proliferation threats have 
converged requires that the BWC be considered in light of what further 
it might be able to contribute to the problem as a whole. The proposal 
for domestic legislation that criminalizes BWC-prohibited activity is 
one such measure that could be applied to both dimensions of the 
challenge. Mother possibility, one that also serves the Article X 
requirement for states parties to promote cooperation and assistance, 
might focus on international collaboration on biological terrorist 
issues. Such collaboration might be as limited as sharing information 
on lessons learned from exercises. Additionally, it might extend to 
direct cooperation in which those states parties that have done more in 
the area of biological terrorism preparedness and response assist other 
states parties whose capabilities in those areas are more limited.
    Such collaboration would have to be done on a voluntary basis. 
There are obviously areas related to counter-terrorism, including 
preparedness efforts, that are highly sensitive and for which sharing 
with others would not be appropriate. But the events of September 11 
should have led all states parties to recognize that anyone could be 
the object of biological terrorism and that the threat extends to 
everyone. In such a situation, one could assume that some states 
parties will be looking for help in addressing that threat. Providing 
assistance under Article X of the BWC would be one means of meeting 
their needs.
    A second possible measure that could be explored for its value in 
addressing the convergence of state BW proliferation and bioterrorism 
relates to investigations. The proposed U.S. package included a 
proposal for a mechanism to investigate suspicious outbreaks of disease 
or alleged biological weapons use. The prospect of developing a 
mechanism for investigating facilities that may be suspected of 
conducting activities prohibited by the convention should also be 
considered. While this is certain to be a controversial suggestion, 
including within the U.S. government, the possibility of a limited 
measure to this effect should be explored.
    The historical example of the Sverdlovsk anthrax outbreak suggests 
some of the reasons why. Even if the additional measures the United 
States proposed had been in place in 1979, they would have afforded 
only the opportunity for the investigation to go to the gates of the 
facility that was thought to be the source of the release. No mechanism 
would exist for allowing access to the facility. Without such access, 
the result of any investigation at Sverdlovsk would still have been 
unanswered questions, continuing allegations and denials, and, in 
political terms, insufficient grounds for mobilizing an international 
response to a potentially serious treaty violation. This could also be 
the result of investigations conducted under the new U.S. proposals if 
there is no ability to get inside suspect facilities.
    The proposal offered here is analogous to the challenge inspection 
provision of the CWC, an extraordinary measure that would be used only 
when strong evidence exists of a serious violation. It is not in any 
way an endorsement of the elaborate, and unhelpful, facility 
declaration and visits system detailed in the draft protocol. Rather, 
what is needed is a more limited, stand-alone capability that would 
allow some means for seeing what is going on inside facilities about 
which serious suspicions have been raised. The measure is offered in 
the full realization that even getting inside a facility will not 
necessarily yield a smoking gun.
    It may be that the techniques are not yet available to allow for a 
meaningful facility investigation that can also protect unrelated 
national security or proprietary business information. Certainly, there 
was considerable debate during the protocol negotiations over differing 
interpretations of the results of various on-site trial activities. It 
would be unfortunate, however, if consideration of the possibility of 
doing facility investigations stopped completely because it was deemed 
``too hard'' or ``too dangerous.'' One need not commit now to the 
realization of such a measure, but as monitoring technology continues 
to evolve, including technology based on advancing life sciences, 
exploring further what procedures might be helpful could prove to be a 
worthwhile effort.
            Coming to Grips with Advancing Science and Technology
    In its proposal package, the United States called for better 
oversight of genetic engineering on the grounds that certain 
experiments involving the cutting and splicing of genetic material 
could have dramatic and unexpected consequences with relevance for 
biological weapons. However, it is not just genetic manipulation that 
creates potential and unexpected risks, but the combination of better 
understanding of life at the molecular level with other scientific 
advances, including nanotechnology, materials science, and 
bioinformatics. BWC states parties might consider, therefore, whether 
there is anything in these combinations of scientific activities that 
could also create sufficient risks to warrant greater oversight and 
reporting. BWC states parties, therefore, could convene a working group 
of scientific experts charged with identifying combinations of 
scientific activity that could create serious potential threats. The 
panel could also elaborate what kind of national oversight of such 
activities would be appropriate.
    A further dimension of advancing life sciences and technology that 
will have important implications for the evolution of the biological 
weapons threat is their growing global dissemination. Indeed, the way 
in which science and technology is developed, produced. and 
disseminated on a global basis has changed significantly in the years 
since the BWC entered into force. Much of the material is dual use; the 
private sector is responsible for most of the advances; knowledge and 
capability will only become increasingly dispersed around the world as 
biology and biotechnology are applied to more aspects of life.
    States parties to the BWC should try in general to identify ways to 
ensure that this global diffusion of science and technology does not 
result in a more serious BW threat and, in particular, to ascertain 
ways to bolster Article m of the BWC which prohibits transfers of 
biological weapons and related-materials. The draft protocol included a 
provision that created a consultation mechanism whereby one state's 
concern that an unauthorized, inappropriate, or prohibited transfer has 
occurred could be raised with the state party that made the transfer. 
Although it is an excellent idea, such a provision would have no chance 
of being adopted in light of the contentious dispute about export 
controls that plagued the Ad Hoc Group negotiations.
    The continuing debate, however, may provide an opportunity for an 
evaluation of longterm management of the diffusion of biological-
related science and technology. This is not a call to abandon the 
Australia Group whose activities will remain important for the 
foreseeable future. Rather, it is a plea to recognize that the new 
environment within which the biological weapons problem must be 
addressed will include a rapidly changing scientific and technological 
global landscape.
            Fostering Better Appreciation of the Need for a New 
                    Conceptual and Policy Environment
    The confidence building measures (CBMs) agreed at the 1986 and 1991 
Review Conferences will remain on the books. These voluntary measures 
ask states parties to provide information regarding biological-related 
activities, including past offensive BW programs, current biological 
defense activities and facilities at which that work is being 
conducted, unusual outbreaks of disease (to be reported to the World 
Health Organization), and facilities involved in human vaccine 
production, among others. It might be helpful for BWC states parties to 
take another look at the CBMs to determine whether they can contribute 
to the creation of the new broader conceptual and political approach 
discussed earlier, either in their current or in an adapted form.
    Some people might argue that any attempt to return to the CBMs 
would be a waste of time. Because the measures are deemed politically 
rather than legally binding, only a relatively small number of 
countries provided the information called for in the CBMs even once, 
let alone annually. Although the number of states parties participating 
in the CBMs steadily increased, the generally poor performance suggests 
that, left to their own devices, states parties are unlikely to 
participate more than they have in the past.
    The point, of course, is that states parties should not be left to 
their own devices. Some of the CBMs could be replaced by elements of 
the new U.S. proposal. But other CBMs will remain as part of the BWC 
regime, and they should not just be abandoned. Rather, they should be 
considered for what they might contribute to the new conceptual 
framework. If they are deemed to be of some value, they should not be 
dropped.

    The Chairman.  Thank you very much.
    Dr. Sands.

  STATEMENT OF AMY SANDS, PH.D., DEPUTY DIRECTOR, CENTER FOR 
 NONPROLIFERATION STUDIES, MONTEREY INSTITUTE OF INTERNATIONAL 
                            STUDIES

    Dr. Sands.  Mr. Chairman and distinguished Members of the 
committee, let me just thank you for the opportunity to appear 
before you this morning to examine a topic while extensively 
discussed deserves, I believe, continued discussion and a new 
look.
    In my comments today, I plan to focus only on the changed 
nature of today's world, trying to take a look at some of the 
assumptions that we should be wary of, especially as they 
relate to the chemical and biological threat and then look at a 
few recommendations I'd like to make. In my written testimony, 
I have provided much more detail on the chemical and biological 
threat, giving specific examples of some state and terrorist 
aspects.
    Several factors have come together today to increase the 
likelihood of CBW acquisition and use by states and subnational 
groups. First, states and terrorists may see CBW as giving them 
a new advantage. They know that we are incredibly worried about 
such a possibility and may believe such an attack will not only 
kill many Americans, but also could psychologically freeze the 
United States.
    Second, it has now become apparent that certain thresholds 
have been passed. Our speculation of whether terrorists would 
and could kill thousands of people has been answered.
    Third, chem-bio materials are available and there is clear 
evidence of terrorists being interested and capable of 
obtaining these materials. The supply-demand dynamic definitely 
favors terrorists.
    Fourth, as September 11th events demonstrated, some 
terrorist groups exist that are clearly capable of organizing 
and operationalizing the type of complex, long-term effort that 
would be needed to develop and effectively deliver CBW agents.
    Finally, as has been commented already earlier today, the 
technical workforce needed to develop effective CBW is 
available and you might call them cheap. In the former Soviet 
Union, hundreds perhaps thousands of scientists, engineers and 
technicians were fired or had their wages cut after the Soviet 
Union's collapse and President Yeltsin discontinued the BW 
program.
    It is likely that a substantial number of scientists and 
engineers with expertise in the biological and chemical weapons 
area are disgruntled and frustrated. But the concern about 
clandestine recruitment of scientists should also include other 
states, such as South Africa and the former Yugoslavia, both of 
whom have discontinued CBW programs.
    So it is not surprising given these factors, specifically 
the increased access to materials, targets, expertise and 
technology that we are now much more concerned about CBW 
actually being used by states or substate actors. Against this 
backdrop, though, I'd like to just take a look at certain 
assumptions that we have tended to make when thinking about 
this threat.
    The first assumption, terrorists don't have physical 
locations to make or store CBW materials. It is often argued 
that terrorists may have safe havens, but still lack a physical 
infrastructure to develop CBW. However, an overlooked point is 
that terrorist groups can and have actually possessed 
recognizable and targetable CBW facilities. Examples include, 
the Al-Shifa pharmaceutical plant in Sudan which according to 
the Unites States government was really not a pharmaceutical 
plant, but a chemical weapons manufacturing complex that was 
engaged in the production of nerve agent VX.
    Second, I think it is well known that Aum Shinrikyo had a 
compound in Japan that they used for much of their activities 
and a farm in Australia.
    Third, a group called the World Islamic Fund Against Jews 
and Crusaders which was founded by bin Ladin managed to buy up 
a set of facilities in the former Yugoslavia that had been used 
for chemical and biological weapons.
    So as you can see from these cases, terrorists have had 
access to or possession of facilities. Some of these may even 
be located outside the safe havens they have and may appear 
legitimate, making the task of detecting and identifying them 
accurately much more difficult.
    A second assumption. A certain set of chemical and 
biological agents such as VX, sarin, anthrax and smallpox are 
usually considered the most likely CBW agents to be used. This 
way of thinking may cause us to miss the obvious. Cyanide for 
example, is a chemical that has sometimes been overlooked as a 
weapon in favor of the more lethal and glamorous chemical 
agents like sarin and VX, yet the availability of various 
cyanide containing compounds which are used widely in 
industrial processes, make cyanide one of the more likely CBW 
agents to be used.
    The WMD terrorism database at the Center for 
Nonproliferation Studies at the Monterey Institute records 52 
possessions, plots or uses involving cyanide by terrorists. 
These cases have, so far, collectively resulted in only 124 
injuries and 13 fatalities. But the danger lies more in the 
intent of the perpetrators than the results.
    My written testimony lists some of the other examples, but 
today I'd just like to focus on two specific issues. One is the 
most recent case in Chicago that happened in early March where 
a man was found to be storing significant amounts of potassium 
and sodium cyanide in subway tunnels. It highlights the ease 
with which even a lone individual can acquire this poison.
    And another example that happened in February 2002, with 
the arrest in Rome of nine Moroccans with potential links to al 
Qaeda for allegedly planning to poison the water supply of the 
U.S. embassy using potassium cyanide. It shows that the 
interest in cyanide is hardly waning.
    A third assumption and one that we've already talked about 
a little earlier today is that states won't provide terrorists 
with chemical and biological weapons. Many of the states we 
believe to have chemical and biological programs also have been 
linked to numerous terror organizations providing them with a 
wide variety of assistance. Even though there has been little 
evidence to indicate that any of these states have transferred 
CBW material, technology or know-how to such terrorist 
organizations, the possibility cannot be ruled out.
    But even if a state may not be willing to transfer CBW 
related technologies to a subnational actor, one cannot 
discount the possibility of rogue elements within a government 
or disgruntled or underpaid scientists or individuals 
sympathetic to terrorist causes that may be willing to 
illicitly transfer CBW related technologies and know-how to 
such terrorist groups.
    A fourth assumption. Terrorists won't use CBW except in 
extreme cases. Nonstate players, especially terrorists, do not 
act under the same restraints as sovereign states. It is 
possible that these organizations do not perceive the WMD 
threshold the same way we do. Moreover, their assessment of the 
costs and benefits of using CBW may not be necessarily measured 
on the same scale as that of nations and their concept of 
``extreme'' may differ considerably from ours.
    In fact if the motivation of an organization is to infuse 
terror, then the use of CBW, even on a small scale, might be 
seen as furthering their cause. In addition, the disparity 
between state and terrorist groups such as that between Israel 
and Palestinian forces may create a terrifying inequality that 
could lead to the use of CBW in an effort to rebalance the 
scales. This exact thought was expressed in a Palestinian 
weekly, which called for a Palestinian weapon of deterrence 
using chemical and biological agents that would create a 
balance of horror in the Palestinian and Israeli conflict.
    So we should occasionally do a reality check and make sure 
our assumptions are still valid. Now I would like to spend a 
few minutes on some recommendations to try to address some of 
these concerns.
    A general comment. What is required is innovative thinking 
and a reconceptualization of threats in the 21st century. It 
requires a long-term dedication to a multi-dimensional and 
multi-faceted approach that seeks to prevent WMD acquisition 
and use, to strengthen anti-proliferation norms, to develop 
adequate defenses here and elsewhere and to prepare for 
effective consequent mitigation and management in the advent of 
a WMD attack.
    Specifically what are some of the activities that might 
need to be pursued? There are six areas that I outline in my 
written testimony as being critical for the United States if it 
is going to be successful in its war on terrorism and WMD 
proliferation. Let me mention all six, but I'm only going to 
talk to three of them.
    The six are, first of all, enhancing global WMD materials 
protection, control and accounting. Secondly, supporting 
displaced WMD scientists and technical experts to keep them 
employed doing constructive socially beneficial projects. 
Third, enhancing intelligence collection, analysis, 
coordination and cooperation. Fourth, strengthening the public 
health sector within the United States and internationally. 
Fifth, renewing the international commitment to effective 
implementation of both the CWC and BWC. And sixth, making 
meaningful investments to address underlying causes of 
terrorism such as poverty, illiteracy and socioeconomic 
inequities.
    As I said earlier, I plan to only talk to three of these 
recommendations at this point. The first one I wanted to 
address is enhancing global WMD materials protection, control 
and accounting. It is clear that the United States must 
continue its support of improved MPC&A procedures in the former 
Soviet Union, but it also must expand these activities to 
include sensitive, chem-bio materials and it must make them all 
international in scope.
    Specifically though, in evaluating the security and 
protection globally of dangerous biological materials, it's 
quite apparent that without much trouble terrorists could 
easily steal or buy them illicitly. The United States and its 
allies must make it a priority to fill the security gap by 
pursuing vigorously enhanced national regulations that control 
and secure deadly pathogens and toxins and by launching the 
negotiation of a new bio-security convention.
    Such a convention would complement the BWC by developing a 
set of specific concrete regulations and activities that 
guarantee the control, accounting, safety and security of 
dangerous pathogens and toxins. I've attached a paper that's 
going to be published in the next issue of the Bulletin of 
Atomic Scientists that I've written with two of my colleagues 
from the Center for Nonproliferation Studies in which we go 
into much greater detail about this specific idea of the bio-
security convention.
    To initiate such a process, the United States should work 
with Europe, Japan and other like-minded states to develop the 
national legislation needed to prevent misuse and unauthorized 
access to dangerous biological agents and toxins. Using these 
efforts as models, the U.S. must lead the effort on an 
international level and with industry and academia to define 
international standards of safety and security in the bio-
technology sector so that we will have more control over where 
the materials of concern are, who has access to them, how they 
are controlled and how they are stored and transferred.
    A second recommendation is that we strengthen the public 
health sector within the United States and internationally. We 
need, obviously it's been said already today, to improve our 
own public health sector, but we also need to work with other 
international groups and foreign governments to the same 
internationally.
    The proposed draft legislation of Senator Biden and Helms 
called the Global Disease Surveillance Act of 2002 reflects the 
fact that given the speed of international travel, migration 
patterns and commercial transportation networks, it will not be 
enough to shore up American public health capabilities and 
capacities, recognizing that the best BW delivery system might 
be humans either knowingly or not.
    Therefore we must assist others to develop capabilities for 
disease monitoring, surveillance and response or else leave 
ourselves vulnerable to the possible exposure to dangerous 
diseases that could be locally contained. Having recognized the 
need for more support in this area, the challenge, though, will 
now be to sustain these efforts both in the United States and 
elsewhere.
    Since these activities have dual benefits enhancing both 
national and international security and public health, it is 
hoped that their value will be clearly evident and funding will 
become an integral and ongoing element of our national and 
public security systems.
    My final recommendation that I want to talk about is 
renewing international commitment to effective implementation 
of both the CWC and BWC. Mike has said almost everything I 
would want to say to tell you the truth, but let me just make 
some general points.
    As strange as it may seem, the nonproliferation regime is 
at the crux of whether many of the dire fears about WMD become 
reality. In the last decade, the United States and the UN 
Security Council have claimed rhetorically that terrorism and 
the proliferation of weapons of mass destruction are the 
greatest threat to U.S. and international security, but the 
actions of too many states call into question their long-term 
commitment to anti-terrorism and nonproliferation goals.
    The rhetoric appears hollow, the commitment to effective 
action inadequate to the task. It will require U.S. leadership 
to move forcefully forward. Leadership that involves working 
within the CWC and BWC context to ensure compliance, to ensure 
that there is securing of sensitive and dangerous materials and 
to strengthen international nonproliferation norms. It will 
require the United States and others to provide substantial new 
funding and support to these efforts, to focus on the 
international needs rather than domestic concerns and to take a 
long-term rather than short-term approach to these problems.
    To conclude, it is clear that what cannot happen is 
business as usual. While terrorism and proliferation may not be 
an issue in all parts of the world, it remains a substantial 
threat in several regions and is capable of acting as a 
catalyst to other states and subnational groups who might 
rethink their own decisions not to acquire or to use weapons of 
mass destruction. Thank you.
    [The prepared statement of Dr. Sands follows:]

                 Prepared Statement of Amy Sands, Ph.D.

    Dear Mr. Chairman, distinguished Members of the committee, and 
guests:
    I am grateful for the opportunity to appear before you this morning 
to discuss a topic that while, extensively discussed, deserves a new 
look from a different perspective.\1\ In the wake of events following 
September 11th, it is vital that we examine certain assumptions 
regarding the acquisition and use of chemical and biological weapons. 
It has become crucial that we go beyond traditional thinking and take a 
close look at capabilities and motivations, not only of state actors 
but also sub-national and terrorist organizations.
---------------------------------------------------------------------------
    \1\ I am grateful to the staff at the Center for Nonproliferation 
Studies at the Monterey Institute for their extensive help in preparing 
this testimony. Specifically I would like to thank Dr. Raymond 
Zilinskas, Jason Pate, Eric Croddy, Kimberly McCloud, Gary Ackerman, 
Cheryl Loeb and Jennifer Arbaugh.
---------------------------------------------------------------------------
            overview of the cbw threat: a traditional review
    Since the end of the Cold War, the acquisition and potential use of 
chemical and biological technologies and materials by state and sub-
state actors has become an increasingly real threat. The recent trend 
towards chemical and biological weapons (CBW) terrorism--most notably 
the 1995 sarin nerve agent attack in the Tokyo subway and the actual 
use of anthrax against individuals in the United States, coupled with 
the state level proliferation of offensive CBW programs, have created a 
security environment in which defending against chemical and biological 
attacks by states as well as sub-national groups must be the top 
priority.
    The anthrax letter attacks that occurred last fall only hint at the 
potential for casualties and widespread panic associated with a BW 
event. The 9/11 terrorists were able to plot and train secretly over 
several years to massacre thousands of people and die in the effort. It 
is conceivable that terrorists with similar dedication could 
deliberately obtain, weaponize, and disseminate a contagious pathogen 
such as smallpox or plague, and the results could make September 11th 
pale in comparison. In an era where people can literally move anywhere 
around the world within 36 hours--far less than the incubation period 
of many diseases of concern--all nations could be affected. In 
addition, advances in biotechnology, and the proliferation of BW know-
how and dual-use equipment, might make it possible for terrorists to 
engineer highly virulent, antibiotic-resistant ``designer'' pathogens 
to suit their needs.
    Given the destructive possibility of CBW, it is worth quickly 
reviewing the ``state of play.'' The rest of this section will be 
devoted to examining state-level CBW capabilities and sub-national 
groups' interest in and use of CB agents.
CAW Proliferation: State Level
    Although the Chemical Weapons Convention (CWC) and Biological 
Weapons Convention (BWC) impose restrictions on the acquisition and use 
of these weapons, many states continue to pursue clandestine and 
offensive CBW capabilities. Roughly 13 states are believed to be 
actively seeking biological weapons and nearly 20 may be pursuing 
chemical warfare capabilities. Proliferant states of particular concern 
include China, Egypt, Iran, Iraq, Israel, Libya, North Korea, Russia, 
Sudan, and Syria (for more information on state programs please see our 
website at http://www.cns.miis.edu/research/cbw/possess.htm). The 
analysis here is divided into two categories: 1) unique state threats 
and 2) other state actors.
            Unique State Threats:
            North Korea
    An analysis of open sources indicates that North Korea has operated 
an extensive CW program for many years. It is probable that adamsite, 
mustard, hydrogen cyanide, cyanogen chloride, phosgene, sarin, soman, 
tabun, and VX are among the agents in its chemical weapons arsenal. In 
the biological sphere, North Korea has reportedly pursued BW 
capabilities since the 1960s, and continues research with possible 
production of anthrax, plague, yellow fever, typhoid, cholera, 
tuberculosis, typhus, smallpox, and botulinum toxin. North Korea is not 
party to the CWC but has acceded to the BWC.\2\
---------------------------------------------------------------------------
    \2\ Joseph S. Bermudez, Jr., The Deterrence Series, Case Study 5: 
North Korea, (Alexandria, VA: Chemical and Biological Arms Control 
Institute, 1998), p. 5; U.S. Department of Defense, Proliferation: 
Threat and Response 2001, [http://www.defenselink.mil/pubs/
ptr20010110.pdf], pp. 10-11; Institute for National Strategic Studies, 
Strategic Assessment 1997, Flashpoints and Force Structure, 
(Washington, DC: National Defense University Press, 1997), [http://
www.ndu.edu/ndu/inss/sa97/sa97ch11.html]; Russian Federation Foreign 
Intelligence Service, A New Challenge After the Cold War: Proliferation 
of Weapons of Mass Destruction, p. 99; ``The Actual Situation of North 
Korea's Biological and Chemical Weapons,'' Foresight, February 17, 
2001, pp. 24-25, translated in FBIS; ``South Korea Says North Has 
Biological, Chemical Weapons,'' Kyodo News Service, October 23, 1992; 
North Korea Advisory Group, Report to the Speaker, U.S. House of 
Representatives, November 1999; Bill Gertz, ``Hwang Says N. Korea Has 
Atomic Weapons; Pyongyang Called Off Planned Nuclear Test,'' The 
Washington Times, June 5, 1997, p. A12; Republic of Korea, Ministry of 
National Defence, White Paper, 2000, [http://www.mnd.go.kr/mnden/
emainindex.html].
---------------------------------------------------------------------------
    North Korea's CW capabilities tell us something about how they 
might use these weapons. Reflecting Soviet military doctrine, North 
Korea has traditionally viewed chemical weapons as an integral part of 
any military offensive. There are no indications that this view has 
altered since the end of the Cold War. The most obvious tactical use of 
chemical weapons by North Korea would be to terrorize South Korean 
civilians. Seoul lies within easy striking distance of North Korea's 
artillery and rocket systems and, today, the South Korean civilian 
population has no protection against CW attack.\3\
---------------------------------------------------------------------------
    \3\ North Korea Advisory Group, Report to the Speaker, U.S. House 
of Representatives, November 1999.
---------------------------------------------------------------------------
    In terms of more traditional conflicts, the rugged terrain of the 
northern region of the demilitarized zone affords two main routes for 
North Korea to capture, or at least lay siege to Seoul, while 
attempting to deny US forces from landing at strategic ports. It is 
highly likely that chemical weapons would be used against hard military 
targets in the South, such as airfields and ports, not only spreading 
death and injury to a wide area of South Korean personnel, but 
contaminating these installations with persistent blister and/or nerve 
agents for area denial. Finally, because much of the North's success 
relies on preventing US assets in the region coming to the aid of the 
South, especially those forces deployed in Okinawa and Guam, the latter 
two could be targeted by Nodong-1, Nodong-2 and Taep'odong missiles, 
possibly armed with chemical warheads.
    It is unclear how the use of BW agents could play in North Korean 
military planning. While a number of delivery systems mentioned above 
could be employed to use BW agents against South Korean and US forces, 
is unknown what validated weapons systems are currently in the North 
Korean arsenal. As part of an overall offensive, Northern infiltrators 
in the South could conduct sabotage operations using BW agents, as well 
as biological assaults from North Korean specialized units. Whether by 
sophisticated aerosolized agents (anthrax) or crude contamination of 
food or beverages, such operations may be set into motion if the North 
decides to conduct full scale military operations against South Korea.
            Former Soviet Union/Russia
    Probably an even more problematic and troubling situation exists in 
some of the newly independent states of the former Soviet Union (FSU) 
because of the scale of its CBW programs, which had developed large 
quantities of chemical and biological agent for use in a variety of 
weapons and military scenarios. Insuring the safety and security of 
these materials while they await destruction presents a significant 
challenge, but it is not the only legacy of these programs that 
requires attention.
    Western security experts and policy-makers must take seriously the 
dangers posed by the scope, history, and enduring capabilities of the 
Soviet offensive BW program. First, the US government, among others, 
fears that President B. Yeltsin's 1992 decree ordering the 
dismantlement of FSU's BW program is being disobeyed and that secret, 
BW-related activities contravening the BWC continue in the Russian 
Federation. The three military biological laboratories at Kirov, Sergei 
Posad, and Sverdlovsk, which remain closed to foreigners, are 
especially worrisome in this regard.
    In addition, we know that FSU's BW program developed a number of 
pathogens and toxins for use as biological weapons. While we may not 
know all the program's accomplishments, it is reasonable to believe 
that some would be state-of-the-art, possibly posing threats to the 
West that it is unprepared to meet. A Russian BW program, if it exists, 
can be expected to build on past accomplishments. It is therefore 
disturbing to read that Russian military scientists developed new 
anthrax and plague bacterial strains resistant to antibiotics. For 
these reasons, a continuing Russian BW program would pose much greater 
security threats to the West than would the suppressed program of Iraq, 
or the incipient programs of other proliferant nations, who for the 
most part are believed to depend on classical agents and technologies 
developed during and just after World War II.
    Turning to the former Soviet Union's CW program, Russia has been in 
technical noncompliance with the CWC almost since the treaty entered 
into force. Dealing with catastrophic economic, political, and social 
problems has left Moscow unable to fulfill its obligations under the 
CWC. The primary reason for Russian noncompliance has been its 
inability to destroy its stockpiles in a timely manner. This failure 
has more to do with lack of funding and the capacity of existing 
destruction facilities than any real desire by Russia to violate the 
CWC. However, it has been alleged that Russia purposefully lied in its 
declarations to the Organization for the Prohibition of Chemical 
Weapons (OPCW) to hide the actual size of its arsenal. In addition, 
Russia may have secretly destroyed CW in an effort to help with this 
obfuscation as well as providing false information several years prior. 
In March 1994, Valerii Menshikov, a consultant to the Russian National 
Security Council, said that the Soviet Union had indeed lied in its 
declarations udder the 1989 Memorandum of Understanding with the United 
States.\4\
---------------------------------------------------------------------------
    \4\ Amy E. Smithson, ``A Commentary on the Russian Factor,'' in 
Brad Roberts, ed., Ratifying the Chemical Weapons Convention 
(Washington, D.C.: Center for Strategic and International Studies, 
1994), p. 102.
---------------------------------------------------------------------------
    Even more disturbing than the possibility of false declarations and 
secret efforts to hide arsenal size is the suspicion that Russia has 
developed, and may be continuing to develop, a next generation type of 
chemical agent. \5\ The program, nicknamed ``Novichok'' or ``new guy,'' 
might include agents that are outside the current CWC list of 
prohibited agents. The first compliance question here is determining 
the existence of the Novichok program. The main problem lies in the 
fact that even if the program exists, the agents may not be covered by 
the CWC. It remains then either to make sure that the CWC covers 
Novichok, or that there is some way to address this possible 
noncompliance that may not violate the letter of the treaty, but 
certainly violates its spirit.
---------------------------------------------------------------------------
    \5\ See: Dr. Vil S. Mirzayanov, ``Dismantling the Soviet/Russian 
Chemical Weapons Complex: An Insider's View,'' Chemical Weapons 
Disarmament in Russia: Problems and Prospects (Washington, DC: The 
Henry L. Stimson Center, 1995) p. 24-25; Clifford Krauss, ``US Urges 
Russia To End Production of Nerve Gas,'' The New York Times, February 
6, 1997. p. A7; and Frank Von Hippel, ``Russian whistleblower faces 
jail,'' Bulletin of the Atomic Scientists 49 (May 1993), [http://
www.bullatomsci.org/issues/1993/m93/m93vonhippel.html].
---------------------------------------------------------------------------
            Other State Actors:
            China
    Even though it is a member state of the both CWC and BWC, it is 
possible that China is pursuing, or has pursued, chemical and 
biological weapons programs. China claims to have destroyed three 
production facilities in keeping with its obligations under the CWC.\6\ 
When looking at evidence of its commitment to the CWC, China appears 
not to have any CW stockpiles or current production capabilities. 
However, US intelligence sources maintain that China retains a 
``moderate'' stockpile of CW and has ``not acknowledged the full extent 
of its chemical weapons program,'' even though it ratified the CWC in 
1997.\7\ Moreover, China has a large civilian chemical and 
pharmaceutical production infrastructure that could quickly be 
redirected toward the production of chemical and biological agents.\8\ 
These uncertainties about China's current activities are compounded by 
the fact that it has not revealed the scope and nature of its past 
programs. This lack of transparency, although occurring within the 
context of technical compliance and diplomatic commitment to the 
regime, nonetheless fails to provide sufficient confidence-building. In 
China's case, the infrastructure for weapons development might exist, 
but the state may have indeed destroyed its stockpile. Simply put, 
without more information, China's true capabilities remain a mystery 
and its intent is clouded.
---------------------------------------------------------------------------
    \6\ Ibid., p. 67.
    \7\ Proliferation: Threat and Response, Department of Defense 
(2001), p.15.
    \8\ Rear Admiral Thomas Brooks, Director of Naval Intelligence, 
statement before the Subcommittee on Seapower, Strategic and Critical 
Materials, U.S. Congress, House of Representatives, Committee on Armed 
Services, ``Hearings on National Defense Authorization Act for Fiscal 
Years 1992 and 1993 before the Committee on Armed Services,'' 102[nd] 
Congress, Second Session, March 7, 1991, (Washington, DC: Government 
Printing Office, 1993), p. 107; U.S. Department of Defense, 
Proliferation: Threat and Response 2001, [http://www.defenselink.mil/
pubs/ptr20010110.pdf], p. 14; U.S. Department of State, ``Adherence To 
and Compliance With Arms Control Agreements,'' 1998 Report submitted to 
the Congress, Washington, DC, [http://www.state.gov/www/global/arms/
reports/annual/comp98.html].
---------------------------------------------------------------------------
            Egypt
    The first Arab country to develop, produce, stockpile, deploy, and 
use chemical weapons (Yemen Civil War), Egypt has pursued a chemical 
weapons program since the early 1960s. In its chemical weapons arsenal, 
it is probable that Egypt possesses mustard, phosgene, sarin, and VX. 
In the biological sphere, it is believed that Egypt has been pursuing a 
BW program since the early 1970s, and likely maintains an offensive 
program. Egypt is not a party to either the CWC or the BWC.\9\
---------------------------------------------------------------------------
    \9\ Avner Cohen, ``Israel and Chemical/Biological Weapons: History, 
Deterrence, and Arms Control,'' The Nonprolferation Review, Vol. 8 No. 
3 (Fall-Winter 2001), pp. 27-53; Dany Shoham, ``Chemical and Biological 
Weapons in Egypt,'' The Nonprolferation Review, 5 (Spring-Summer 1998), 
pp. 48-58; Arms Control and Disarmament Agency, Adherence to and 
Compliance with Arms Control Agreements: 1998 Annual Report to 
Congress, [http://www.state.gov/www/global/arms/reports/annual/
comp98.html].
---------------------------------------------------------------------------
            Iran
    Even though Iran is a party to both the CWC and the BWC, it appears 
to have continued to pursue offensive CBW capabilities. Iran is 
believed to have initiated both its chemical and biological weapons 
programs in the mid-1980s. In its chemical weapons arsenal, Iran has 
manufactured and stockpiled mustard, sarin, hydrogen cyanide, cyanogen 
chloride, and phosgene. In regards to BW, Iran has conducted research 
on anthrax, foot and mouth disease, botulinum toxin, and mycotoxins. It 
is likely that Iran maintains an offensive BW program.\10\
---------------------------------------------------------------------------
    \10\ Cordesman, ``Weapons of Mass Destruction in the Middle East,'' 
[http/www.csis.org/mideast/reports/WMDinMETrends.pdf], 1999, pp. 38-40; 
Robert J. Einhorn, Testimony Before the Senate Foreign Relations 
Committee, Washington, DC, October 5, 2000, [http://www.state.gov/www/
policy__remarks/2000/001005__einhorn__sfrc.html]; U.S. Department of 
Defense, Proliferation: Threat and Response 2001, [http://
www.defenselink.mil/pubs/ptr20010110.pdf], p. 36; Central Intelligence 
Agency (CIA), ``Report of Proliferation-Related Acquisition in 2001,'' 
(Washington, DC: U.S. Central Intelligence Agency, 2001), [http://
www.odci.gov/cia/publications/bian/bian__feb__ 2001.htm]; Anthony 
Cordesman, Weapons of Mass Destruction in Iran: Delivery Systems, and 
Chemical, Biological, and Nuclear Programs, (Center for Strategic and 
International Studies, April 28, 1998), [http://www.csis.org/mideast/
reports/WMDinIran4-28-98.html].
---------------------------------------------------------------------------
            Iraq
    While the current status of Iraq's chemical and biological weapons 
programs remains unknown due to continuous refusals to allow inspectors 
from the United Nations Monitoring, Verification and Inspection 
Commission (UNMOVIC) into the country, it is widely believed that Iraq 
is continuing to pursue offensive chemical and biological weapons 
programs. Prior to the expulsion of the United Nations Special 
Commission (UNSCOM) inspectors in 1998, it was ascertained that Iraq 
had mustard, sarin, tabun, VX, and Agent 15 in its chemical weapons 
arsenal, along with a sizeable stockpile of chemical munitions. Iraq 
weaponized the biological agents anthrax, botulinum toxin, ricin, 
aflatoxin, and wheat cover smut, and conducted BW related research on 
brucellosis, hemorrhagic conjunctivitis virus (Enterovirus 70), 
rotavirus, camel pox, gas gangrene toxin, and possibly plague.\11\ Iraq 
is not a member of the CWC, but acceded to the BWC as a condition of 
the Gulf War ceasefire agreement.
---------------------------------------------------------------------------
    \11\ United Nations, United Nations Special Commission (UNSCOM), 
``Fourth Report under Resolution 1051,'' (June 10, 1997), [http://
www.un.org/Depts/unscom/sres97-774.htm]; United Nations, United Nations 
Special Commission (UNSCOM), ``Latest Six-Monthly Report,'' (April 16, 
1998), [http://www.un.org/Depts/unscom/sres98-332.htm]; U.S. Department 
of Defense, Proliferation: Threat and Response 2001, [http://
www.defenselink.mil/pubs/ptr20010110.pdf] pp. 4 1-42; Steve Bowman, 
Iraqi Chemical & Biological Weapons (CBW) Capabilities, CRS Issue 
Brief, (Congressional Research Service, April 1998), [http://
www.fas.org/spp/starwars/crs/98042705 __npo.html]; Milton Leitenberg, 
Biological Weapons in the Twentieth Century: A Review and Analysis, 
[http://www.fas.org/hwc/papers/hw20th.htm], 2001; Arms Control and 
Disarmament Agency, Adherence to and Compliance with Arms Control 
Agreements: 1995 Annual Report to Congress, [http://
www.dosfan.lib.uic.edu/acda/reports/complian.htm].
---------------------------------------------------------------------------
            Israel
    The roots of Israel's biological and chemical weapons programs can 
be traced back to 1948, and the mid-1950s, respectively. Even though 
little information on the highly secretive programs exists in open 
sources, it is widely believed that Israel has a large chemical weapons 
defensive program and is capable of producing and stockpiling various 
chemical agents. In the biological sphere, Israel is conducting a wide 
array of biological weapons related research, with a possible 
production of numerous types of agents. The current CBW program is 
located at the Israeli Institute of Biological Research (IIBR) at Ness 
Ziona. Israel is not a party to either the CWC or the BWC. \12\
---------------------------------------------------------------------------
    \12\ Avner Cohen, ``Israel and Chemical/Biological Weapons: 
History, Deterrence, and Arms Control,'' The Nonproliferation Review, 
Vol. 8 No. 3 (Fall-Winter 2001), pp. 27-53; Russian Federation Foreign 
Intelligence Service, A New Challenge After the Cold War: Proliferation 
of Weapons of Mass Destruction, 1993; Cordesman. ``Creeping 
Proliferation Could Mean a Paradigm Shift in the Cost of War and 
Terrorism,'' [http:/www.csis.org/mideast/stable/3h.html].
---------------------------------------------------------------------------
            Libya
    Since the 1980s, Libya has produced more than 100 metric tons of 
nerve and blister agents at the Rabta facility, employed chemical 
weapons against Chadian troops in 1987, and has attempted to build an 
underground production facility at a site called Tarhunah. Chemical 
agents believed to be in Libya's arsenal include mustard, sarin, tabun, 
lewisite, and phosgene. Libya has conducted research on biological and 
toxin agents, although the extent of the program is unknown. It is 
possible, however, that Libya could produce small quantities of BW 
agents. Libya is not a member of the CWC, but has acceded to the 
BWC.\13\
---------------------------------------------------------------------------
    \13\ Russian Federation Foreign Intelligence Service, A New 
Challenge After the Cold War: Proliferation of Weapons of Mass 
Destruction, 1993, p. 100; Cordesman, ``Weapons of Mass Destruction in 
the Middle East,'' [http://www.csis.org/mideast/reports/
WMDinMETrends.pdf], 1999, p. 17; Department of Defense, Proliferation: 
Threat and Response 2001, [http://www.defense link.mil/pubs/
ptr2001O10.pdf], p. 46; Joshua Sinai, ``Libya's Pursuit of Weapons of 
Mass Destruction,'' The Nonproliferation Review, 4, (Spring-Summer 
1997), p. 94; Robert J. Einhorn, Testimony Before the Senate Foreign 
Relations Committee, Washington, DC, October 5, 2000, [http://
www.state.gov/www/policy__remarks/2000/001005__einhorn__sfrc.html]; 
Arms Control and Disarmament Agency, Adherence to and Compliance with 
Arms Control Agreements: 1998 Annual Report to Congress, [http://
www.state.gov/www/global/arms/reports/annual/comp98.html].
---------------------------------------------------------------------------
            Sudan
    Although a party to the CWC, evidence in the public domain suggests 
that it is likely that Sudan has been developing a chemical weapons 
capability since the 1980s. Sudan is heavily dependent upon foreign 
assistance for its program, and has traditionally sought foreign 
assistance from a number of countries that have CW programs, including 
Iraq. It is possible that Sudan is pursuing a biological weapons 
program, but there are no reports in the open source to confirm this. 
Sudan is not a party to the BWC.\14\
---------------------------------------------------------------------------
    \14\ Michael Bartletta, ``Chemical Weapons in the Sudan: 
Allegations and Evidence,'' The Nonprolferation Review, Fall 1998; 
Central Intelligence Agency, ``Unclassified Report to Congress on the 
Acquisition of Technology Relating to Weapons of Mass Destruction and 
Advanced Convention Munitions, 1 January Through 30 June 2001 [http://
www.cia.gov/cia/publications/bian/bian__jan__2002.htm].
---------------------------------------------------------------------------
            Syria
    With an estimated CW stockpile in the hundreds of tons, it is 
likely that Syria has one of the largest and most advanced chemical 
weapons stockpiles in the Middle East even though it is dependent upon 
foreign sources for precursor chemicals, materials and equipment, it is 
likely that Syria is capable of producing and delivering mustard, 
sarin, and VX. It is likely that Syria conducts biological weapons 
research on anthrax, botulinum toxin, and ricin, with possible 
production of such agents. Syria is not a party of the CWC or the 
BWC.\15\
---------------------------------------------------------------------------
    \15\ U.S. Department of Defense, Proliferation: Threat and Response 
2001, [http://www.defense link.mil/pubs/ptr20010110.pdf], p. 43; 
Cordesman, ``Weapons of Mass Destruction in the Middle East'', [http://
www.csis.org/mideast/reports/WMDinMETrends.pdf], 1999; Cordesman, 
``Creeping Proliferation Could Mean a Paradigm Shift in the Cost of War 
and Terrorism,'' [http://www.csis.org/mideast/stable/3h.html]; M. 
Zuhair Diab, ``Syria's Chemical and Biological Weapons: Assessing 
Capabilities and Motivations,'' The Nonproliferation Review, 5, (Fall, 
1997), pp. 104-111; ``Devil's Brews Briefing: Syria,'' Centre for 
Defence and International Security Studies, Lancaster University, 1996; 
Central Intelligence Agency, ``Unclassified Report to Congress on the 
Acquisition of Technology Relating to Weapons of Mass Destruction and 
Advanced Convention Munitions, 1 January Through 30 June 2001,'' 
[http://www.cia.gov/cia/publications/bian/bian__jan__2002.htm].
---------------------------------------------------------------------------
The Non-State Threat: A Fusion of Factors
    Alone, the tragic events of September 11, 2001 should be a wake-up 
call to action. When added together with the emergence of state-
sponsored and transnational forms of terrorism and the proliferation of 
weapons of mass destruction (WMD) technologies and materials in the 
post-Cold War period, it is clear that we are living in a new security 
era in which the possibility that terrorists could acquire and use WMD, 
including chemical and biological weapons, must be seen as real. The 
anthrax letter attacks, although limited in the scope of their 
lethality, suggest that future terrorists might well cross the weapons 
of mass destruction threshold.
    It is well known that several terrorist organizations have 
expressed an interest in or already obtained chemical or biological 
agents. Aum Shinrikyo, the Japanese doomsday cult, showed its ability 
to make and use sarin gas in the subway system in Tokyo, albeit not as 
effectively as it had hoped or planned. The unknown assailant(s) that 
have plagued the United States with anthrax-tainted letters have shown 
that manufacturing and dispersement of lethal anthrax is possible. 
Beyond these well known cases, there are extensive examples of 
terrorists groups using, or attempting to use chem-bio agents. Other 
organizations with known interest in chemical and/or biological weapons 
include: al-Qa'ida. believed to have obtained chemical weapons from 
Sudan and Iraq and biological agents from the Czech Republic, 
Kazakhstan, and Indonesia; the Kurdistan Worker's Party, believed to 
have the precursors needed to produce a sarin bomb; and the 
Rajneeshees, a religious cult located in The Dalles, Oregon, actually 
used Salmonella Typhimurium to contaminate food in local restaurants in 
order to make voters ill before an upcoming election.\16\
---------------------------------------------------------------------------
    \16\ David E. Kaplan, ``Aum Shinrikyo (1995),'' in Jonathan Tucker, 
ed., Toxic Terror (Cambridge, MA.: Belfer Center for Science and 
International Affairs, 2000), pp 123, 128-129.
---------------------------------------------------------------------------
    Related to this sense of an increased threat is the reality that we 
are all more vulnerable. Today's global community is the result of 
several developments, including the diffusion of and increased reliance 
on technology; increased access to information, technology, and 
materials; ease of communication and transportation; and the openness 
of more societies. This certainly enhances economic advancement, but 
also creates more avenues of access for adversaries. Coupled with this 
increased access to potential targets is the reality that most 
countries or sub-national groups cannot defeat the United States in a 
direct confrontation. These adversaries then look for ways to exploit 
their access and our vulnerabilities. So, what is new is the 
vulnerability of modern, open society to terrorists with such an open-
ended agenda. While we have moved away from the threat of global 
annihilation, we may have moved closer to the actual use of mass 
destruction weapons in situations where the United States may have 
little influence or be the target. In short, Americans may not be 
worried about a Russian nuclear attack, but now must fear a more random 
set of events producing some catastrophe in their local environment, 
without any notice or early indicators.
    Moreover, it now has become apparent that certain thresholds have 
been passed--until September 11th, no more than 1,000 Americans had 
died in terrorist incidents at home or abroad since 1968. Our 
speculation on whether terrorists would and could kill thousands of 
people has been answered. The problem is that this should not have 
surprised those of us in the field because, at least since the first 
world trade center bombing, it has been clear that there existed a 
network of terrorists, loosely tied by extreme Islamic teachings, 
willing to try to cause harm to large numbers of people. Ramzi Yousef, 
the perpetrator of that incident was quite clear in his intent in 1993 
to kill 50,000 or more Americans. He and others planned a variety of 
terrorist acts that if successful would have caused large numbers of 
deaths and casualties.
    Several factors have come together to increase the likelihood of 
CBW acquisition and use by sub-national groups. First, terrorists may 
see CBW as giving them a new advantage. They know we are incredibly 
worried about such a possibility and may believe such an attack will 
not only kill many Americans, but also could psychologically ``freeze'' 
the United States.
    Second, chem-bio materials are available and there is clear 
evidence of terrorists being interested in obtaining these materials. 
This supply-demand dynamic could easily be played out at biological 
research institutions in the FSU. If security is poor or lacking, as 
many suspect at these institutions, they would be vulnerable to theft 
of pathogens, toxins, and other material of potential use by criminals, 
other countries, or terrorists. Most important, after theft, it would 
be easy for the perpetrator to hide and transport seed cultures of 
organisms that could be directly used in biological weapons or to 
produce toxins.
    Third, some terrorists groups exist that are clearly capable of 
organizing and operationalizing the type of complex long term effort 
that would be needed to develop and effectively deliver CBW agents. The 
planning effort behind the September 11th events was both long term and 
complex, and it surprised many that terrorists could sustain such an 
effort. it clearly signaled a level of commitment and operational 
thoroughness thought to be beyond most terrorist groups.
    Fourth, cooperation between groups and with states possessing CBW 
capabilities may be growing. An example of such cooperation is 
reflected in Iran's relationship with three terrorist groups, Hamas, 
Hizbollah, and Islamic Jihad. In April 2001, Iran reiterated its 
unflinching support for those terrorist groups working against Israel 
by hosting the International Conference on the Palestinian Intifada in 
Tehran, which was convened by the Iranian parliament. Those invited 
included leaders from Hamas, Hizbollah. and Islamic Jihad, presumably 
to encourage greater cooperation between these groups in their 
campaigns against Israel. At the conference, Iran's religious leader 
Ayatollah Khamenei repeated his description of Israel as a ``cancerous 
tumor'' ripe for removal.\17\
---------------------------------------------------------------------------
    \17\ Source: U.S. Department of State. ``Overview of State-
Sponsored Terrorism'' in Patterns of Global Terrorism 2000, Released by 
the Office of the Coordinator for Counterterrorism, (April 2001), found 
on the Internet at [http://www.state.gov/s/ct/rls/pgtrpt/2OOO/].
---------------------------------------------------------------------------
    Finally, the technical workforce needed to develop effective CBW is 
available and ``cheap.'' This concern about workforce availability 
deserves more attention. As is well known by now, the Soviet Union 
established a powerful, well-funded secret program to acquire 
biological weapons. In 1992, President B. Yeltsin acknowledged the BW 
program's existence and decreed that it be discontinued and dismantled 
in Russia. The decree's effect, when combined with the general decrease 
in public support by the Russian government for science, led to drastic 
funding cuts for the BW program. Although we do not know the full 
consequences of these measures, some dedicated BW facilities (such as 
Stepnogorsk) were closed down and many others downsized (including 
Obolensk and Vektor). Hundreds, perhaps thousands, of scientists, 
engineers, and technicians were fired or had their wages cut.
    In general, the Western governments have viewed the condition of 
the FSU weapons research institutions with apprehension. Whether the 
mission of a weapons research institution lies in the biological, 
chemical, or nuclear area, the problem is similar: What will happen to 
the expertise inherent in these institutions as some dissolve and 
others are down-sized? Two concerns of Western governments include: 
Might institutions on the verge of extinction be contracted by foreign 
governments or sub-national groups to develop weapons? And could 
scientific workers that they employ be induced to relocate to 
proliferant countries by offers of high salaries and bonuses?
    Due to the difficult conditions under which science operates in the 
FSU, and in consideration of the dissolving or diminishing weapons 
research institutions, these countries are likely have a substantial 
number of disgruntled and frustrated scientists and engineers with 
expertise in the biological weapons area. Some may be enticed by high 
salaries and other inducements to work for foreign governments, sub-
national groups, and criminals to develop biological weapons. It is 
known that especially Iran has made strenuous attempts to recruit 
weapons scientists to work in that country by offering them high 
salaries (in excess of $6,000 per month).
    But the concern about the clandestine recruitment of scientists 
from dismantled CBW programs should also include South Africa and the 
former Yugoslavia. CBW related activities first started in South Africa 
under British rule in the 1930s and continued during the Second World 
War with the production of mustard gas. But it was not until 1981 that 
the official South African program, code-named Project Coast, began 
operations. Ostensibly to provide the South African Defence Force with 
detection and protection capabilities, Project Coast became a highly 
secretive program that engaged in offensive research. With an annual 
budget of 10 million dollars a year, and with an estimated staff of 
200, Project Coast employed a number of scientists, physicians, and 
technicians to work on both chemical and biological weapons research, 
development, and production (exact numbers of scientists and other 
employees of the program have not been published by the South African 
Government). \18\
---------------------------------------------------------------------------
    \18\ Stephen Burgess and Helen Purkitt, The Rollback of South 
Africa's Biological Warfare Program, INSS Occasional Paper 37, (USAF 
Institute for National Security Studies, February, 2001), 
[http:www.usafa.af.mil/inss/ocp37.htm].
---------------------------------------------------------------------------
    When Project Coast was terminated in 1993, it left a number of 
weapons scientists and technicians suddenly out of work, therefore 
raising the possibility that a number of these specialists may have 
been induced to work for foreign governments and sub-national 
organizations. Further compounding this threat is the knowledge that in 
the early 1990s, after the termination of the CBW program, Dr. Wouter 
Basson, the former head of the CBW program, made frequent trips 
overseas. Of particular concern were a series of visits made to Libya 
between 1992 and 1995 as a representative of a South African industrial 
conglomerate Transnet, to promote its transportation and hospital 
equipment interests. His lack of expertise in this field and his 
special experience in CBW programs, combined with the efforts of the 
Libyan government to develop an indigenous CBW capability, led to 
concern that he was selling his CBW knowledge.\19\
---------------------------------------------------------------------------
    \19\ James Adams, ``Gadaffi Lures South Africa's Top Germ Warfare 
Scientists,'' Sunday Times, February 26, 1995; Alexandra Zavis, 
``Mandela Says Chemical Weapons Figures May Be in Libya,'' Associated 
Press, March 2, 1995; Peta Thornycroft, ``Poison Gas Secrets Were Sold 
to Libya,'' Weekly Mail & Guardian, 13 August 1998.
---------------------------------------------------------------------------
    Yugoslavia provides another example. Prior to its breakup in 1991, 
the Yugoslav National Army had a chemical weapons program consisting of 
four weapons facilities, three in Serbia and one in Bosnia. Chemical 
agents in the Yugoslavian arsenal included sarin, mustard, and CS.\20\ 
It should be noted, however, that there is limited information in the 
open source literature to determine accurately where many of the former 
scientists currently reside. The possibility exists that former 
Yugoslavian weapons scientists could have been recruited by foreign 
state and sub-state actors interested in developing a chemical weapons 
capability.
---------------------------------------------------------------------------
    \20\ The Federation of American Scientists, ``Chemical Agents in 
the Former Yugoslavia,'' Nuclear Forces Guide, [http://www.fas.org/
nuke/guide/serbia/cw/index.html], April 23, 2000; Judith Miller, ``U.S. 
Officials Suspect Deadly Chemical Weapons in Yugoslav Army Arsenal,'' 
New York Times, April 16, 1999.] After the breakup of the country in 
1991, it is believed that the army of the Federal Republic of 
Yugoslavia inherited much of the CBW program, Human Rights Watch, 
Clouds of War: Chemical Weapons in the Former Yugoslavia, March 1997, 
[http://www.hrw.org/reports/1997/clouds/].
---------------------------------------------------------------------------
                       a cbw threat reality check
    Having outlined the recognized state and terrorist threats, it is 
worth looking at these threats from an additional dimension. Too often 
we comfortably reiterate the same threat mantra without examining more 
closely certain underlying assumptions. Discussed below are several 
traditionally accepted statements often found in threat assessments 
that deserve to be challenged.
Assumption: Terrorists don't have physical locations to make/store 
        materials
    It is often argued that terrorists may have safe havens, but will 
still lack a physical infrastructure to develop CBW. Also, it has been 
assumed that it will be virtually impossible to detect terrorists 
hunkering down in caves and basements and working on CB agents. 
However, an often overlooked point is that terrorist groups can and 
have actually possessed recognizable (and targetable) CBW facilities. 
While this possibility is not a new concern, the extent of it occurring 
and its implications may not be fully recognized.
    The US government has viewed the subject of terrorist facilities 
with concern, but little public discussion has developed about 
terrorists having CBW facilities within their safe havens as well as 
within established western states. An early, but well publicized, 
example was the Clinton administration's controversial cruise missile 
attack on the Al-Shifa pharmaceutical plant in Sudan on 20 August 1998. 
It argued that the plant was linked to Bin Laden and that it was not a 
pharmaceutical plant, but a chemical weapons manufacturing complex that 
was engaged in the production of the nerve agent VX.
    At the other extreme of public exposure are the facilities in the 
former Yugoslavia. On 8 July 1999, the Italian newspaper Corriere della 
Serra indicated that members of the World Islamic Front Against Jews 
and Crusaders, which was founded by Bin Laden, had purchased three 
chemical and biological agent production facilities in the former 
Yugoslavia in early May 1998. According to the article, one such 
facility was erected in the Bosnian village of Zenica. The report also 
stated that another factory was built near Kandahar, Afghanistan. There 
was no open investigation or diplomacy, and certainly no cruise 
missile, directed against these facilities at that time. Allegedly, 
members of the World Islamic Front for Fighting Jews and Crusaders 
hired Ukrainian scientists to manufacture unspecified poisons and train 
Bin Laden's activists in the use of these substances as weapons. The 
activists would be trained to insert the chemical agents and toxins 
into explosive devices. Bin Laden planned to send the chemically-
trained warriors back to their home countries or to cells in Europe. 
\21\
---------------------------------------------------------------------------
    \21\ James Bennet, ``U.S. Fury on 2 Continents: The Overview; U.S. 
Cruise Missiles Strike Sudan and Afghan Targets,'' The New York Times 
(21 August 1998): A1.
---------------------------------------------------------------------------
    During the war in Afghanistan, US intelligence officials pinpointed 
two sites that may have been used by al-Qa'ida to produce chemical 
weapons. The United States believes cyanide was produced at a crude 
chemical facility in the small village of Derunta (Darunta), near the 
city of Jalalabad in eastern Afghanistan.\22\ The secret laboratory 
contained bottles of cyanide poison and bomb instruction manuals, and 
was allegedly run by a man named Abu Khabab.\23\ A fertilizer plant in 
the northern town of Mazar-e-Sharif is also suspected of playing a role 
in possible chemical weapons production. \24\
---------------------------------------------------------------------------
    \22\ ``Chem-War sites found,'' Toronto Sun (11 November 2001); 2.
    \23\ ``War in Afghanistan: lnside Bin Laden's chemical bunker,'' 
The Guardian (London) (17 November 2001); 3.
    \24\ Ibid.
---------------------------------------------------------------------------
    Beyond al-Qa'ida there is Aum Shinrikyo, who, through substantial 
contributions from wealthy members, purchased a wide variety of 
businesses and facilities including a medical clinic, computer stores, 
and trading companies. Also, the cult purchased land in Japan, on which 
they built a compound where they were able to pursue research and 
development of various dangerous and potentially lethal materials. 
Using its businesses as a front, the cult could claim some legitimacy 
for its pursuit of certain chemicals and technology. Although most of 
the chemicals were obtained from within Japan, Aum purchased some 
materials from the United States and attempted to buy weapons and 
technology from Russia. In addition, the cult bought a ranch in a 
remote area of Australia to carry out testing of nerve agents.
    As all these cases demonstrate, terrorists have had access to or 
possession of facilities. Some of these may even be located outside of 
safe havens and may appear legitimate, making the task of detecting and 
identifying them accurately much more difficult.
Assumption: A certain set of CB agents, such as VX, sarin, anthrax, and 
        smallpox, are the most likely CBW agents to he used
    Cyanide is a chemical that has sometimes been overlooked as a 
weapon in favor of more lethal and ``glamorous'' chemical agents like 
sarin and VX. Yet the wide availability of various cyanide containing 
compounds, which are widely used in industrial processes, make cyanide 
(either in the form of hydrogen cyanide gas or as a solid or liquid 
contaminant) one of the more likely WMD agents that can be used to 
attack localized targets.
    The WMD Terrorism Database of the Center for Nonproliferation 
Studies at the Monterey Institute records 52 possessions, plots or uses 
involving cyanide by terrorists. These cases have so far collectively 
resulted in only 124 injuries and 13 fatalities, but the danger lies 
more in the intent of the perpetrators than their results, as sooner or 
later some group or individual will overcome the technical hurdles 
associated with conducting an effective cyanide attack.
    In addition to consumer products periodically being contaminated 
with cyanide (the Tylenol and Chilean grape scares in the 1980s are 
well-known), cyanide has been extensively used by a variety of 
terrorist groups. The LTTE (Liberation Tigers of Tamil Eelam) have 
allegedly used cyanide on several occasions against Sri Lankan 
government troops and in 1999 Kashmiri separatists were found in 
possession of at least 3 kilograms of cyanide which was to be used to 
poison water tanks used by the Indian army. Right-wing groups have also 
shown a particular interest in cyanide. In both 1985 \25\ and 1998, 
\26\ domestic right-wing terrorist groups plotted to inflict large 
numbers of casualties by poisoning the water supplies of major American 
cities with cyanide; in 1993, the AWB, a South African right-wing 
group, planned a similar action in order to disrupt the country's first 
multi-racial election; and in 1988, a group calling itself the 
Confederate Hammerskins formulated a plan to pump cyanide gas into the 
ventilation system of a synagogue in Dallas, Texas. Aum Shinrikyo, the 
Japanese doomsday cult, tried on three occasions in 1995 to employ 
binary weapons that were designed to release hydrogen cyanide gas but 
failed either because they were detected in time or did not operate 
properly.\27\ The arrest in Chicago in early March of a man found to be 
storing significant amounts of potassium and sodium cyanide in subway 
tunnels highlights the ease with which even lone individuals can 
acquire this poison.
---------------------------------------------------------------------------
    \25\ The Covenant, the Sword, and The Arm of The Lord was found in 
possession of a drum of potassium cyanide, which was to be used to 
poison the water systems in New York, Chicago and Washington, believing 
that God would ensure that no Aryans would be killed.--Stern J. ``The 
Covenant, the Sword, and the Arm of the Lord'' in Tucker, J. (ed.) 
Toxic Terror: Assessing Terrorist Use of Chemical and Biological 
Weapons, MIT Press, Cambridge, MA. (2000), p. 151.
    \26\ During court proceedings in 1998, it was revealed that members 
of a white supremacist group calling itself ``The New Order'' proposed 
the use of a 50-gallon drum of cyanide to poison the water supplies of 
major cities. ``Supremacists had hit list, FBI agent says,'' The New 
York Times (7 March 1998): A14.
    \27\ Database cases 210, 213, 216.
---------------------------------------------------------------------------
    Even the United States' current terrorist nemesis, al-Qa'ida, has 
shown an interest in cyanide as a weapon. Ahmed Ressam, the terrorist 
convicted of plotting to bomb Los Angeles International Airport during 
the millennium celebrations, claimed that in 1998, while in an al-
Qa'ida camp in Afghanistan, he had been trained how to kill people with 
cyanide.\28\ Mr. Ressam stated that he was trained to poison 
individuals by smearing an oily mixture of cyanide and other toxic 
substances on door handles. His terrorist masters also taught him how 
to introduce cyanide gas into public ventilation systems in order to 
affect the maximum number of victims, while minimizing the risk to the 
perpetrator.\29\ The February 2002 arrest in Rome of nine Moroccans 
with potential links to al-Qa'ida for allegedly planning to poison the 
water supply of the US Embassy using potassium ferrocyanide shows that 
al-Qa'ida's interest in cyanide is hardly waning.\30\
---------------------------------------------------------------------------
    \28\ Steven Grey, Dipesh Gadher, and Joe Lauria, ``What bin Laden 
taught Ressam: From gruesome experiments with poison gas to the art of 
bombmaking,'' The Ottawa Citizen (7 October 2001): A1.
    \29\ Steven Edwards, ``Ressam Eyed Canadian Targets,'' National 
Post Online (6 July 2001); Intenet, available from [http://
www.nationalpostonline.com], accessed on 7/12/01; and Laura Mansnerus, 
``Testimony at Bombing Trial Outlines Recipe for Mayhem,'' New York 
Times (6 July 2001): B2.
    \30\ This form of cyanide is however only mildly toxic and would be 
difficult to turn into an effective weapon.
---------------------------------------------------------------------------
Assumption: States won't provide terrorists with CBW
    Compounding the threat to US national security is the possibility 
that states with CBW programs or related dual-use technologies could 
provide sub-national actors with these deadly tools. The issue of state 
sponsorship of terrorism has been a problem commonly associated with 
rogue states in the Middle East. States such as Iran, Iraq, Libya, 
Syria, and Sudan have been linked to numerous terror organizations, 
providing them with a wide variety of assistance, including financial 
support, weapons and other equipment and materials, and even 
specialized training bases. Even though there has been little evidence 
to indicate that any of these states have transferred CBW material, 
technology or know-how to such terrorist organizations, the possibility 
cannot be ruled out. The more states that proliferate and pursue 
chemical and biological weapons programs, the greater the possibility 
that sub-national actors will acquire them, either from direct 
assistance or through other covert means, including theft.
    Many of the same states identified as terrorist sponsors are also 
those accused of attempting to acquire CBW capabilities. Under certain 
circumstances the leaders of these countries may decide the only 
practical utility they can derive from their CBW arsenals is by 
deploying them covertly, using sub-national actors as means of 
delivery.
    Even if a state may not be willing to transfer CBW related 
technologies to a sub-national actor, one cannot discount the 
possibility of rogue elements within a government--such as an extremist 
clique within the Iranian intelligence apparatus--being prepared to 
take more risks than the Government as a whole. Within national CBW 
programs, disgruntled or underpaid scientists, or individuals 
sympathetic to terrorist causes may also be willing to illicitly 
transfer CBW related technologies and know-how to terrorist groups. in 
summary, the threat that a state actor may indirectly or directly 
transfer CBW related technologies, equipment and scientific know-how to 
a sub-national actor is a threat the US government cannot ignore.
Assumption: Terrorists won't use CBW except in extreme cases
    With the exception of the terrorist group Aum Shinrikyo, the long 
held assumption has been that sub-national groups and terrorists will 
not use CBW except as a last resort. Many state players perceive a 
threshold created by international norms that prevents them from openly 
using CBW. However, non-state players, especially terrorists, do not 
act under the same restraints as sovereign states. It is possible that 
these organizations do not perceive such a threshold. Moreover, their 
assessment of the costs and benefits of using CBW cannot be measured on 
the same scale as that of nations. Terrorist organizations and 
religious fanatical groups are not under the same political 
restrictions as sovereign states. In fact, if the motivation of an 
organization is to infuse terror, then use of CBW even on a small 
scale, might be seen as furthering their cause. Omar Bakri Mohammed, an 
Islamic cleric with ties to Islamic Jihad (and Hamas), advocated the 
use of biological weapons against ``western'' forces, saying ``if any 
Muslims are under occupation by a western force, they can use any 
weapon to survive and that includes biological weapons.'' \31\
---------------------------------------------------------------------------
    \31\ ``Refugee Calls for Biological Weapons Against the West,'' 
Metro (London), 6 September 1999.
---------------------------------------------------------------------------
    The disparity between Israeli and Palestinian forces may lead to 
the use of CBW in an effort to balance the scales. This thought was 
expressed in the Palestinian weekly Al-Manar:

          While the human-bombs [meaning, suicide bombers] may be 
        followed [and maybe stopped by] preventive measures . . . 
        serious thinking has begun for a while about developing a 
        Palestinian weapon of deterrence. This weapon terrifies the 
        Israeli security apparatuses, from time to time, mainly because 
        obtaining its primary components, whether biological or 
        chemical, is possible without too much effort, let alone the 
        fact that there are hundreds of experts who are capable of 
        handling them and use them as weapons of deterrence, thus 
        creating a balance of horror in the equation of the 
        Palestinian-Israeli conflict. A few bombs or death-carrying 
        devices will be enough, once they are deployed in secluded 
        areas and directed at the Israeli water resources or the 
        Israeli beaches, let alone the markets and the residential 
        centers. [This will be carried out] without explosions, noise, 
        blood, or pictures that are used to serve the Israeli 
        propaganda. Anyone who is capable, with complete self-control, 
        of turning his body into shrapnel and scattered organs, is also 
        capable of carrying a small device that cannot be traced and 
        throw it in the targeted location.\32\
---------------------------------------------------------------------------
    \32\ Taufiq Abu-Khosa, ``Will We Reach the Option of Biological 
Deterrence?'' Al-Manar. An
excerpted translation can be found on the Middle East Media Research 
Institute website at:
[http://www.memri.org/sd/SP25501.html].

    Thus, an asymmetric conflict, even where the imbalance is not so 
great, can be used as justification for turning to CBW. it would be 
folly not to recognize and respond to all the trends pointing to the 
CBW option as one increasingly attractive to terrorists.
Assumption: US must focus efforts on homeland security and defense
    While this assumption is not wrong, it may lead to neglecting other 
venues in which US interests or allies are at risk. A good case in 
point is US Central Command in the Middle East. It is very much at risk 
given its location in the heart of some of the most anti-American 
groups. It would be a mistake to pour so much into enhancing US 
domestic security when equal attention should be given to those 
Americans mobilized and deployed to protect us. In addition, planning 
for responding to CBW terrorism must consider providing assistance to 
allies. What if Italy is the site of a smallpox attack--we had better 
have planned some way to have adequate resources available to contain 
the consequences of such an attack. This means having vaccine available 
in some international organization or stockpile above and beyond what 
is needed for the US population.
                            recommendations
    We have to be prepared to respond to chem-bio events and to do 
everything we can to prevent them from ever occurring. But, that will 
require new ways of approaching old, evolving, and emerging perils.
    First, what is required is innovative thinking and a re-
conceptualization of threats in the 21st century. In past years, when 
terrorists were unlikely to have the capability to cause or even seek 
mass casualties, US foreign policy could focus on the more critical and 
traditional problem of state threats. Even in the aftermath of the 
collapse of the Soviet Union and subsequent re-making of the world 
order, it was clear who the enemies were (Iraq, North Korea), and these 
enemies were defined not only by their antagonism towards the United 
States and its values, but also by the fact that they were seeking 
weapons of mass destruction.
    Addressing even the ``old'' threats will require more than just 
military power. It requires a long-term dedication to a multi-
dimensional and multi-faceted approach that seeks to prevent WMD 
acquisition and use, strengthens anti-proliferation norms, develops 
adequate defenses here and elsewhere, and prepares for effective 
consequent mitigation and management in the advent of a WMD attack. 
Specifically, this means not only putting significant money into US 
military and intelligence capabilities, but also into international 
organizations and collaborations. It involves finding ways to bridge 
gaps within the US government as well as between states, communities, 
and even tribes. It also means forging new partnerships and helping to 
build trust and cooperation in areas where these have been scarce 
commodities.
    Second, the United States, while recognizing the ongoing threat 
from proliferant states, also faces a threat from a new type of 
terrorist. The US appears to be approaching the problem of mass-
casualty transnational terrorism, and the possibility of terrorist use 
of WMD, in a manner consistent with deeply entrenched Cold War 
assumptions about warfare and deterrence. The terrorists of today do 
not, by and large, behave like states, nor are they part of the 
international ``system.'' Addressing those terrorists who seek and 
obtain WMD will require much of the same effort that has been expended 
on states in the past, plus a strategy that addresses the root causes 
and nature of terrorism. Long-term approaches that go beyond the next 
election must be incorporated into the national counterterrorism 
strategy. These approaches include investing in states that are in 
danger of collapse in order to prevent the spiral into statelessness 
that creates a haven for terrorism; involving allies and partners in 
regional confidence-building measures that are designed to validate US 
policy to the publics of other nations rather than just the 
governments; and creating an international safety net to ensure that 
the rule of law and social infrastructures remain intact even through 
conflict.
    What are some of the more specific activities that might need to be 
pursued? The following six areas of effort emerge as critical if the 
United States is to be successful in its war on terrorism and WMD 
proliferation:

  <bullet> enhancing global WMD materials protection, control and 
        accounting;

  <bullet> supporting displaced WMD scientists and technical experts to 
        keep them employed doing constructive, socially beneficial 
        projects;

  <bullet> enhancing intelligence collection, analysis, coordination, 
        and cooperation;

  <bullet> strengthening the public health sector within the United 
        States and internationally;

  <bullet> renewing international commitment to effective 
        implementation of both the CWC and BWC; and

  <bullet> making meaningful investments to address underlying causes 
        of terrorism, such as poverty, illiteracy, and socio-economic 
        inequities.

Enhancing global WMD materials protection, control and accounting 
        (MPC&A)
    The United States must continue its support of improved MPC&A 
procedures in the FSU and expand these activities to include sensitive 
chem-bio materials and to be international in scope. Although the 
United States has supported numerous activities within the former 
Soviet Union to enhance nuclear weapons and nuclear materials 
protection, control and accounting since the end of the Cold War, these 
efforts have not really addressed similar problems with chem-bio 
materials either in the former Soviet Union or elsewhere in the world. 
Chemicals of concern are controlled to some degree under the CWC and 
the Australia Group which provide a normative and international 
framework for national and international regulation. However, nothing 
similar exists for dangerous biological materials and this gap deserves 
greater attention.
    The BWC does prohibit the transfer of toxins, agents, weapons, 
equipment, or means of delivery prohibited under the treaty to any 
other state, group of states, or international organization. However, 
this prohibition is limited in several ways: it does not address the 
concern we now face with terrorists, nor is there any implementing 
mechanism, nor does it directly address the problem of security and 
safety of materials while being transferred, stored, or used. 
Consequently, there is a missing link in our efforts to contain the 
threat from dangerous pathogens, one that must be dealt with on both 
the national and international levels.
    The anthrax incidents of this past fall and the ensuing 
investigation clearly indicates that the United States does not have 
good control over the collection of pathogens within US territory. When 
one looks beyond the United States, the situation is even more 
disconcerting. While the World Federation for Culture Collections is an 
association of 472 repositories of living microbial specimens in 61 
countries, it lacks any ability to require of its members tight 
controls on access to these materials, nor can it force compliance on 
the membership. Also, the WFCC has as members only a small portion 
(less than 1/3) of the 1500 germ banks worldwide. In evaluating the 
security and protection globally of these dangerous materials, it is 
quite apparent that without much trouble terrorists could easily steal 
or buy them illicitly. Thus, although the United States needs tighter 
regulations, such an effort will have little meaning unless there is a 
similar international initiative. The United States and its allies must 
make it a priority to fill this security gap by pursuing vigorously 
enhanced national regulations that control and secure deadly pathogens 
and toxins and by launching the negotiation of a new ``Biosecurity 
Convention.''
    Such a Convention would compliment the BWC by developing a set of 
specific, concrete regulations and activities that guarantee the 
control, accounting, safety, and security of dangerous pathogens and 
toxins. It would include, at a minimum, the following four components: 
(1) a legal commitment by the contracting parties; (2) agreed 
principles for developing progressively higher standards with respect 
to regulation and licensing of microbial culture collections; (3) 
mechanisms for oversight and their progressive refinement; and (4) 
compliance and enforcement measures. To initiate this process, the 
United States should work with Europe, Japan, and other like-minded 
states to develop the national legislation needed to prevent misuse and 
unauthorized access to dangerous biological agents and toxins. Using 
these efforts as models, the United States must lead the effort on an 
international level and with industry and academia to define 
international standards of safety and security in the biotechnology 
sector so that we have more control over where materials of concern 
are, who has access to them, how they are controlled, and how they are 
stored and transferred. By engaging the international community in the 
negotiation of a Biosecurity Convention, the United States will be 
pursuing an activity that will reduce the access to dangerous pathogens 
and thus reduce the threat of biological weapons proliferation and 
terrorism.
Supporting displaced WMD scientists and technical experts to keep them 
        employed and engaged in constructive projects and careers
    A critical aspect of any state or terrorist group effort to acquire 
and use CBW is having sufficient technical expertise to develop an 
effective weapon. As indicated earlier in this testimony, several 
states have had CBW programs that no longer exist and the personnel 
from these programs (perhaps numbering in the thousands) may be without 
jobs or at least without adequate wages. This workforce issue should 
not be seen as involving only the FSU, but must address similar 
concerns that exist for South African and Yugoslavian former bio-
weaponeers.
    While the United States through the Cooperative Threat Reduction 
program and a few other initiatives has tried to address these ``brain 
drain'' concerns in the FSU, the amount of effort directed towards 
former CBW personnel has been insufficient. A revitalized and focused 
commitment to working with Russia and the other relevant states of the 
FSU to provide adequate jobs, wages, and living conditions to these 
experts must be immediately pursued. In addition, collaborative 
discussions and programs should be pursued to address conditions in 
other countries. Finally, ethics courses should be developed and 
provided to those entering chemistry or biology fields to put their 
eventual work and careers into a broader societal framework. Without a 
much greater level of attention being given to workforce component of 
the threat, we will live in a continued state of fear that these 
experts may be lured into working for states or sub-national groups 
with malicious intentions or may find themselves disgruntled enough to 
act alone using their expertise for disastrous results.
Enhancing intelligence collection, analysis, coordination, and 
        cooperation
    The issue of improving the capacity and capabilities of the US 
intelligence community has been discussed in great detail in other 
contexts, but two points deserve mention. First, while there have been 
numerous studies, commission reports, and meetings concluding that the 
intelligence community needs to integrate much more effectively open 
source information, in reality this has not been done to the degree 
needed. In part this is because of a mind set which constrains analysts 
from seeing the value in non-classified information; in part it is 
because there are few analysts that have the language and area studies 
expertise to exploit adequately unique open source materials; and in 
part it is because there is already too much classified information for 
most analysts to try to wade through an additional stack of open source 
materials on a regular basis.
    The first recommendation is to develop incentives and 
organizational structures that encourage and facilitate the use of open 
source materials. The second suggestion is to hire more regional 
experts and actively encourage the acquisition of such language and 
area expertise with scholarships and funding for relevant educational 
programs. Finally, information technology is making great strides in 
being able to filter, bin, and even prioritize data, but the R&D 
efforts in this area need to be better coordinated and grounded in 
reality, i.e., analysts need to be integrated into these efforts at the 
beginning, middle, and end of the activities so that they are given 
tools that they are willing to use to become better analysts.
    The second point has to do with improved cooperation and 
coordination. Since September 11th, great strides appear to have been 
made in inter-agency information sharing and collaboration. But, more 
is necessary and more agencies have to be drawn into the circle. More 
importantly, international collaboration must continue to be enhanced 
and expanded as appropriate. Success in this area requires high-level 
attention and leadership to overcome institutional practices, mistrusts 
and rivalries.
Strengthening the public health sector within the United States and 
        internationally
    My two recommendations in this area reiterate what others in 
numerous meetings, hearings, and reports have indicated, namely that we 
need to strengthen our own public health sector and that we need to 
work with other international groups and foreign governments to do the 
same internationally. Last fall's events were unnerving enough to get 
much-needed political support and funding to strengthen domestic public 
health preparedness by improving disease surveillance and monitoring, 
communication networks, training, response capabilities, and laboratory 
facilities. In addition, the proposed draft legislation of Senators 
Biden and Helms called ``Global Disease Surveillance Act of 2002'' 
reflects the fact that given the speed of international travel, 
migration patterns, and commercial transportation networks, it will not 
be enough to shore up American public health capabilities and 
capacities. We must assist others to develop capabilities for disease 
monitoring, surveillance, and response or else leave ourselves 
vulnerable to being affected unnecessarily to dangerous diseases 
(whether intentional or not) that could be locally contained if 
detected in a timely way. Having gotten more support today, the 
challenge now is sustaining these efforts both in the United States and 
elsewhere. Since these activities have dual benefits--enhancing 
national and international security and public health, it is hoped that 
their value will be clearly evident and funding will become an integral 
and ongoing element of our national and public security systems.
Renewing international commitment to effective implementation of both 
        the CWC and BWC
    Over the last decade, the United States and the UN Security Council 
have claimed rhetorically that terrorism and the proliferation of 
weapons of mass destruction are the greatest threats to US and 
international security. Whether it is the inability of the UN Security 
Council to address effectively the problems of Iraq's unresolved WMD 
capabilities, or the unwillingness of Russia and China to make fully 
transparent their past CBW activities, states in general have not 
recognized their own need for compliance, nor the need to enforce 
compliance standards on others. The regime appears threatened by a 
degradation in effectiveness that may paradoxically lead to what it was 
developed to prevent--weapons proliferation, growing security threats, 
and an increased likelihood of violent, wrenching conflicts. We are at 
a critical juncture as far as it concerns proliferation-related 
security threats, a time in history when muddling and making political 
deals may no longer be sufficient, when difficult choices must be made 
and sacrifices endured to reach the next level of national as well as 
international security and stability.
    But looking at the record of the last five years does not bode well 
for the next ten years. The actions of too many states call into 
question the long term commitment to anti-terrorism and 
nonproliferation goals: the rhetoric appears hollow, the commitment to 
effective action inadequate to the task. It will require US leadership 
to move forcefully forward, leadership that involves working within the 
CWC and BWC contexts to ensure compliance, secure access to sensitive 
and dangerous materials, and to strengthen the international norms. It 
will require the United States and others to provide substantial new 
funding and support to these efforts, to focus on the international 
benefits rather than national demands involved, and to take a long term 
rather than short term approach to these problems. What can not happen 
is ``business as usual.'' While terrorism and proliferation may not be 
an issue in all parts of the world, it remains a substantial threat in 
several regions and is capable of acting as a catalyst to other states 
and subnational groups who might rethink their own decisions not to 
acquire or use weapons of mass destruction.
Making meaningful investments to address underlying causes of 
        terrorism, such as poverty, illiteracy, or socio-economic 
        inequities
    The United States must realize that problems such as failing 
states, decades of unresolved, bitter conflict, or poverty and socio-
economic inequalities provide the breeding ground for angry, alienated 
individuals and groups. With little to lose and perhaps much to gain in 
terms of spiritual or political legacies, these individuals develop 
values and moral frameworks that justify violence and possibly mass 
destruction. If we ignore their efforts to address their grievances, we 
risk always being the target, always being hated, and always failing to 
move our own community and the international community to greater 
stability and security. Simply put, this recommendation requires a long 
term commitment to making the world a better place for all, which does 
not mean that we should impose our way of life on others or accept 
theirs. It does mean that we remain an active, constructive player in 
multilateral affairs, that we try to improve the quality of life for 
everyone, that we help in whatever ways possible to resolve ongoing 
conflicts, and that in all of this we act generously and with humility. 
While it may not be possible to respect the success of the Marshall 
Plan in Europe, it may be worth the effort to try to find a new version 
appropriate for areas such as Afghanistan, Somalia, or even the Middle 
East.

    The Chairman.  Thank you, Doctor.
    Doctor Zelicoff.

    STATEMENT OF ALAN P. ZELICOFF, SENIOR SCIENTIST, SANDIA 
                     NATIONAL LABORATORIES

    Dr. Zelicoff.  Thank you, Mr. Chairman. It's a high honor 
to be asked to testify in front of you today. I've followed the 
committee's work for many years and I never really thought I'd 
have the opportunity to be sitting in this seat testifying in 
front of you and also in such esteemed company.
    At the same time, I know that I'm charged with profound 
responsibility to clearly address the role of foreign policy in 
strengthening our national security posture with regard to bio-
terrorism. My testimony will be based on my very best 
scientific assessment of the technologies currently available 
and unfortunately also on my admittedly limited understanding 
of the complexities of international relations.
    Nonetheless, I believe there are shared interests among 
countries, I call it an enlightened self interest, that make 
possible an immediate and substantive improvement in our 
counterterrorism strategy. Mr. Chairman, I develop technology 
that I believe assists the medical and public health community 
in identifying disease outbreaks natural or otherwise with more 
data utility than we currently have and in a much shorter time 
frame than exists in the existing surveillance system.
    We are in fact testing that technology in the United States 
and overseas. Interestingly I would note, that the 
contributions of our Russian colleagues has much to everyone's 
surprise been profoundly important in fostering and improving 
these novel approaches. My message today to the committee is a 
simple one.
    The Chairman.  Substantively, Doctor, you mean you're 
surprised that they have attempted to cooperate or that they 
have made such a contribution?
    Dr. Zelicoff.  Substantively, sir.
    The Chairman.  Scientifically?
    Dr. Zelicoff.  Indeed.
    The Chairman.  Thank you.
    Dr. Zelicoff.  My message to the committee is a simple one. 
We must rethink our approach to the unique challenges of bio-
terrorism. The standard tools of intelligence and of 
international diplomacy function very poorly in this arena. I'm 
no expert in gathering intelligence, but I am a daily consumer 
of it and the peculiar aspects of the bio-weapons craft, small 
sites and absence of signatures, ubiquitous availability of 
organisms make it awfully difficult for analysts to locate, 
predict or anticipate an attack except in the most general of 
terms.
    Similarly, traditional arms control which includes 
declarations, inspections, counting and compliance judgments 
fall flat in adding any substantive strengthening of treaties 
such as the Biological Weapons Convention. Quite to the 
contrary in fact, U.S. tests of proposed verification measures 
under the recently failed protocol for the BWC demonstrated 
rather clearly that most measures were not merely worthless, 
but actually worse than worthless. They provide data of such 
ambiguity as to confuse rather than enlighten and undermine 
rather than strengthen the confidence and compliance with the 
convention.
    I think that UNSCOM activities further underscored the 
severe limits of intrusive on-site inspections in uncovering 
even an enormous bio-weapons program in Iraq. Thus the 
Administration was correct in my view to reject the BWC 
monitoring protocol that was but a rehash of highly fallible 
verification techniques.
    But fortunately the news is not all bad here. I believe 
that we can address many perhaps most of our counterterrorism 
needs through shared interests in the international community 
in disease monitoring, bio-security arrangements, as has 
recently been mentioned and assistance, and at least among our 
allies, collective preparedness against bio-terrorism.
    The central and most substantive facet is an enhanced 
disease surveillance system accomplished through an 
inexpensive, international, secure Internet-based system that's 
located in primary care physicians' offices and clinics and 
some hospital emergency wards and an analogous system in the 
veterinary community.
    In almost any scenario involving the use of a bio-weapon, 
we have the ability to prevent illness and death in all but a 
small fraction of those infected if and only if we have early 
warning that epidemic is brewing. Hours matter here. Were there 
to be let us say dissemination of a few pounds of anthrax from 
an aerosol device in downtown Washington, tens of thousands of 
people would become expose to anthrax spores. Most would become 
ill and most of those would die unless we learned early on of 
the increase in systems distributed in an oddly shaped area.
    So how might this realization come to pass? Well, think 
about the scenario that I just outlined. A terrorist drives a 
van down Pennsylvania Avenue at about 8:00 on a Monday morning 
dispersing an unnoticeable stream of anthrax spores out the 
tailpipe. Initially nothing happens. People go about their 
daily activities despite having thousands of anthrax spores in 
their respiratory systems. By Wednesday morning or early 
afternoon, due to differences in the dose they received and 
also the normal biologic variability in the population, a few 
percent of those exposed, and by the way a few animals as well, 
will start to get ill with a cough, a fever and lethargy.
    What is the likelihood that any of these 100 or 200 people 
end up seeing the same physician? Well, it's about zero. So 100 
or 200 doctors see what appears to be a bad case of flu, shrug 
their shoulders and draw no systematic lesson.
    But let's say that a few of those doctors have at their 
fingertips an always available easy to use reporting system 
that demands little of their time and more to the point, 
doesn't even demand a specific diagnosis. Instead, the system 
allows physicians to enter some symptoms as I'll illustrate 
here.
    At the same time as the physicians enter these symptoms, a 
map will display the existence of the onset of a disease in the 
local area. Here's an illustration for example, in New Mexico 
of what this system actually looks like, but I'll use 
Washington and we'll just zoom in on it to illustrate what I'm 
talking about. What I'm showing is a zoomable map of the 
Washington, D.C. area on which physicians and public health 
authorities can overlay transportation infrastructure, weather, 
local vegetation coverage, airports, even per capita income to 
see if the diseases that are being seen are associated with 
movement of people, might be socioeconomically related.
    The Chairman.  How do the diseases get hooked into that?
    Dr. Zelicoff.  On this screen that you see here, the 
physician merely logs in on a touch screen. I'm not sure why 
your screen's not updating and then within about 30 seconds, 
can literally enter all of the data that is required. So we're 
looking at only about a minute of the physician's time.
    The public health officials who are also watching this 
system while not seeing any patients, notice on the map that 
there's a sudden increase in in this case a flu-like illness in 
the Capital area. So they call some of the doctors and perhaps 
learn that some of the chest x-rays on a few of these patients 
demonstrated a peculiar finding that's not really well-
recognized by physicians, but is well known to the public 
health officials as being strongly associated with anthrax.
    An investigation would then immediately ensue rather than 
five days later when the first deaths would occur and targeted 
antibiotic therapy could be given. A specific diagnosis would 
be available in 18 hours rather than five or six days later. 
But today and let me make this very clear, it's unlikely that 
local public health officials who are the true experts in 
infectious disease in their community would know much of 
anything about severe symptoms in the population until the 
hospitals were overwhelmed with cases or autopsies revealed the 
diagnosis in droves.
    It would be too late at that point to save the vast 
majority of people. The reason for all of this is that our 
current disease reporting system is stuck in the 19th century. 
It's paper-based, it's disease specific and it's so time 
consuming as to frustrate even the most well-intentioned of 
physicians who serve as the true sensors for illness in the 
community.
    I observe this in my practice. Not once in 10 years of 
practice did I never see a physician report a disease that they 
were even legally mandated to report by local, state 
authorities. But there is another way.
    In my 10 years of medical practice, not once and I mean 
never did I see any physician ever pick up the phone, file the 
fax, fill out the form that is required to report a reportable 
disease. Now occasionally it does happen, but it is merely a 
matter of chance and the vast majority of reporting the public 
health officials have comes not from doctors who are seeing the 
patients first, but from laboratories.
    That would of course assume that a sample was obtained, not 
a very good assumption in the current economic environment, the 
sample was handled correctly and that the result was available 
in a timely fashion.
    The Chairman.  Thank you.
    Dr. Zelicoff.  All of those would be very, very bad 
assumptions on which to base a disease-based surveillance 
system. In New Mexico and in collaboration with the New Mexico 
Department of Health, we developed this system that I'm 
illustrating here which has been in use by 50 physicians for 
about six months. It's called the Rapid Syndrome Validation 
Project or RSVP for short.
    What we've learned is that physicians actually do take the 
time, about a minute, out of their busy schedules to consult 
the system on a daily basis to see what's going on. In other 
words, to get the epidemiologic or public health lay of the 
land, and further, that they actually report because they know 
that they will get an advisory message from the local public 
health authorities who are watching the data on a near real 
time basis.
    The cost is very inexpensive. It's the cost of the 
computer, a touch screen and a low speed Internet connection. 
All of which are ubiquitously available, including in most of 
the developing world.
    The physicians indeed are delighted to have the 
information. They return the favor by entering suspiciously ill 
patients and are very, very good at sensing when something is 
amiss. While the doctor is not necessarily good at making the 
exact diagnosis of what is wrong when he first sees somebody, 
she's very, very good at knowing whether or not someone is ill.
    I think we've been successful in this approach as the 
government of Singapore, at least one NATO country and several 
other public health, state public health authorities around the 
country have asked for RSVP to be implemented and we are in the 
process of implementing it in those places now.
    Mr. Chairman, when all is said and done would be 
perpetrators of bio-terror know that the effects of their 
attacks would be blunted if not eliminated, they might well 
rethink their strategy of using bio-weapons in the first place.
    A multinational cadre of clinicians and nurses exchanging 
up to the minute information, not delayed by laboratory tests, 
not delayed by the current existing bureaucracy of reporting is 
our single best defense and we have the resources now to so 
equip them both nationally and internationally. All that is 
required is a policy shift emphasizing and strengthening this 
linchpin capability.
    So I'm looking forward to your insightful questions. I 
expect that I'll learn much more from you than I've imparted 
and I apologize for the technical glitch. Thank you.
    [The prepared statement of Dr. Zelicoff follows:]

                 Prepared Statement of Alan P. Zelicoff

    Mr. Chairman and Members of the committee:
    It is a high honor to be asked to testify in front of the Senate 
Foreign Relations Committee. I have followed committee's work for many 
years, and never thought I'd have the privilege of sitting before you 
and in such esteemed company. At the same time, I know that I am 
charged with a profound responsibility: to clearly address the role of 
foreign policy in strengthening our national security posture with 
regard to bio-terrorism. My testimony is based on my very best 
scientific assessment of the technologies currently available, and my 
admittedly limited understanding of the complexities of international 
relations. Nonetheless, I believe that there are shared interests among 
countries--call it enlightened self-interest--that make possible an 
immediate substantive improvement in our counter-terrorism strategy.
    Mr. Chairman, my formal scientific training is in experimental 
physics and medicine. I was a practicing internist and immunologist for 
about 10 years before joining the technical staff at Sandia National 
Laboratories in the Center for National Security and Arms Control where 
I am now senior scientist. I work at the interface between politics and 
technology. I served as technical adviser on the U.S. Delegation to the 
Biological Weapons Convention (BWC) throughout the 1990s, including the 
time of the intensive negotiations on a Protocol to strengthen 
compliance with the treaty. I carry out large scale collaborative 
research projects in disease outbreak identification with colleagues 
throughout the Russian biological weapons laboratory system in an 
effort to better understand that mysterious archipelago of research 
sites, some or even most of which undoubtedly involved in illegal 
weapons development throughout the much of the past 30 years. I also 
develop technology that I believe assists the medical and public health 
community in identifying disease outbreaks--natural or otherwise--with 
more day to day utility and in a much shorter time frame than the 
existing surveillance system. We are testing that technology in the 
United States and overseas. Interestingly, the contributions of our 
Russian colleagues has, much to everyone's surprise, been profoundly 
important in fostering and improving these novel approaches.
    My message to the committee is a simple one: we must rethink our 
approach to the unique challenges of bio-terrorism. The standard tools 
intelligence and of international diplomacy function poorly in this 
arena. I am no expert on gathering intelligence, but I am a daily 
consumer of it, and I believe that peculiar aspects of the bio-weapons 
craft--small sites, an absence of signatures, ubiquitous availability 
of organisms--make it awfully difficult for analysts to locate, predict 
or anticipate an attack except in the most general of terms; the 
``take'' of intelligence is, regrettably, disappointing. Similarly, 
traditional arms control--declarations, inspection, counting, and 
compliance judgments--fall flat in adding any substantive strengthening 
of treaties such as the BWC; quite the contrary in fact, as US tests of 
proposed verification measures under the recently failed Protocol for 
the BWC demonstrated rather clearly that most measures were not merely 
worthless, but actually worse than worthless. They provide data of such 
ambiguity as to confuse rather than enlighten, and undermine rather 
than strengthen confidence in compliance with the Convention. UNSCOM 
activities further underscored the severe limits of intrusive on-site 
inspections in uncovering even an enormous bioweapons program in Iraq. 
Thus, the Administration was correct, in my view to reject the BWC 
monitoring Protocol that was but a rehash of highly fallible 
verification techniques.
    Fortunately, the news here is not all bad. We can address many, 
perhaps most of our counter-bioterrorism needs through shared interests 
in the international community in disease-monitoring, biosecurity 
arrangements and assistance, and at least among our allies, collective 
preparedness against bio-terrorism. The central and most substantive 
facet is enhanced disease surveillance, accomplished through an 
inexpensive, international, secure, Internet-based, system located in 
primary care clinics and some hospital emergency wards, and an 
analogous system in the veterinary community.
    In almost any scenario involving the use of a bio-weapon, we have 
the ability to prevent illness and death in all but a small fraction of 
those infected, if--and only if--we have early warning that an epidemic 
is brewing. Hours matter. Were there to be, let us say, a dissemination 
of a few pounds of anthrax from an aerosol device in downtown 
Washington, tens of thousands of people would be exposed to anthrax 
spores. Most would become ill, and of those most would die unless we 
learned early on of an increase in symptoms distributed in an oddly 
shaped area.
    How might this early realization come to pass? Think about the 
scenario that I just outlined: a terrorist drives a van down 
Pennsylvania Avenue at about 8 AM on a Monday morning, dispersing an 
unnoticeable stream of anthrax spores out the tailpipe. Initially, 
nothing happens. People go about their daily activities despite having 
thousands of anthrax spores in their respiratory systems. By Wednesday 
morning or early afternoon--due to differences in dose and biologic 
variability in the population--a few percent of those exposed (and, by 
the way, a few animals) start to get ill with a cough, fever, and 
lethargy. What is the likelihood that any of the one or two hundred 
people end up visiting the same doctor? It's about zero. So, one or two 
hundred doctors see a single patient with what appears to be a bad case 
of flu, shrug their shoulders and draw no systematic lesson.
    But let's say a few of those doctors have, at their fingertips, an 
always-available, easy to use reporting system that demands little of 
their time and--more to the point--doesn't demand a specific diagnosis. 
Instead the system allows the physician to report the symptoms of a 
moderately to severely ill patient, and, at the same time, shows the 
doctor and local public health authorities in the District all cases of 
flu-like illness in the area, presented immediately and conveniently 
enough on a map. The doctor notices that a few dozen physicians have 
reported the same thing in just the past few hours. Public health 
officials who, while not seeing patients are seeing the map on their 
screens, and to them, the sudden spike in flu-like cases in Zip Code 
20501 is unusual. They call some of the doctors, and perhaps learn that 
the chest X-rays on a couple of the patients demonstrated a finding 
whose significance was missed by the physicians who have never seen it 
before, but well known to the public health officials, indicating that 
these cases might well be anthrax. An investigation immediately ensues, 
and the diagnosis is confirmed less than 18 hours later. The geographic 
pattern of illness proves important, and via the media, everyone in the 
area or a few miles downwind learns of the potential for exposure. 
Targeted antibiotic therapy is given. A few hundred people die, but had 
public health officials not suspected anthrax until a few days later, 
many, many thousands would be dead.
    Today, it is unlikely that local public health officials--the true 
experts in infectious disease in their communities by dint of years of 
experience and observation--would know much of anything about any 
severe symptoms in the population until hospitals were overwhelmed with 
cases or autopsies revealed the diagnosis in droves. By then, it would 
be too late to save the vast majority of people succumbing to anthrax. 
Our current disease reporting system is stuck in the 19th century--
paper based, disease specific, and so time-consuming as to frustrate 
even the most well intentioned physicians who serve as the ``sensors'' 
for illness in the community. I observed this in my clinical practice: 
never--not once--did I ever see a colleague report even diseases that 
they are legally mandated report, let alone a ``suspicious'' or odd 
case. But there is another way: in New Mexico, and in dose 
collaboration with the NM Department of Health, Sandia has developed 
and implemented a stable, physician-friendly surveillance system called 
RSVP--the Rapid Syndrome Validation Project. We've had about 50 doctors 
using the system over the past 6 months. Physicians actually take the 
time out of their busy schedules to consult the system to ``see what is 
going on'' in their communities; public health officials review the 
data and update advisory messages on a near-real-time basis. The cost 
is that of a computer, a touch screen, and a low-speed Internet 
connection--maybe $5-6,000 per clinic serving 5 to 15 doctors. The 
physicians are delighted to have the information, and return the favor 
by entering suspiciously ill patients--and they're very good at sensing 
when something is amiss. And public health officials can quickly 
analyze the information with geographic tools that are part of the 
software.
    Have we been successful? Practitioners and local health officials 
seem to think so. We've had requests from dozens of public health 
jurisdictions around the US to participate in and use RSVP; about two 
hundred more physicians are about to come onto the system. The 
Government of Singapore is installing RSVP throughout that island-
nation, and other governments have requested the software as well. In 
the end, the system works because it is in the enlightened self-
interest of doctors and epidemiologists to have it; sharing the data 
makes it that much more valuable as diseases respect no borders. And, 
this is a ``no regrets'' approach: even if there is never a 
bioterrorism attack, the public health benefits will probably be quite 
large--diagnosis and therapy will be much more accurate than in the 
current clinical setting, even in the United States where sheer guess 
work dominates the early treatment of most infectious disease.
    Mr. Chairman, the traditional approaches to counter-proliferation 
of bioweapons--more intelligence spending and arms control treaties--
are largely ineffective in this context. It is simply impossible to 
detect and thwart all individuals or groups that are determined to use 
an infectious organism or a toxin as a biological weapon of terror. 
With the anthrax attacks of last year in the Hart building and 
elsewhere, we now know that at least some terrorists have learned how 
to prepare anthrax spores in a form that will disseminate easily 
through the air. Please know this: the challenge to the terrorist never 
has never been the ability to acquire anthrax spores in varieties that 
are reproducibly lethal. Rather, the fundamental roadblock to the 
effective use of bio-weapons was the ability to aerosolize it--that is, 
to make anthrax particle behave like the air itself--infinitely 
miscible, invisible and odorless. That this technology, formerly 
understood by a rare breed of bio-weaponeer that could be found only in 
the national biological weapons programs, is now in the hands of 
terrorists is chilling. At the very least it means that future 
biological weapons attacks are not only probable, but that they are 
likely to be on a large scale. And, since it is extremely difficult to 
locate seed stocks, fermenters, and drying equipment necessary to make 
aerosolize-able anthrax--or, for that matter, infectious, aerosolize-
able organisms of many types--we will have to rely on early detection 
of cases, in hun-tans and in animals, in order to mitigate the worst 
consequences of a large-scale use of these kinds of bio-weapons. We 
ignore these conclusions at our peril.
    When all is said and done, should would-be perpetrators of bio-
terror know that the effects of their attacks would be blunted if not 
eliminated, they might well rethink their strategy in the first place. 
A multi-national cadre of clinicians and nurses, exchanging up-to-the-
minute information is our single best defense, and we have the 
resource--now--to so equip them. All that is required is a policy shift 
emphasizing and strengthening this lynchpin capability.
    I am looking forward to the insightful questions of the committee. 
I expect that I will learn from you much more than I impart.
    Thank you Mr. Chairman.

    The Chairman.  I doubt that, Doctor. Not the technical 
glitch, that you'll learn much more at least from me, but what 
I'm going to do because there's only three of us here and my 
colleagues--one advantage of being the Chairman is the hearing 
doesn't start until you get there, but it also doesn't end 
until you bang the gavel down which means I'm here until the 
end. So I'd be delighted to yield to my colleagues first.
    Senator Lugar.  Well, I thank you very much, Mr. Chairman 
for your thoughtfulness. Dr. Zelicoff, your presentation is 
certainly helpful and gives an optimistic sense of, as you say, 
how to brunt bio-terrorism, given gifted physicians and alert 
public health professionals.
    I just want to underline, without getting into an over-
examination of the whole situation, what we've lived through in 
the wake of the anthrax attack upon Senator Daschle's office 
and the Senate. The threat was real and the spores present were 
a problem because people didn't know very much about it.
    Dr. Frist fortunately knew a great deal and this was of 
some comfort to receive some briefings on what was known and 
what was not known. But what happened fairly quickly, just 
following your analysis, was everybody went to room S. 216, had 
a swab test, got three days of Cipro tablets while decisions 
were made on what to do next.
    Senate officials stopped the ventilation system quickly, 
emptied the buildings, sealed off in a time warp all our 
records, checkbooks, everything else here; and as a result, 
probably a lot of lives were saved. Because people knew it was 
anthrax, they were able to begin treating people who needed 
treatment. That didn't happen at the Brentwood post office in 
quite the same fashion; and therefore, as you pointed out, time 
counts in these situations.
    But for the first very public attack, the system responded, 
because of the ingenuity of people. It was extremely costly; 
and the taxpayers will be picking up the tab for some time, 
while trying to figure out all of what happened here.
    But in terms of loss of life, identification and accurate 
diagnosis is imperative if somehow, somewhere in the system 
somebody picks up a possible threat. Immediate treatment of 
almost everybody in sight must occur; if so, there's a 
reasonably good chance of blunting the attack.
    This committee, and others, have held hearings exploring 
the means of dissemination, such as helicopters, trucks, and 
crop dusters. I agree that identification and response are 
terribly important, and I'm hopeful this hearing will 
illuminate these issues for a lot of people.
    Dr. Zelicoff.  Two comments if I may, Senator. First, you 
had a particular advantage in the case of the anthrax letter in 
Senator Daschle's office in that someone recognized there was 
powder. Make no mistake, in a large scale bio-terrorism 
dispersal, you will not have a powder to look at, raise a 
suspicion, do early swabs and determine who needs to be treated 
and who doesn't.
    Second, even with that advantage, I would hardly call what 
happened in Washington, D.C. a dramatic success. As a result of 
a few people being exposed, five people dead, there were 
several tens of thousands of people put on Ciprofloxacin for at 
least a period of time. Not exactly our shining hour.
    Dr. Ivan Wak, who I believe is the D.C. Public Health 
Commissioner, at the time of the initial reports asked a 
question that I think is truly enlightening here. He came out 
and he specifically asked, tell me, who is it that I do not 
need to worry about? And no one could give him an answer. Why? 
Because we had no context, no surveillance system, for example, 
to know who likely was not exposed.
    In the case of a large scale attack where people start to 
become ill, without this kind of geographic information which 
is currently not available either to public health officials or 
to clinicians, that would mean millions of people put on 
antibiotics. Not only a logistical nightmare, but one that will 
almost certainly result in untoward side effects that are very 
unpleasant.
    Senator Lugar.  Good point. Mr. Moodie, let me just 
express, first of all, a personal thanks to you for working 
with House colleagues on the Nunn-Lugar chemical weapons 
elimination project at Shchuchye. I want the public to know 
that through your own quiet diplomacy and credibility you have 
been most helpful with congressional movement in these 
important areas.
    You have raised a question, all of you have in one form or 
another, of what an awesome job is still to be done with 
cooperative Russians. As the Chairman has pointed out, this 
situation is different than noncooperative Iraqis, but 
nevertheless there is still much work to do to eliminate this 
nightmare.
    The detritus of the Cold War is a real threat, and it's 
very expensive to clean up. We discuss the awesome power of 
these weapons and we know that they're there and the question 
is just physically is how to pay for it, how to organize the 
disposal. What would be your advice to the Administration?
    At best we're attacking the first of seven locations, the 
other six are sitting there and hopefully will just sit there 
for quite a while without deterioration or proliferation. What 
is a reasonable international program and a dramatic way to 
sort of get a handle on this while the world is interested in 
bio-terrorism?
    Mr. Moodie.  Thank you very much, Senator, and thank you 
for your comments. I do think the funding of the Shchuchye 
facility is an extremely important step forward. It gets 
activity going on the ground which we've talked about for a 
decade or more and never saw happen and now finally, we're at 
the point where some of the Russian stuff is actually going to 
be destroyed. And that's enormously important and a positive 
step.
    I see a two pronged approach. One is encouraging the 
Russians to do more themselves. This is their problem first and 
foremost and yes, they have committed a significant increase in 
money, but when you put it against the need, the $120 million a 
year against the 6 or 8 or $10 billion program isn't a lot. And 
I do think, despite the economic problems they have, there is 
more money in the Russian system for this if they want to put 
it against this rather than some other things and so I think 
that we should engage with them on that. And by we, I mean in 
this case the entire international community.
    The second track I think is one--we have not pushed this 
issue as a priority for the last several years in both 
administrations it seems to me. And as a consequence, we 
haven't pushed our friends and allies to do as much.
    I know in the earlier discussion there was comments about 
some of things that European allies are doing, the British, the 
Germans, the Norwegians, but that really isn't a lot of money. 
The European Union together 15 countries I think has committed 
less than 20 million euros to this issue. That really isn't 
adequate. Everybody has an interest in seeing the CW stockpile 
of the Russians disappear.
    It's closer to the Europeans than it is to us. It's closer 
to Japan than it is to us. And I think what we need to do is 
make a much more sustained concerted effort with our friends 
and allies to join us. It probably will mean more money for us, 
too, but I think if we show that we're willing to put more 
money into it and we have a cooperative Russian government, 
they should then be pushed. And I think the place to do this is 
at the review conference that is scheduled for next year.
    I think one objective we should have for that review 
conference is a strategy that everybody agrees to about how to 
get the Russians from where they are to where they have to be. 
This is the single biggest noncompliance issue in the CWC. Not 
because they're evil people in this case. It's just a huge 
task.
    But they're never going to get to the 2012 deadline and 
that not only has negative implications for the issue itself, 
but it has severely negative implications for the health of the 
treaty, too. For both of those reasons, we've got to work with 
friends and allies to get them to kick in more money.
    Senator Lugar.  I think that's a tremendously important 
suggestion that the conference offers a focal point. For 
example, in the discussion of the future of NATO, we're all 
focusing on Prague and the membership question, the Russian 
relationship, the war against terrorism, but there's a run up 
now in this committee with the Administration. We're all 
talking an agenda that is critically important to achieve.
    I haven't heard of anybody working on an agenda for this 
conference. As you pointed out, the conference provides an 
opportunity for an international wake up call. All the major 
parties are going to be there.
    It's sort of like a giant pledging conference in an 
international sense in which we all come to the table to see 
what is attainable. We need to capitalize on cooperation and 
expand on addressing these threats. Furthermore, Russia must 
work with us to address noncooperation in other nations.
    There is every reason to want to have an active diplomatic 
run up to this conference. I appreciate that suggestion. It's 
one we should follow-up on. Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Frist.  Thank you, Mr. Chairman. Dr. Zelicoff, you 
said that every moment counts. Why now do you believe that our 
public health system and physicians are adequately trained 
today to respond in such a way that is adequate?
    Dr. Zelicoff.  By and large my answer is yes. Physicians 
are very good at recognizing when people are ill, they may not 
be able to make the correct diagnosis and unlike most 
physicians, the vast majority of public health officials around 
the country have actually devoted time to understanding the 
peculiarities of biological weapons diseases and I think know 
the earliest indicators of them.
    Senator Frist.  And you think--I'm going to ask a whole 
bunch of questions now.
    Dr. Zelicoff.  Sure.
    Senator Frist.  Do you think we're going to have a manpower 
or personpower shortage in terms of trained epidemiologists and 
people who are experts once you have the technology out there?
    Dr. Zelicoff.  Right. I know it's popular to say that we 
don't have adequate manpower in epidemiology and I would be the 
last person to question that. What I do think, though, is that 
in a world of limited resources, when we're faced with a choice 
between hiring more epidemiologists who have no data at their 
fingertips versus providing the existing epidemiologists with 
real time information on which to make decisions, I think the 
choice is obvious. You go with the latter.
    And make no mistake about it, right now epidemiologists 
learn about disease outbreaks usually as a result of an 
infection control nurse working in a hospital once enough cases 
have accumulated or from a laboratory. That is inherently 
delayed. The system is currently set up almost precisely to be 
unresponsive enough in the setting of a bio-terrorism attack.
    Senator Frist.  If you took all of the public health 
facilities in the Unites States of America, how many would have 
the capability to fax, use a fax machine?
    Dr. Zelicoff.  It's a lot less than we might want to think. 
It's probably about 50 or 60 percent are capable of faxing.
    Senator Frist.  Just fax machines?
    Dr. Zelicoff.  Yeah, just fax machines.
    Senator Frist.  Let's take it one step further. In terms of 
the public health facilities, the first responders, the people 
we will go to depend upon, obviously you're hitting at the 
heart of it with your communication, how many have e-mail 
capability of all the--and that's where we're going to go. 
That's who we're going to call for early recognition. How many 
even have e-mail?
    Dr. Zelicoff.  I don't know the numbers. What I do know----
    Senator Frist.  It's low.
    Dr. Zelicoff  [continuing].----what I do know is that in 
order to provide that kind of capability that provides enough 
data flow for a system like this one for example, is a low 
speed Internet connection. We're talking about 50 bucks a month 
and a computer.
    Senator Frist.  But it's not there and I haven't gotten 
there yet.
    Dr. Zelicoff.  They do have phone lines, though. Let's be 
clear about that.
    Senator Frist.  Most of them do have phone lines and 
capabilities there. The point of the matter is that it is a 
pencil and paper system and when every moment counts, it's 
inexcusable today when you've got technology like you have that 
we don't use blast fax machines which have been around a while, 
we don't use the Internet, not using the e-mail, don't use 
Internet, that infrastructure is not there.
    I think you made the case and I agree 100 percent this is 
where we need to be, but it's important for my colleagues to 
know that the basic support, and it goes back to what Dr. Sands 
said in one of her recommendations, the basic support for our 
public health infrastructure we have been remiss.
    We have undersupported so even when you introduce your 
program to a community, they do have the telephone line coming 
in, but they're not on the Internet and they need to be. And 
what is hard, I believe, is for us to explain, and we all need 
to do a better job to communities around the country, that the 
first responders, the people we're depending upon if every 
moment counts, to look at that pattern, to communicate from the 
public health facility to the hospital to the CDC, it's just 
not there.
    It is going to require an increased investment to make your 
sort of program available. Right now is this in community 
health centers all across the state?
    Dr. Zelicoff.  It's in community health centers in southern 
Texas and in southern New Mexico. Let me tell you why we picked 
those community health centers. We tried to pick areas of our 
part of the country that were most severely underfunded, most 
severely taxed both in terms of their clinical physicians who 
are seeing patients and also the public health authorities in 
those areas and we were able to set this up painlessly even in 
the poorest part of southern New Mexico and south central Texas 
along the Mexican border.
    So I think the message here is that while I quite agree 
with you that more resources are needed, let's not make a 
mountain out of a mole hill. The amount of money that's 
necessary to accomplish this kind of connectivity which is an 
80 percent solution, it's not a 100 percent solution, is 
trivial. The amount of money that will be required to get the 
last 10 or 20 percent is of course enormous.
    Senator Frist.  But what my colleagues need to understand, 
the touch screen and the computers available are not in the 
public health centers today.
    Dr. Zelicoff.  Correct.
    Senator Frist.  And I'm reinforcing what you're saying, but 
my colleagues don't realize that when smallpox comes to a 
community or anthrax is in the community here----
    Dr. Zelicoff.  Yes.
    Senator Frist [continuing].----if you're a physician, you 
haven't been trained to think anthrax, period. That pattern 
recognition you need to report to somebody so the pattern can 
be picked up and it becomes even more important--you said 
anthrax easy. That's easy stuff. We knew the powder was here. 
You could draw a perimeter around it. You could treat 
everybody, but what about smallpox which can travel across the 
country and as a physician if you've never--you're board 
certified in internal medicine I see from you bio. Have you 
seen active smallpox?
    Dr. Zelicoff.  No, I haven't even seen a case of measles 
and I don't think I'd be able to make that diagnosis----
    Senator Frist.  No, you wouldn't, but a lot of children get 
chicken pox----
    Dr. Zelicoff.  Right.
    Senator Frist  [continuing].----and if smallpox is in your 
community, the doctors are going to see it and they've not been 
trained----
    Dr. Zelicoff.  Correct.
    Senator Frist  [continuing].----to make that diagnosis. 
Well, if you miss it and every moment does count, right now how 
infective is smallpox right now? If I had smallpox sitting 
around me right now to the left and right, people would be 
infected after about an hour if I had lesions in my mouth. You 
won't really understand how infective, communicable it actually 
is.
    I just think you presentation and then Dr. Sands, in your 
testimony, you mention Italy in your written testimony. What if 
Italy is a site of a small pox attack? We better be planned in 
some way. Smallpox's germs know no boundaries. They don't care 
if it's United States, Tennessee, California, New Mexico. 
Smallpox travels and it travels on an airplane pretty easily 
and it doesn't have to be at state.
    That's why when I ask who has this smallpox--smallpox has 
killed 500 million people. We've eradicated the disease, but 
there are a bunch of people running around with the virus in 
their pocket somewhere and from an intelligence standpoint, we 
need to figure that out which comes into this whole panel in 
terms of why we're discussing it.
    But going from the front line, we're not trained to 
recognize smallpox, we don't have the communication to address 
the smallpox today, so we have a long, long, long way to go.
    Dr. Zelicoff.  Right, and let's also add with regard to 
smallpox and I quite agree with you, it's a highly significant 
problem that's overlooked because it almost falls into the too 
hard to do category, that once we have our vaccine supply of 
300 million doses, that will not be adequate to solve the 
problem or address it.
    Increasing work in genetic alteration of the organism may 
in fact result in a vaccine resistant strain. We have to have 
at least one other tool in our toolbox. There is a small 
program being run at the CDC with folks from US AMRID to look 
for antibiotics. They have succeeded in probably coming up with 
an animal model.
    That's an enormous breakthrough because for the first time, 
we can now test other nontraditional means of treating the 
disease not only if there's a vaccine resistant strain, but 
more to the point for the 15 or 20 percent of the population 
that cannot tolerate the existing vaccine for smallpox because 
of other conditions.
    Senator Frist.  Good. Very well said. Mr. Chairman, I know 
the time is late.
    The Chairman.  No, take your time.
    Senator Frist. I think the real challenge that we need to 
face and it's so important for this committee to hear this 
because for the last four years, I've been sort of sitting and 
listening and our intelligence which we heard from an earlier 
panel a little bit today, has identified smallpox, anthrax, 
botulinum toxin, plague, tularemia and the list are there and 
they're identified, but some way or another our intelligence 
community isn't filtering down to what you just heard.
    Our vulnerabilities are high, they're huge. We can reduce 
them by responding, but our intelligence community's already 
identified these, but we're not communicating to the doctors, 
to the public health communities, to the epidemiologists, to 
the Appropriations Committee and now we find ourselves with 
risk. Everybody said the risk is there, it's reality.
    Go back to 1995 sarin gas attack, we go back to anthrax 
right here where we are in New York City where it took six 
days, the little skin lesion of anthrax took six days to 
diagnose with the very best doctors, the very best CDC in the 
world looking at it, it took six days to diagnose it. That's 
not right today.
    The risk we've heard today is there. The risk is 
increasing. I think that's very important for us to know. 
Because of technology, because of all the reasons Dr. Sands 
outlined in her really great paper that she didn't have a 
chance to go all the way through today and your annotation in 
the paper, the risk is increasing today.
    Dr. Zelicoff, you said it in your opening statement, the 
vulnerabilities are high, but by reducing the vulnerabilities, 
we end up reducing the risk. The terrorist wants to terrorize. 
The terrorist is going to go where the vulnerabilities are high 
and that's the significance I believe of all the 
recommendations that are being made today. If we educate 
people, Bob, if we respond as a government, if we integrate our 
intelligence, we reduce the vulnerabilities and that reduces 
the risk as we go forward.
    I'll stop with that, Mr. Chairman. I just think it's 
important, it's really come out in the panel and the earlier 
panel, this integration, this matrix where we--I'm optimistic. 
We can lick this thing, but it is going to take this 
integration that's been demonstrated by the panel today.
    Mr. Moodie.  Mr. Chairman, may I make just one quick 
comment on that.
    The Chairman.  Please.
    Mr. Moodie. I think it's particularly important for this 
committee with the mandate that it has. And that is that as 
much as we do here at home, that's still not the end of the 
story. Anthrax doesn't necessarily stop at our border. I think 
it would be interesting for the committee to examine what other 
countries are doing with respect to these kinds of issues.
    Our institute has done a lot of work in the issue of 
promoting cooperation in dealing with bio-terrorism 
internationally. You see a very spotty picture among our 
Europeans and elsewhere in terms of how serious they take the 
threat, the kind of money they're putting against it, the kinds 
of issues they're making, the kinds of medicines they're 
producing. It's a very mixed picture, and yet we're all going 
to have to be in this together. We can't do it by ourselves.
    The Chairman.  I think that's a valid point and it sure 
makes you wish for the good old days of the Cold War, doesn't 
it? You know, then everything was predictable. We knew that the 
commissars were not likely to take great risks and they were 
concerned about controlling all of their potential dangerous 
substances and God, I never thought I'd look forward to 
Communist Russia, the Soviet Union again.
    By the way, all kidding aside, I think the greatest 
frustration I've had as Chairman and Ranking Member of this 
committee is again and I don't know how to say it, I say it ten 
different ways, is getting to our colleagues and to the 
administration, past and present.
    I have an 86 year old dad who's very ill in the hospital 
right now, and he is constantly reminding me of two things 
about first things first and if all is equally important to 
you, nothing's important to you. It's very hard to get, I think 
you agree, Senator, get a handle on this and get our colleagues 
paying attention to it, the administration paying attention.
    I mean here we're talking about it again, I'm not 
criticizing the $8.3 billion we're going to spend this year on 
national defense. Great. Wonderful. But we're going to spend, 
what's it up to, $200 million now that we're talking about 
dealing or maybe $300 million dealing with the whole chemical 
reduction problem. Dealing with stockpiles of chemical weapons 
in, you know, in the former Soviet Union, particularly in 
Russia.
    I mean, it seems to me it's so out of whack what we're 
doing. I mean, Doctor, I would be willing to bet you, on this I 
may have some disagreement with my friend at least in tone with 
my friend from Tennessee, if we could somehow get every single 
state official and every single governor in one room at one 
moment and give you an hour to lay out your presentation, they 
could fund all by themselves in their states without a single 
penny.
    I mean if we can wire every single solitary classroom in 
the state of Delaware, every single classroom from kindergarten 
through high school is wired now to the Internet. Every singe 
one in my small state. If we can do that, we can do this in a 
heartbeat.
    Dr. Zelicoff.  Correct.
    The Chairman.  We can do this in a heartbeat. And so part 
of this problem is getting out A, to the public and to put 
pressure on our colleagues and to our colleagues how serious 
this problem is and then beginning to move on it. I mean, I 
can't understand why, to be very blunt with you, why every one 
of our colleagues aren't here at this hearing.
    I'm having trouble getting it and I've been here almost 30 
years. Maybe that's why I'm having trouble getting it. But let 
me point out one of my staff members, actually a fellow that 
was the science counselor at the U.S. embassy in Tokyo here in 
the room right now at the time of the sarin gas poisoning in 
the Tokyo subway, he indicated that a doctor who had dealt with 
a previously unsolved sarin attack outside of Tokyo faxed his 
correct diagnosis based on the reports he had heard on the 
radio and this was critical in saving lives and limiting the 
deaths to 12 of the 1,000 people who were exposed.
    And he said there's real live examples of what you're 
talking about.
    Dr. Zelicoff.  Somebody's going to recognize it. That's 
correct.
    The Chairman.  Real live examples of what you're talking 
about. I'd like to pursue three things. One with you, Doctor. 
You indicated the first 80 percent is easy, and the last 20 
percent is incredibly expensive. Tell us about the last 20 
percent. What does the last 20 percent consist of?
    Dr. Zelicoff.  From the standpoint of domestic 
counterterrorism with biological weapons, it consists of sensor 
development, consists of education and finally, it consists of 
integrating a wide and disparate flow of data. Things like 
pharmaceutical sales, absenteeism from major corporations or 
from schools on a given day, et cetera. That's all going to be 
much much harder to do.
    The information sometimes is proprietary. More to the 
point, we don't often know what do so with that information. So 
those are the things that I'm referring to in terms of domestic 
activities and that's going to be very expensive.
    The Chairman.  I'd ask both you and it's not our practice 
here to cross-examine our colleagues, but I'd ask him to chime 
in with you. What are medical schools doing? What are medical 
schools doing about training students?
    I'm a lawyer. Law schools are beginning to shift their 
focus on how they train lawyers to deal with some of the real 
and emerging concerns that exist within the law, different 
emphasis. For example, my law school which is not one of the 
top 10 law schools, but a very good law school, but no, I mean 
it's not one of the prestige law schools. I went to Syracuse. 
It's a very good law school.
    My law school now is rated one, two or three in terms of 
their emphasis on trial practice and clinics and they double 
the size of the law school just with one thing, providing 
clinics so that you have students in the community dealing with 
specific advocacy on specific issues.
    Tulane Law School, not one of the top three or five, but a 
very, very good law school, has probably the single best 
environment law department in the Unites States of America and 
has through their law students--I mean, before they even got 
their degrees, fundamentally altered some of the toxic tort 
cases that are going on and so much so the Louisiana 
legislature is considering defunding them. I'm told literally, 
not figuratively. So what are medical schools doing here?
    Senator Frist.  Mr. Chairman, let me just jump in. Because 
when anthrax hit here and because I knew at that time before 
New York had been exposed to this, I knew that it took six days 
for, without going to which patient it was, to make the 
diagnosis of the anthrax rash and it was interesting.
    If you really walk through that, some of it, most of it's 
been talked about before in the press, but this was with the 
very best doctors, with the CDC, with the best in 
transportation and the finest people, you know, a city that is 
advanced medically, it took six days. That's where we started. 
So the first letter that I wrote and contact I made as soon as 
anthrax hit here on October 14th was to the American 
Association of Medical Colleges and wrote every one of the 
deans personally myself to basically say, we got work to do. 
It's not their fault. It's nobody's fault.
    The Chairman.  No one's suggesting fault. I didn't mean to 
imply that.
    Senator Frist.  Exactly. But it's very important because as 
a doctor and I was trained in infectious disease because when I 
transplant these hearts, the heart transplant's easy, but it's 
keeping the infections down. So that's what I spent my life 
doing yet I never had seen, the same question I asked--I was 
pretty confident you hadn't seen it. I've never seen a picture 
of the anthrax rash, never had any reason to. Or Ebola or 
tularemia or smallpox. Yet those are the ones that our 
intelligence community says we're at risk for today.
    So anyway the response was we got together, the deans 
together within about two weeks and it's sort of working its 
way through the curriculum. But that was an immediate response. 
The American Medical College, a group of medical schools, about 
125, got together and the response has been pretty good there.
    The Chairman.  Yes, Dr. Sands.
    Dr. Sands.  I happen to just know a little bit about this 
because my own Senator has been trying to reach out to the 
medical community in a variety of ways to try to provide 
training on the broader context. Obviously we aren't the 
technical folks, but we know the political context and the 
history and something about the interest and use and perhaps 
delivery of some of these weapons.
    We have talked to a couple groups and actually put together 
a proposal that was to fit into curriculum changes that I 
believe are happening both in medical schools and the schools 
of public health. The funding that you all have provided is 
actually making a difference that has gone out to schools of 
public health to really integrate much more extensively 
information about the medical and technical components of this 
concern over biological threats.
    I know the American College of, I think it's called the 
American College of Emergency Practitioners has a task force 
that they've created and actually done a study on WMD concerns 
and their major thrust is how to integrate more educational 
aspects of this concern into their ongoing curriculum both for 
the, you know, first time you come through the curriculum as 
well as sort of catching up people who've been the field.
    They've at least got a whole set of recommendations that if 
implemented effectively, will in fact address some of these 
concerns, but they're just beginning. I mean, but what's nice 
to see is they are actually moving forward on it and I don't 
know, Al, you might know more specifically.
    Dr. Zelicoff.  Well there's an old saw in medicine, I'm 
sure Dr. Frist knows it. You see what you know and you know 
what you see. And if you've never seen a case of smallpox, 
anthrax, tularemia, botulism, you aren't about to make the 
diagnosis.
    The point is that there's always somebody out there who's 
seen it, read about it or like Dr. Frist happened to take a 
personal interest in it and if simply brought into the net, if 
brought into the web, the diagnosis rapidly emerges.
    That's precisely what we're trying to do here and the good 
news is that most public health officials are not only experts 
at what goes on in their community on a routine basis, they're 
smart enough to know when something unusual is happening just 
by dint of their experience.
    The one thing they don't have is the data. And if you make 
that data available to them, I'm highly confident in the vast 
majority of circumstances, they will be able to make the 
diagnosis early and get advice to the physician who has done 
the report in a timely fashion to not only save that patient, 
but to anticipate the additional casualties that will be 
occurring and to prevent them.
    The Chairman.  The reason why I asked the question is 
obvious, but I want to be a little more detailed. I recall how 
when Senator Frist in a joint meeting that we held because we 
needed a big room in the Senate dining room when all Senators, 
all 100, if not 100, 98 were there.
    I recall that it was incredibly complicated, but in one 
sense relatively easy to understand. I've been a great consumer 
of health care services. I spent seven months in intensive care 
and/or in an operating room or in a hospital or in recovery 
with a couple aneurisms, cranial aneurisms and a little 
embolism in between and I remember the neurosurgeons what they 
did with me and I mean, I know this sounds strange, but I think 
it's illustrative of the possibilities here.
    Between my first and second aneurism after I got out of the 
IC unit after 40 days with the embolism, they would literally 
have their staff at Walter Reed come up, the neurosurgeons, and 
have me identify, they put angiograms up on a slide for me and 
had me identify whether or not there was an aneurism or there 
was not an aneurism to teach me about it, knowing I'd be 
questioned a lot about this when I left the hospital being a 
public official and so that I didn't indirectly cause cardiac 
arrest among their organizational structure for identifying or 
making statements that were simply not accurate relative to 
aneurisms.
    I remember when Dr. Frist was laying out for us and 
actually giving us some and the colleagues he had brought along 
with him, what were the signs, what were the symptoms, what to 
look for, et cetera, that it struck me at the time, for 
example, it's the same with doctors, lawyers are required to 
continue to go to CLS classes, continuing legal services 
education classes. Once a year you have to show up for that 
purpose.
    I assume there's a same thing in most if not all medical 
societies in every state. I assume--am I correct in assuming, 
Dr. Sands, you're talking about the emergency physicians. Is 
there any discussion that part of the continuing medical 
education of doctors as they show up that they be educated at 
least to the four or five or six or three most likely diseases 
they may encounter that would be the result of a natural spread 
of the disease or as a consequence of a terrorist taking such 
action?
    Is that being contemplated or is that underway? Again, this 
is not casting aspersions or blaming anybody. This is all brand 
new to everybody.
    Dr. Zelicoff.  It is. There's one clear piece of evidence 
for that. This year on the national boards at least in internal 
medicine, there are four questions about bio-terrorism agents. 
There are four.
    The Chairman.  That's interesting.
    Dr. Zelicoff.  The bad news is, to repeat what I said 
earlier, you can read about measles for months and if you've 
never seen a case, you're not about to make the diagnosis. The 
point is that someone else will almost certainly make the 
diagnosis of a bio-terrorism related condition outside the 
clinic where the physician is working even if they've been 
educated in it.
    The Chairman.  Now, one of the things that we've all talked 
about in this committee because we have particular jurisdiction 
over it is some of these diseases occur naturally in the 
environment. For example, the plague. I mean there were two 
significant cases in India not to long ago. One of the cities 
was fairly well-educated and responded with serious factual 
information. One did not.
    The damage done varied between the two cities without 
boring my colleagues with the detail, but the bottom line is 
that there are a number of places where these disease may in 
fact occur naturally in the environment, if you will, and they 
have very little public health infrastructure.
    We talk about it with regard to dealing with AIDS which is 
a different subject. I'm not suggesting it's the same at all. 
In Africa, an area that Dr. Frist and Senator Feingold and 
others have spent a lot of time focusing on and we have an 
attempt here to try to provide through our foreign assistance 
budgets the ability of these public health organizations or the 
lack thereof in these countries, assistance.
    The thing that I wonder about as a practitioner without 
any, not a medical practitioner, a political practitioner of 
this trade figuring out how to deal with aid to other countries 
is these programs tend to work that we fund if they're models 
that are actually able to be picked up by countries that lack 
this infrastructure or lack expertise.
    I guess the question that I have if anyone wishes to 
respond to it, they may or come back in writing or pursue it in 
another forum, is what models are there available for helping 
countries, Third World countries in particular.
    I'm not in anyway, Mr. Moodie, suggesting the Europeans 
need not pay more attention where they have the capability, but 
in those countries where they do not have much of a public 
health infrastructure, are there models or are there means by 
which we can disseminate information and financial resources to 
help them? Because, you know, if Ebola breaks out in a country, 
if smallpox were to break out, intended or unintended, which is 
highly unlikely to be unintended right now.
    As you said, an airplane's a hell of an incubator and it 
sure can travel long distances. What should we be doing, this 
committee, this Congress, this government to deal with that 
dilemma?
    Mr. Moodie.  Senator, I think that first of all, it's a 
huge task because there is such an inadequacy in terms of 
infrastructure in so many parts of the world. So it comes back 
to the point you were making before about setting priorities. I 
think both Amy and Al in their way have stressed what should be 
the starting point which is disease surveillance capabilities. 
The ability to identify, report and understand has got to be 
the starting point for doing that.
    At the moment, globally, there are a lot of things going 
on, whether they're under the auspices of the World Health 
Organization or private surveillance activities, PROMED for 
example, a number of other things. But there's nothing that 
brings these things together. There's nothing that makes it a 
strategically coherent approach to this, and there are places 
still where it doesn't happen.
    So while there are other aspects of public health in parts 
of the world that also have to be pursued in terms of 
capabilities on the ground, I think that the first place to 
begin is by emphasizing the surveillance issue, in part because 
it serves a dual purpose.
    One is that it will help us deal with issues of emerging 
and re-emerging infectious diseases. Second, a better global 
disease surveillance and reporting system might also be helpful 
in distinguishing between a naturally occurring, although 
unusual outbreak, and in fact a deliberate attack.
    I know that is a very difficult thing to do. But, over 
time, with a developing system, we at least are moving in that 
direction where nothing exists today. So I think it's a huge 
task, but in terms of setting priorities my own would be to 
focus initially on disease surveillance and reporting and to 
move forward on a global basis working with a number of pieces 
that are already in place as the foundations on which to build, 
to bring together and to move forward.
    Dr. Zelicoff.  If I can build on what Mike just said. I 
think also we have to do disease surveillance in a different 
way than we've done it in the past. Our emphasis has always 
been on spreading laboratory equipment around and then using 
that laboratory equipment to make disease specific diagnoses.
    That's scientifically the nice way to go. It's also by far 
the single most expensive way to go. Instead, a surveillance 
system that focuses not on requiring a laboratory based 
diagnosis but the physician's suspicion of unusual signs and 
symptoms associated with geographic information like this goes 
a long way, goes 80 percent of the way to making the diagnosis.
    To put it another way, I don't think in a world of limited 
resources we need more laboratory equipment sprinkled around 
the world. We need much more intelligent use of the laboratory 
resources we currently have and testing thousands of people for 
anthrax when a few people have been exposed is an example of 
exactly what not to do.
    Mr. Moodie.  I think part of it also has to do with 
changing government attitudes. One of the reasons the plague in 
India had the impact that it did was the hesitance on the part 
of the Indian government to acknowledge it, to get the 
resources in. That is a political issue, and there are a lot of 
political sensitivities about the way the WHO does it's work as 
an international organization which I'm sure you all know much 
better than I do. Part of this also has to be changed in 
government attitudes towards the importance of disease 
surveillance, getting the information out where it's needed so 
that people can deal with it in a way to deal with the problem.
    The Chairman.  We see that in Africa with AIDS.
    Mr. Moodie.  Absolutely.
    The Chairman.  Sure.
    Mr. Moodie.  And I think that's got to be part of the 
campaign in addition to getting the kinds of equipment on the 
ground that will help move things forward.
    Dr. Sands.  Senator, just one other additional comment to 
add to what my two colleagues have already said. I mean, I 
think it would be useful to actually review what infrastructure 
might exist in, you know, around the world in different 
regions.
    For example, I'm aware of the fact that under the Soviet 
system there was a rather extensive system of what we'll call 
the anti-plague institutes that did in fact disease monitoring 
for the reasons, I mean, in part because of BW program, I think 
they were trying to sort of be ahead of that one for 
themselves, but have especially in central Asia I think fallen 
sort into disarray. But they have a very rich history and they 
know their communities. They could be the basis of a capability 
in central Asia which would be a critical area I think to be 
able to get more data out of and it could be a model for other 
areas.
    Senator Frist.  Mr. Chairman, this is a fascinating 
discussion. About a year and a half ago after looking at what 
was done for our public health system here, which Dr. Zelicoff 
hit right on the head, underinvested, no infrastructure out 
there, easy to do, we just got to do it.
    Then we went and I and several other people requested from 
the GAO a report just on this. I was interested internationally 
because now we know germs have no borders, what we've heard all 
day which is obvious, but it's not obvious to the way we've 
traditionally looked at things.
    We looked at what we have in public health here, 
inadequate, underinvested in the past and we asked for a GAO 
report about a year, I think it was last fall, and it was 
called Challenges in Improving Infectious Disease Surveillance 
Systems.
    It concluded, this GAO report and we can share it with 
everybody, it concluded that global disease surveillance 
especially in developing countries is woefully inadequate to 
provide advance warning about newly emerged diseases including 
things like antibiotic resistant tuberculosis or the suspected 
use and testing of dangerous organisms as bio-weapons.
    We got most of the information there. Dr. Sands, I think we 
need to update it as we go forward. And I think your bill, Mr. 
Chairman, is on this Global Pathogen Surveillance Act this 
year, you know, by the time we finish that, I think we can make 
a great bill which addresses just this.
    One final comment. You mentioned the plague and in our list 
that I keep kind of spewing out and Dr. Zelicoff mentioned 
because that's not the focus of this hearing, but things like 
Ebola we don't know anything about. We don't know why Ebola 
occurs. We don't know why it reoccurs. About 30 or 40 cases in 
East Africa the other day, central East Africa, we have no idea 
really.
    Now, the good news, the NIH right now announced four days 
ago that they're developing a vaccine against Ecola, but it's 
again matching how little we know with the intelligence with 
the response whether it's NIH or CDC as we go forward.
    You mentioned the plague and in passing, Dr. Moodie 
mentioned it. What happened there was panic, was surge 
capacity, overwhelming the system, lack of trust of government, 
people leaving, fleeing the city. This is one of the two cases 
that you mentioned. This isn't ancient history, this is 
recently. And that was a good point.
    It's the exact same thing that happened at an exercise that 
we in part funded, a public/private partnership called Top Off 
and it was at the Denver Performing Arts, it was an exercise, 
everybody's heard about it. But that was the same plague that 
you referred to. It's the same little entity, little micro-
organism and there we found that through this exercise of using 
the very best of what we had in 2000, 2001 and using this 
model, we had 950 people to 2,000 people dead after just a few 
weeks, 4,000 people in hospitals and mass panic, distrust of 
government, breakdown of civil institutions.
    I say all this because what you mentioned recently with the 
plague internationally is exactly what we through our best 
modeling have demonstrated what happened here, all of which we 
can fix. We can reduce these vulnerabilities by engaging the 
sort of legislation you put forward, support of our public 
health infrastructure, adopting programs like we've been 
introduced to today in terms communication among health 
officials as we go forward.
    Dr. Zelicoff.  And we know that that works. New Mexico, my 
home state, is the land of the flea and the home of the plague. 
Yet, there's never panic when we have plague cases and we have 
half a dozen a year. Why is that? It's because we're easily 
able to share our expertise on that one illness between the 
public health department and local clinicians.
    So when a plague case is announced as it will be announced 
this fall, it happens ever year, there's never panic in New 
Mexico simply because we have experience in dealing with it and 
that can be shared through systems like this.
    Mr. Moodie.  I also think it underlines the need to be 
sensitive to the whole range of potential problems here. I'm a 
little bit concerned that because of our recent experience and 
because of the potential implications of it, we've become 
mesmerized with anthrax and smallpox and that's it. That's 
where our attention is, that's where the money's going, that's 
where the medicines are going, the stockpiles are dealing with 
that. But we've got plague, tularemia and who knows what else; 
water born pathogens of various kinds that nobody ever talks 
about; for example, cryptosporidium and a variety of other 
things.
    It seems to me we are going to do ourselves a disservice. 
The agent is part of the risk that we have, but the threat is 
constituted by how that agent interacts with who have it, how 
they're going to use it, against what kinds of targets. So I 
think that, as we move forward on this, we just can't be 
mesmerized by the immediate event of the day, but recognize the 
range of potential dangers here is much greater than it has 
been suggested. We've got to find ways of dealing with that 
whole range. Today, things like surveillance can't do it. They 
are the ones that are going to make the distinctions to allow 
us to react appropriately to the range of agents that 
potentially exists.
    The Chairman.  Quite frankly, it seems to me this is 
probably the biggest bang for the buck. I mean the ancillary 
benefits that flow from this kind of initiative in the broader 
scale are so profound and so welcome and so beneficial in terms 
of bang for the buck, it seems to me that this is the ultimate 
win/win initiative we could have.
    I've trespassed on your time much too much. I'm going to 
ask a number of questions particularly to you, Mr. Moodie and 
you, Dr. Sands, about what we didn't get into at all. The only 
place I do have any expertise and that is the arms control side 
of this agenda which is we're in a new age, a new time and in a 
sense to be overly simplistic, but we need a new arms control. 
We need a new way to deal with arms control.
    It's not the only tool, but it's an important tool here and 
I may ask you to consider whether or not you would be willing 
to come back at another time and also whether you would 
entertain my staff out in Monterey to go into much more detail 
with you. I know they'd hate to be sent there. I don't why 
anybody would ever leave Monterey.
    But any rate, for example, there's a need for new thinking 
you point out, Mr. Moodie, but we need some specifics about 
again something I've spent a lot of time thinking about. I'm 
not sure I'm right but, you know, the issue that you point out 
that how do we deal with Biological Weapons Convention 
challenge with those who are cheating and those who are not 
parties?
    There's a distinction there and as you recall, because I've 
been doing the arms control beat for so long on other issues, 
you now, the great complaint that began to be mouthed by people 
like the former Secretary of Energy.
    Dr. Zelicoff.  Slesinger?
    The Chairman.  Slesinger was that the Atoms for Peace 
program, the IEA, were counterproductive in that they spread 
knowledge rather than contained it. Well, you point out this 
issue of maybe we separate this notion of access limitation of 
a capability and aid, that to join a treaty to gain access may 
be counterproductive for our interests.
    And I think it's an entire area we have to explore that we 
haven't paid much attention to. And so I really think your 
contribution, Dr. Sands, about you know re-examining the 
assumptions is probably the most useful way to begin a lot of 
this discussion.
    But I'd like to conclude by again, I've taken so much of 
your time. As you can tell, my interest is almost unending on 
this subject, but the thing I want to thank the three of you 
for is for having taken this so seriously, taking your 
invitation to come before this committee as serious as you 
have.
    It's obvious from your presentations that you took it very 
seriously and I just want you to know the committee and I in 
particular and you could tell by the questions here, we take 
your input very, very seriously. And it's a little big like, 
you know, when you sign up and you make a--I could never 
understand why I thought it was just purely out a noble 
instinct why occasionally very wealthy individuals contributing 
to a charity wanted to make their contribution anonymous.
    I now understand why and that is they get called on 
repeatedly once their name gets put on the list and maybe even 
sold, which is another privacy issue we have to talk about, but 
any rate, I unfortunately for you all your contributions are 
taken seriously.
    You're about to be put on the list, if you will. I suspect 
you'll get a lot more requests for your input and I want to 
repeat, Mr. Moodie, what the guy whose been the leader in 
dealing with the proliferation issue, nonproliferation I guess 
is more accurate than proliferation issue, Senator Lugar has 
said.
    Your help on the House side was invaluable. You've kicked 
the can. You've helped us kick up the visibility here. As you 
recall a couple years ago, there was talking about zeroing out 
most of these initiatives. It's still woefully inadequate, but 
it's at least four to six times what it was likely to have been 
and it's in large part due to your help and we appreciate it 
very, very much.
    In truth, I would suggest that it's ultimately because of 
Senator Lugar--when the administration testified before this 
committee with their budget request, they expected to get a 
hard time from me, but I don't think they expected as blunt and 
as straightforward, although he would never characterize it 
this way, as threatening a response as they got from Senator 
Lugar.
    So maybe together we can continue to make some progress 
here. And I thank you all for your input here and assure you 
we'll be asking each of you again hopefully in the not too 
distance future for additional help and maybe ways in which we 
can help implement some of what you're suggesting, Doctor, with 
regard to allowing public health officials to have access to 
this additional information which seems to me to be, although 
very difficult to put together, an alarmingly simple and cost-
effective way to help us make progress here.
    Dr. Zelicoff.  Thank you.
    The Chairman.  I am absolutely convinced that the American 
people are fully capable of dealing with anything that they 
face given sufficient information, given sufficient honest 
input, there's not much we can't handle and so I thank you all 
for your input.
    If anyone would like to make a closing comment, I'd welcome 
it. Not required. By the way, the entirety of each of your 
statements will be placed in the record and as a friend and I'm 
going to take the time to see that each of my colleagues are 
not mailed the whole transcript because they'll never read that 
nor do they have time. There's no possibility.
    It's interesting, up here we're, as should be expected by 
our constituents, to be experts in everything from weapons of 
mass destruction to HCVA, from the Corps of Engineers to 
education and it's not possible. I think your three individual 
submitted statements for the record are worth reading for my 
colleagues and so I'm going to make sure they get copies of it.
    Mr. Zelicoff.  I have one closing thought. What I've just 
heard you say is that investments in public health are really a 
no regrets philosophy. Good counterterrorism is in fact good 
public health and even if there is never a terrorist attack on 
a large scale--and let's hope there isn't--the public health 
system will benefit and that will improve the rational care of 
medical care in the Unites States.
    The Chairman.  I just think the benefits are so--I mean, 
like you said, if there's not ever a single solitary additional 
effort to use any pathogen or disease as a weapon or I mean, we 
need this, period.
    For example, when I talk about the need to improve our 
safety and surveillance capabilities with regard to targets, 
different issue, the actual specific targets that terrorists 
may use, people look at me because I fixate on the rail system 
which is so vulnerable. And I point out to everybody the City 
of Baltimore shut down for the better part of a week because 
there was a fire in a tunnel. A fire. A fire. Nothing more. An 
accidental fire in a tunnel.
    And so when my colleagues point out to me that, you know, I 
may be wrong about a terrorist attack occurring in whatever 
form in one of the tunnels on the system, I point out to them 
that it's a good thing to modernize the tunnel, period, 
unrelated to whether or not there is a terrorist attack. It's a 
good thing to modernize, bring into the 21st century our public 
health system just in terms of connectivity, as they say in the 
ads, even if there weren't any threat of terrorism.
    Mr. Moodie.  Mr. Chairman, if I might make just the last 
comment on your remarks about where do we go in arms control. 
Our institute actually right now is engaged in a study that's 
focusing on exactly that, and we hope to have recommendations 
well before the resumption of the review conference in 
November. We would very much welcome your personal 
participation and that of your staff, not only in terms of the 
finished recommendations, but also in the process of getting us 
there. We'd welcome that support and very much look forward to 
it. Thank you.
    The Chairman.  We are like poor relatives. We show up when 
we're invited. So I thank you all very, very much. We are 
adjourned.
    [Whereupon, at 1:38 p.m. the hearing was adjourned.]

   Statement Submitted for the Record by Senator Russell D. Feingold

    Mr. Chairman, thank you for calling this important hearing. I am 
grateful for the opportunity this hearing provides to discuss the 
threats caused by chemical and biological weapons. This is a serious 
threat that cannot be ignored. Indeed, I believe the anthrax attacks on 
the United States last fall startled all of us. They demonstrated that 
biological weapons can be delivered with relative ease, resulting in 
widespread fear and confusion. And while the loss of life in those 
attacks was itself a terrible tragedy, I think many of us were also 
surprised by the level of disruption caused by the subsequent clean-up 
operations. The attack here on the Capitol closed a large public office 
building for months, requiring extensive remediation efforts at 
significant taxpayer expense. It is clear today that these weapons pose 
a significant threat to both our civilian population and to our 
civilian infrastructure.
    We must act forcefully to respond to these threats. But to respond 
effectively, we must first understand the nature of the threat, and we 
must do a better job of monitoring the materials that can be used to 
make these weapons. If we have had a difficult time in keeping track of 
some of our own biological materials here in the United States, we can 
imagine that the breakup of the former Soviet Union created an 
unprecedented opportunity for terrorists and rogue states alike to 
acquire chemical and biological materials and technologies. The 
challenge now is to create the right balance of incentives and mandates 
to convince all states to adhere to the international regimes that have 
been created to control the proliferation of chemical and biological 
weapons materials. I trust this hearing today will begin to explore the 
contours of a robust and ultimately more effective international regime 
to reduce the threats posed by chemical and biological weapons.

                               <greek-d>

      

</pre></body></html>
